<html>
<title> - FEMA HOUSING: AN EXAMINATION OF CURRENT PROBLEMS AND INNOVATIVE SOLUTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    FEMA HOUSING: AN EXAMINATION OF CURRENT PROBLEMS AND INNOVATIVE 
                               SOLUTIONS

=======================================================================

                                HEARING

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

                           Serial No. 111-27

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
52-955                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Lavant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................     3

                               WITNESSES
                                Panel I

Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Richard L. Skinner, Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Gerald H. Jones, Member, National Institute of Building 
  Sciences:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21

                                Panel II

Ms. Erica Rioux Gees, Representative, The American Institute of 
  Architects:
  Oral Statement.................................................    54
  Prepared Statement.............................................    55
Mr. Reilly Morse, Senior Attorney, Mississippi Center for 
  Justice:
  Oral Statement.................................................    59
  Prepared Statement.............................................    61
Mr. Don Kubley, President, Intershelter:
  Oral Statement.................................................    70
  Prepared Statement.............................................    72
Mr. Braddon B. Rininger, President, Brajo, Incorporated:
  Oral Statement.................................................    74
  Prepared Statement.............................................    76
Mr. Walter J. Boasso, Chief Executive Officer, Help, LLC:
  Oral Statement.................................................    81
  Prepared Statement.............................................    83

                             For the Record

SG Blocks:
  Statement, Submitted by Chairman Bennie G. Thompson............    88
Slides, Submitted by Chairman Bennie G. Thompson.................     6

                                Appendix

Questions From Chairman Bennie G. Thompson of Mississippi for W. 
  Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security........................   103
Questions From Honorable Yvette D. Clarke of New York for W. 
  Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security........................   107
Question From Honorable Dina Titus of Nevada for W. Craig Fugate, 
  Administrator, Federal Emergency Management Agency, Department 
  of Homeland Security...........................................   110
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Richard L. Skinner, Inspector General, Department of Homeland 
  Security.......................................................   110
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Gerald H. Jones, Member, National Institute of Building 
  Sciences.......................................................   111


    FEMA HOUSING: AN EXAMINATION OF CURRENT PROBLEMS AND INNOVATIVE 
                               SOLUTIONS

                              ----------                              


                        Wednesday, July 8, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:03 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Jackson Lee, 
Cuellar, Carney, Clarke, Richardson, Pascrell, Cleaver, Green, 
Himes, Kilroy, Massa, Souder, Lungren, McCaul, Dent, Bilirakis, 
Olson, Cao, and Austria.
    Chairman Thompson [presiding.] The committee will come to 
order. The committee is meeting today to receive testimony on 
``FEMA Housing: An Examination of Current Problems and 
Innovative Solutions.''
    Today's hearing will examine FEMA's ability to provide 
interim housing after a catastrophic event. While we intend 
this hearing to look toward the future, we must recall the 
past.
    Almost 4 years ago, the most destructive series of 
hurricanes this Nation has seen struck the Gulf Coast. One 
after another, Katrina, Rita, and Wilma dealt devastating blows 
to a region of this country that I call home. Mississippi, 
Louisiana, Alabama, and Texas all buckled under the force of 
these storms.
    Hurricane Katrina destroyed an estimated 300,000 homes, 
displaced 700,000 people, and resulted in the deaths of more 
than 1,300 individuals. In the aftermath of the rains, the 
winds, and the broken levees, the people of this region had to 
begin the process of rebuilding their lives. That is when they 
looked to FEMA.
    In response, FEMA purchased over 27,000 travel-trailers off 
the lot, 25,000 mobile homes at a cost of $850 million, and 
over 1,700 modular homes at a cost of $52 million. 
Unfortunately, prior to these purchases, FEMA did not have a 
plan for how these homes would be used. Some of them remain on 
lots in Hope, Arkansas; Texarkana, Texas; Purvis, Mississippi; 
and Baton Rouge, Louisiana. We have a picture of that lot in 
Hope, Arkansas, on the screen.
    While FEMA's failure to plan is disturbing, far more 
disturbing is the Office of Inspector General's report that, 
prior to Hurricane Katrina, FEMA was not fully prepared to 
provide sheltering or transitional housing to victims of a 
catastrophic disaster.
    As a result of FEMA's failure to plan, the last 4 years 
have been a series of missteps, missed opportunities, and 
misspent money. We have seen the Federal Government resort to 
all forms of housing: Cruise ships, converted military 
barracks, apartments, hotels, and trailer parks. We have even 
seen the Federal Government pay over $100,000 for mobile homes. 
Yet we have not seen a comprehensive plan to address the 
continued dislocation of the families along the gulf.
    On January 16, 2009, in the last week of the Bush 
administration, FEMA released a housing strategy. That strategy 
called for developing an operational plan and building disaster 
housing capabilities. In essence, it is a plan to make a plan; 
I think that leaves us without a plan.
    Administrator Fugate, under your leadership, I want FEMA to 
develop a comprehensive housing plan. This plan can neither 
ignore the people who remain homeless after Katrina nor 
continue to rely on the same old solutions. I hope this hearing 
today will begin a dialogue to create innovative, cost-
effective, and more temporary housing.
    Housing gives people a sense of security after a disaster. 
Knowing you have a home is truly the beginning of recovery.
    I want to thank our witnesses, and I look forward to the 
testimony.
    [The information follows:]

           Prepared Statement of Chairman Bennie G. Thompson
                              July 8, 2009

    Almost 4 years ago, the most destructive series of hurricanes this 
Nation has seen struck the Gulf Coast. One after another--Katrina, 
Rita, and Wilma dealt devastating blows to a region of this country 
that I call home.
    Mississippi, Louisiana, Alabama, and Texas all buckled under the 
force of these storms. Hurricane Katrina destroyed an estimated 300,000 
homes, displaced 700,000 people and resulted in the deaths of more than 
1,300 individuals.
    In the aftermath of the rains, the winds, and the broken levees, 
the people of this region had to begin the process of rebuilding their 
lives.
    And that is when they looked to FEMA. In response, FEMA purchased: 
over 27,000 travel trailers ``off the lot'', 25,000 mobile homes at a 
cost of $852 million, and over 1,700 modular homes at a cost of $52 
million.
    Unfortunately, prior to these purchases, FEMA did not have a plan 
for how these homes would be used.
    Some of them remain on lots in Hope, Arkansas; Texarkana, Texas; 
Purvis, Mississippi and Baton Rouge, Louisiana. We have a picture of 
the lot at Hope, Arkansas.
    While FEMA`s failure to plan is disturbing, far more disturbing is 
the Office of Inspector General's report that prior to Hurricane 
Katrina, FEMA was not fully prepared to provide sheltering or 
transitional housing to victims of a catastrophic disaster.
    As a result of FEMA's failure to plan, the last 4 years have been a 
series of missteps, missed opportunities, and misspent money.
    We have seen the Federal Government resort to all forms of 
housing--cruise ships, converted military barracks, apartments, hotels, 
and trailer parks. We have even seen the Federal Government pay over 
$100,000 for mobile homes. Yet we have not seen a comprehensive plan to 
address the continued dislocation of the families along the Gulf.
    On January 16, 2009--in the last week of the Bush administration, 
FEMA released a Housing Strategy.
    That Strategy called for developing an operational plan and 
building disaster housing capabilities. In essence, it is a plan to 
make a plan. I think that leaves us without a plan. Administrator 
Fugate, under your leadership, I want FEMA to develop a comprehensive 
housing plan. This plan can neither ignore the people who remain 
homeless after Katrina nor continue to rely on the same old solution.
    I hope this hearing today will begin a dialogue to create 
innovative, cost-effective and more than temporary housing. Housing 
gives people a sense of security after a disaster. Knowing you have a 
home is truly the beginning of recovery.

    Chairman Thompson. The Chair now recognizes the gentleman 
from Indiana, Mr. Souder, for an opening statement.
    Mr. Souder. I thank the Chairman.
    I would like to welcome our witnesses and thank them for 
taking time to be with us today. Ranking Member King is unable 
to attend this hearing today due to a scheduling conflict.
    This hearing is an opportunity to discuss a broad range of 
issues surrounding how our Nation provides housing for disaster 
victims. This hearing also marks the first time that Craig 
Fugate, the new administrator of FEMA, has testified before the 
full committee since his confirmation.
    Thank you for being here today.
    FEMA has made significant progress since the Gulf Coast 
hurricanes of 2005, but more work remains to be done in 
coordinating the overall disaster housing response, managing 
disaster assistance programs, and clearly delineating roles and 
responsibilities for community recovery.
    It is important to emphasize that FEMA cannot and should 
not handle disaster housing on its own. Resources from the 
Department of Housing and Urban Development, the Small Business 
Administration, State, local, and Tribal governments, 
nongovernmental organizations, and the private sector are all 
needed to achieve a comprehensive disaster housing capability.
    Also, FEMA's housing programs by law are temporary. That 
means that housing options that FEMA provides, such as travel 
trailers and mobile homes, are not intended to be long-term 
solutions for victims of disasters, but rather a means to help 
disaster victims return to their lives and recover their 
communities.
    A lack of housing and rental properties immediately after 
Hurricane Katrina and more recently after Hurricane Ike, for 
example, made temporary housing units the reasonable solution 
for victims who wanted to stay close to their homes.
    Especially, for example, in Katrina, for many low-income 
people, their land and their homes were their only assets and 
have been in their families for many, many years, so they 
didn't want to leave their local area.
    I look forward to hearing from our witnesses today about 
how FEMA can potentially use a national disaster housing 
strategy, in addition to new technologies and innovative 
designs, to continue identifying practical, cost-effective 
options for temporary housing.
    While FEMA housing is an important issue, I would like to 
note that Administrator Fugate testified on a related topic 
only last month in the subcommittee, and there are many other 
pressing issues on which the administrator could testify today, 
such as the state of preparedness for this year's hurricane 
season and his plans for managing FEMA.
    We really have two fundamental questions. One is the short-
term housing question, which in my district many of the units 
were provided from Elkhart County. There were expectations and 
many frustrations and claims about the so-called trailers not 
being able to be lived in.
    Some were not intended to be long-term, but, in fact, 
millions of Americans do live in other types of trailers for 
many, many years in many locations across the United States 
without problems, and I believe the problems were exaggerated, 
as is evidenced by there was actually greater problems with 
formaldehyde in traditional housing in Louisiana than there was 
there.
    So I don't believe any of these units were intended to be 
long-term housing, but I do believe the frustrations have led 
to some false information.
    The second thing, having been into New Orleans twice right 
after the--immediately after the first group that came in from 
Homeland Security and the Government Reform Committee and then 
going back for a number of days a few years later, that part of 
what we have to deal with and the challenge that you have is 
that a smaller-scale disaster and then a larger-scale disaster.
    Because when you got down into New Orleans, people wanted 
to go back to their land. At the same--and their homes. At the 
same time, the entire infrastructure was destroyed, over a 
whole section of the city. When you met with the different 
leaders as they tried to work through, how do you get medical 
facilities there? Is there going to be a grocery store? Is 
there going to be a school?
    When there is not in an area that didn't necessarily have 
an easily restorable financial sector, how do people go back 
in? What is the motive for the--do the retailers come first, 
the medical come first, the housing come first? It is at a 
massive scale, I think something that FEMA has to separate 
through a short-term disaster and one when there is a large 
scale that is going to take a long time to rebuild, and there 
needs to be like two different types of strategies to address 
these.
    Until we do that, I think you are going to continue to have 
very frustrated Members of Congress looking at these massive 
ones and saying, ``These people were supposed to be out of 
these units years ago, and yet you are trying to rebuild, in 
effect, an entire downtown or area of a city that is far more 
massive than emergency housing.''
    I yield back.
    Chairman Thompson. Other Members of the committee are 
reminded that, under committee rules, opening statements may be 
submitted for the record.
    I welcome our first panel of witnesses. Our first witness 
is Administrator W. Craig Fugate, administrator of the Federal 
Emergency Management Agency. Mr. Fugate began his career in 
emergency management as a volunteer firefighter--that is not a 
bad beginning--and emergency paramedic. Prior to his 
confirmation by the U.S. Senate in May 2009, he served as the 
director of the Florida Division of Emergency Management.
    Our second witness is Mr. Richard Skinner, Inspector 
General of the United States Department of Homeland Security. 
Mr. Skinner was confirmed as the Department of Homeland 
Security's inspector general on July 28, 2005. Between December 
9, 2004, and July 27, 2005, he served as acting inspector 
general.
    Our third witness happens to be a constituent of the 
gentleman from Missouri, Mr. Cleaver.
    I ask unanimous consent to permit the gentleman from 
Missouri to introduce our third witness.
    No objection is heard. I recognize Mr. Cleaver for the 
purpose of introducing the witness.
    Mr. Cleaver. Thank you, Mr. Chairman. I appreciate the 
opportunity to introduce Gerald Jones to the committee.
    It also gives me a chance--you know, living in a city, 
serving as mayor in a city called Kansas City, Missouri, and 
then across the river is another city called Kansas City, 
Kansas, and some people with 175 I.Q. don't know the difference 
between Missouri and Kansas. So they will ask me, ``You know, 
how are things in Kansas?'' Or, ``How is Dorothy?'' which, of 
course, I don't know the answer.
    Overland Park is a suburb of Kansas City, Missouri, but 
Overland Park is in Kansas, another State. Our city codes were 
in shambles. We had protests from organized labor. We had 
complaints from development lawyers. We had complaints from 
home builders, all upset over our code system and how difficult 
it was to do business in Kansas City as we heard it.
    Then, fortunately for us, we had someone just across the 
State line who had done a fabulous job over in Overland Park, 
Kansas, as the building code engineer, and that was, of course, 
Gerald Jones.
    So we were able to recruit him. He did not volunteer to 
come to Kansas City, Missouri. We recruited him to come into 
Kansas City.
    Mr. Chairman, he completely reorganized our entire system, 
developed a one-stop shop so that people could come through the 
city, get the codes and building permits and so forth, in a 
very easy way. It is a process that still is underway.
    To my great pain, he retired in 1994, which was the middle 
of my mayoral term, but he didn't retire from work, and he has 
worked tirelessly in the field serving as chair of the National 
Institute of Building Sciences and its Building Seismic Safety 
Council and Multihazard Mitigation Council. He, in addition to 
that, was appointed by FEMA to the Advisory Committee for the 
National Earthquake Hazards Reduction Program.
    He is an expert if we have ever had an expert come before 
this committee, and I am very pleased, Mr. Chairman, that he 
was invited and agreed to be with us today.
    Chairman Thompson. Well, with that kind of introduction, 
Mr. Jones, we want to welcome you.
    Without objection, the witnesses' full statement will be 
inserted in the record. To provide Members images of the type 
housing the witnesses are describing, slides will be displayed 
on the monitors. Without objection, the slides will be inserted 
into the hearing record at the appropriate point.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Thompson. I now recognize Administrator Fugate to 
summarize his statement for 5 minutes.

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and distinguished 
Members of the committee. I am honored to appear here today and 
discuss disaster housing.
    I really appreciate the fact, Congressman Cleaver, you 
brought up and you talked about mitigation. One of our 
challenges will be, as long as our housing stock is vulnerable 
to the hazards we face--and the numbers can be staggering--we 
are never going to get to where we need to be on housing if the 
homes we are building aren't sound in the first place.
    To give you some examples of that, Mr. Chairman, during our 
catastrophic planning, looking at various parts of the country, 
what would happen in a major earthquake, a major hurricane-type 
scenario, looking at natural hazards, here are some numbers we 
are dealing with.
    If we look at the New Madrid earthquake zone, based upon 
our catastrophic planning, if a major quake occurred there 
today, approximately 2.6 million people, or roughly 1 million 
households, will need housing assistance.
    If South Florida is struck by a Category 5 hurricane, 
similar to the great Miami hurricane in 1926, 3.6 million 
households would be uninhabitable with major damage.
    San Francisco in a 7.0 to 7.9 earthquake, about 100,000 
would need short-term, 36,000 longer-term. That is a pretty low 
number until you understand that California has been doing 
seismic code for a long time and had been building in 
structures for that.
    Hawaii, which uses single-wall construction, if you had a 
Category 4 hurricane affect the major islands there, as many as 
650,000 residents would be without housing.
    These are the events that could occur. In our history, they 
have occurred. So in looking at how we address short-term to 
longer-term permanent housing solutions, I think it is very 
appropriate, Mr. Chairman, that one of the presentations is 
mitigation and how we build our homes to mitigate against a 
hazard we face. That will be the best overall starting point 
for reducing demand in future disasters.
    But given that and our role at FEMA, the effect of our 
housing program and how it scales is demonstrated by a recent 
event in 2007 in Kansas, Greensburg, where we had an F4 tornado 
strike. It produced about 1,400 families who needed housing and 
needed assistance.
    Our programs provided temporary housing for over 300 of 
those families. That is typical of many of the responses that 
occur every day in this country from Alaska to Florida to even 
working with our territories and our commonwealths of 
reoccurring events where we have housing demands that 
oftentimes, either through the use of rental properties, non-
impacted areas, or temporary housing units, we are able to 
provide a sheltering environment to allow people to either 
rebuild back on their property, repair their homes, or find 
other housing in the area.
    But there is a point where those systems will not scale up 
in a catastrophic event. Oftentimes when we are looking at the 
shorter-term shelter issues of providing temporary housing 
units as a bridge, it is a bridge that doesn't get us to a 
long-term solution.
    As we saw in the southern States in the Katrina and Rita 
areas, the amount of demand for long-term housing was not 
addressed with temporary units because, at the end of what 
should have been a temporary program, housing had not come back 
with enough housing stock for people to move out of those 
units.
    When we look at these numbers, what we find is we are often 
now facing a point at which we have to make decisions about, 
how do we best manage housing needs in the sheltering phase 
through that temporary housing process through, what is the 
long-term answer? Do we need to look early in some of these 
catastrophic events at relocating populations out of an area to 
where there are housing units available?
    There is finite capacity to install temporary housing 
units. There is finite capacity on how quickly units can come 
back on-line. When we look at this process, Mr. Chairman, we 
need your guidance. We know this is not something that FEMA 
will be able to address if we do not have those long-term 
housing solution programs.
    We are essentially looking at sheltering through the 
intermediate housing phase until there is a solution that would 
provide long-term needs being met. We need to work as partners 
with our State and local governments, with our private sector, 
but, Mr. Chairman, most importantly, with you and your 
committee on how we lay out a plan.
    I think right now we have been able to present that we have 
many tools in the toolbox, but without a good architectural 
blueprint, I am not sure we are always getting to where we want 
to go when we build out for temporary housing.
    You brought up the issue, Mr. Chairman, that we still see 
people in temporary housing, you know, 4 years later. There are 
about 2,700 families in temporary housing units as we speak 
right now, and that number continues to go down as we continue 
to do casework.
    As you present, many units were purchased and not used. We 
are having to look at, what do we do with those units and 
dispose of them? We currently have court orders saying that 
some of those units we may not dispose of; they are being held. 
Others, we are trying to dispose of those through GSA and other 
aspects of how we eliminate surplus property.
    But we still need to work on, what is the number that we 
need to have in inventory for a lot of reoccurring disasters? 
Then how do we scale up for the large-scale catastrophic 
events?
    With that, Mr. Chairman, I will conclude my remarks and I 
am available for further questioning.
    [The statement of Mr. Fugate follows:]

                 Prepared Statement of W. Craig Fugate
                              July 8, 2009

    Good morning Chairman Thompson, Ranking Member King, and other 
distinguished Members of the Committee on Homeland Security. It is a 
privilege to appear before you today on behalf of the Department of 
Homeland Security and the Federal Emergency Management Agency (FEMA). 
As always, we appreciate your interest in, and continued support of, 
FEMA's mission to prepare for, protect against, respond to, recover 
from, and mitigate all hazards.
    Mr. Chairman, disaster housing may be among the most challenging 
and complex missions facing our agency, and the Nation, following a 
catastrophic event. No aspect of recovery is more critical to the 
timely and sustainable revitalization of a disaster-impacted community 
than the return of its citizens and workforce, and no aspect of 
recovery is more critical to supporting their return than the 
availability of housing. This situation will be most acute in 
catastrophic environments where the level of damage is so severe that 
locally available rental resources are insufficient to meet the needs 
of the displaced. Such situations are enormously challenging, but a 
challenge that we, as a Nation, must be prepared to meet.
    Let me make one thing perfectly clear. Disaster housing, 
particularly in a catastrophic incident environment, is not a mission 
that FEMA can or will ever be able to handle alone. While we certainly 
have the ability and are prepared to bring an enormous number of 
financial and material resources to bear, the sheer size, scope, and 
duration of a catastrophic housing mission requires the coordinated 
involvement and aggressive engagement of multiple Federal agencies, 
State, local, and tribal governments, the private sector, and voluntary 
agencies. Only by working together, and leveraging all of our 
respective strengths and capabilities, can we achieve the kind of 
timely and comprehensive housing response that disaster survivors need 
and that our Nation has come to expect.
    FEMA's housing programs are, as mandated by the Stafford Act, 
temporary. By law, the President may provide temporary housing 
assistance for no more than 18 months, unless he determines that 
conditions are so extraordinary as to warrant an extension. 
Accordingly, FEMA has focused its efforts on developing temporary 
housing assistance that will provide a timely but interim bridge to 
disaster survivors while they seek more permanent, stable, and long-
term housing solutions. Within that framework, FEMA considers pre-
existing rental resources as a preferred temporary housing solution, 
and employs temporary housing units only as a last resort, when 
existing housing and rental resources in and around a community have 
been virtually destroyed, rendered uninhabitable, or exhausted. Such 
was the case in the States of Louisiana and Mississippi following 
Hurricanes Katrina and Rita, and more recently in coastal areas of 
Texas following Hurricane Ike. The lack of available housing and rental 
resources was so acute that temporary housing units were the only 
viable solution for those survivors who wanted to remain close to their 
homes, close to their jobs, close to their neighbors, or close to their 
children's schools. In such situations, temporary housing units, 
whether traditional units, such as travel trailers; or newer 
alternative units, such as Katrina-type cottages, may play a huge role 
in just how quickly a small community is able to rebound from a 
disaster and begin the march to recovery. Community recovery may be 
faster if disaster-affected communities identify strategies to 
integrate these alternative units permanently into their communities, 
rather than viewing them solely as an alternative to temporary housing 
units.
    FEMA plays a critical role in finding rental resources for 
survivors following a disaster. While securing temporary housing in or 
near an impacted community for every disaster survivor or household 
that needs such assistance is not always possible, FEMA can quickly 
relocate survivors to where temporary housing is available. During 
large-scale events, such relocations, potentially at a significant 
distance from the impacted community, are often inevitable. Our 
challenge remains facilitating their return as quickly as possible, so 
that they can help their communities recover.
    As I've mentioned, we employ temporary housing units as a last 
resort, when other forms of housing are unavailable. Utilization of 
local rental resources is preferred, as such housing not only provides 
a better quality living environment and is suitable for long-term 
occupation, but the use of such housing contributes to the local 
economy. To help facilitate the timely movement of survivors into--and 
monitored occupancy of--rental resources, FEMA's partner, the 
Department of Housing and Urban Development (HUD), has developed the 
Disaster Housing Assistance Program, which allows HUD to leverage their 
network of Public Housing Authorities across the Nation to organize and 
manage survivor placement, including case management assistance. HUD 
piloted the Disaster Housing Assistance Program following Hurricanes 
Katrina and Rita, and subsequently reprised the program in response to 
Hurricanes Ike and Gustav.
    With that said, when FEMA is confronted with an event of 
catastrophic magnitude, the need for housing will most likely outstrip 
locally or regionally available rental resources, and require 
augmentation from traditional and non-traditional forms of temporary 
housing units. Accordingly, FEMA maintains a baseline inventory of 
various types of temporary housing units at several storage locations 
around the country, to provide an initial and immediate delivery 
capability while our multiple contract suppliers ramp up sustained 
production. Our inventory includes manufactured housing, park models, 
and travel trailers, a subset of which is specifically designed to be 
accessible to special needs occupants.

                  RECENT IMPROVEMENTS AND INITIATIVES

    While our work is not yet complete, we have made significant 
progress in a number of key areas related to disaster housing.
    In January of this year, FEMA released the National Disaster 
Housing Strategy, which provides, for the first time, an overarching 
framework for a national disaster housing effort. The Strategy is 
intended to bring together all levels of government, nongovernmental 
organizations, and the private sector to meet the urgent housing needs 
of disaster victims and enable individuals, households, and communities 
to rebuild following a disaster. The Strategy draws on best practices 
and lessons learned to identify actions that must be taken to improve 
disaster housing assistance, an effort that involves renewing our focus 
on planning, building baseline capabilities, and providing a broader 
range of disaster housing options. It describes key principles; 
responsibilities and roles; and current practices in sheltering, 
interim housing, and permanent housing. The Strategy is based on a 
fundamental understanding that disaster housing is more than simply 
providing a structure, but must also address the complex needs of 
disaster victims. Disaster housing efforts must address human needs and 
connect to a broad range of community-based services. The Strategy also 
discusses future directions for how the Nation can work together to 
achieve national disaster housing goals. This includes reviewing best 
practices and innovations to establish baseline capabilities and core 
competencies; validating roles and responsibilities; and improving the 
range, quality, and timeliness of disaster housing services provided by 
communities, States, and the Federal Government. For example, the 
Strategy calls for innovative approaches to meet diverse needs of 
disaster victims and reduce shelter demands by improving resilience and 
accelerating repairs. It also calls for a broader range of interim 
housing options to meet diverse needs. In addition, the Strategy 
established the National Disaster Housing Task Force, which will be 
staffed by national-level representatives from several Federal 
agencies. The Task Force will engage and interact with key stakeholders 
at all levels of government, as well as with the private sector, 
industry, and voluntary agencies.
    In April and May 2009, FEMA convened organizational meetings of the 
National Disaster Housing Task Force with representatives of the 
Department of Housing and Urban Development, the Department of Health 
and Human Services, the U.S. Small Business Administration, and the 
U.S. Department of Veterans Affairs. First drafts of an implementation 
plan, a concept of operations, a National Disaster Housing Task Force 
charter and an organizational chart, as well as guidance for the State-
led Housing Task Forces Charter, Organizational Chart, and 
Implementation Plan have been developed, and are currently being 
reviewed by the partner agencies. Next steps for the Task Force include 
finalizing these documents, and continuing outreach activities and 
coordination to identify resources and gaps in the disaster housing 
arena. We will continue to keep you updated on these efforts.
    We also released an updated 2009 Disaster Housing Plan, a 
streamlined document that operationalizes guidance contained in the 
National Disaster Housing Strategy, and describes the specific types of 
assistance that FEMA will provide to support State, local, and Tribal 
governments in meeting the housing needs of disaster survivors when 
FEMA's Individual Assistance Programs are authorized under a 
Presidentially declared disaster.
    With regard to temporary housing units, we have made tremendous 
progress in improving the quality of our units. We have redefined and 
made even more stringent the specifications for every unit that FEMA 
procures in support of disaster survivors, to ensure these units are 
the safest available in terms of air quality. This includes new and 
more rigorous specifications for travel trailers, which are once again 
a part of our temporary housing arsenal. As you know, the use of travel 
trailers was suspended for a period of time, following concerns with 
formaldehyde. However, a number of States have made it clear that they 
want travel trailers to remain a part of our inventory, and in many 
cases, a travel trailer is the only unit that will fit on suburban 
private property. To further meet the needs of disaster survivors and 
the desires of our State customers, FEMA awarded, in April 2009, four 
contracts for the manufacture of low emissions travel trailers with 
improved air exchange. The contractors are required to build, deliver, 
and conduct air quality testing for temporary housing units for up to 5 
years. This contract award represents the agency's continuing 
commitment to identify new alternative housing solutions to supplement 
the array of solutions available to best meet the complex, disaster-
related housing needs of the survivors and the States we support.
    Travel trailers are not suitable for those who need a housing 
solution for a prolonged period of time; however, they provide an 
invaluable resource to States with homeowners who need a shorter period 
of time to repair their homes and whose property cannot accommodate 
other types of housing units, such as park models or manufactured 
housing. I am pleased that we have been able to produce FEMA-
specification travel trailers with improved air quality standards and 
increased air exchange to help address health care concerns that were 
identified as a result of the 2005 hurricane season.
    One of our areas of greatest progress has been in the area of 
exploring new forms of alternative temporary housing. Our Joint Housing 
Solutions Group completed an initial assessment of numerous candidate 
alternative units, culminating in the award of a competitive contract 
for seven different models. Under this contract, FEMA has had each of 
the vendors build and install a prototype unit at our National 
Emergency Training Center, in Emmitsburg, Maryland, where we can 
closely monitor and evaluate their quality and durability as students 
occupy these units throughout the year. While our contract allows us to 
purchase multiple units to support a disaster housing response 
immediately should the need arise, these prototypes allow us to assess 
these units in controlled conditions across all four seasons, and will 
help us determine whether these units will become part of our permanent 
capability inventory. Additional alternative units are also being 
evaluated in Galveston, Texas, and are supporting actual Hurricane Ike-
displaced households.
    In 2006, Congress appropriated $400 million to FEMA for a pilot 
program to identify and evaluate new alternatives for housing disaster 
survivors. This Alternative Housing Pilot Program encouraged state-of-
the-art engineering standards designed to maximize structural strength, 
durability, and energy efficiency. Four States received competitive 
grants: Alabama, Mississippi, Louisiana, and Texas, and all have 
commenced or completed construction of their units. Once the evaluation 
period is complete, these models could potentially be used in response 
to future disasters. We look forward to fully assessing these pilot 
projects, and anticipate that they will provide valuable housing 
lessons for application in future disasters.
    FEMA is also evaluating the lessons learned from our Rental Repair 
Pilot Program, which Congress authorized as part of the Post-Katrina 
Emergency Management Reform Act. This pilot program, which expired at 
the end of 2008, allowed FEMA to test and evaluate the utility and 
cost-effectiveness of coordinating and funding the timely repair of 
damaged multi-family dwellings, such as apartment complexes. Pilots 
were conducted in both Iowa and Texas, and our findings are reflected 
in a report that was recently submitted to Congress. Those findings 
will assist us in determining if such a capability should be 
permanently added to our recovery authorities.
    As I noted earlier, FEMA cannot and should not handle a disaster 
housing mission alone. Recognizing the critical role that States should 
play in the planning and character of any disaster housing response, 
the National Disaster Housing Strategy called for the establishment of 
State-led Housing Task Forces. The concept of a State-led Housing Task 
Force grew out of lessons learned during the California Wildfires in 
2007. The State of California and FEMA established a joint State and 
Federal housing task force to coordinate housing issues, including 
resources, zoning and code concerns, services for survivors, and other 
areas of mutual interest. This idea was formalized in the National 
Disaster Housing Strategy. The State-led Disaster Housing Task Force 
empowers States to have a decision-making role in providing disaster 
housing options at the beginning of a disaster, as well as encourages 
States to effectively plan and organize for the multifaceted dimensions 
of a housing mission before a disaster. These task forces have proven 
successful in the States of Iowa, Indiana, Illinois, Wisconsin, and 
Missouri. Partnering State Agencies typically include State Departments 
of Health, Housing, Community Development, General Services, Human 
Services, and numerous private non-profits such as Habitat for 
Humanity, American Red Cross, Salvation Army, and local low-income and 
accessible housing groups to ensure that the housing needs of all 
affected populations are met.
    In conclusion, Mr. Chairman, while FEMA has made impressive 
progress improving our temporary housing assistance programs, I clearly 
recognize that we--FEMA and our partners across the Nation--have much 
more work to do. It will be a challenge, but it is a challenge I 
accept. I know I will be able to count on your support.
    Thank you. This concludes my testimony. I am prepared to answer any 
questions the committee may have.

    Chairman Thompson. Thank you very much. Just like Mr. 
Souder, we welcome your maiden voyage to this committee. I 
don't think it will be too rough, but you never can tell. Winds 
sometimes blow differently.
    Mr. Skinner, you now have 5 minutes for your testimony.

STATEMENT OF RICHARD L. SKINNER, INSPECTOR GENERAL, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Skinner. Thank you. Good morning, Mr. Chairman, and 
Members of the committee. Thank you for having me here today.
    My testimony today draws up on past and on-going work 
performed by my office and focuses on FEMA's efforts to improve 
its disaster housing operations. As Mr. Fugate pointed out, 
disaster housing is one of the most complex challenges facing 
emergency managers at all levels of government following a 
major disaster.
    Deficiencies in the Government's housing response to 
Hurricane Katrina and Hurricane Rita were well-documented. The 
bottom line is that no one was prepared to deal with the 
housing crisis created by a disaster the size of Hurricanes 
Katrina and Rita.
    Nevertheless, there were many failures in the Federal 
housing response that could have and should have been avoided. 
The absence of completed housing plans for catastrophic events 
is not new to FEMA. It is not new to HUD. It is not new to the 
Federal Government.
    Both the FEMA OIG and GAO reported on housing recovery 
deficiencies across all levels of government after Hurricane 
Hugo, and the Loma Prieta earthquake in 1989, and again after 
Hurricane Andrew in 1992, and the Northridge earthquake in 
1994.
    GAO criticized Federal disaster assistance programs as 
being inadequate in providing aid to repair damaged rental 
units when there was a shortage of housing. The FEMA IG stated 
in 1993, more than 15 years ago, ``Alternatives need to be 
explored for situations in which suitable rental resources are 
not readily available.''
    FEMA recognizes these problems. Prior to August 2005, prior 
to Katrina and Rita making landfall, had made at least three 
failed attempts to develop a catastrophic disaster housing 
plan. Had such a housing plan existed prior to Katrina and Rita 
making landfall, the amount of available housing would have 
probably increased and the cost of temporary and permanent 
housing would most likely have not been as great as it was or 
is.
    Developing a disaster housing plan, which includes better 
alternative housing solutions, is important for a number of 
reasons, but a key one is the cost of the current housing 
approach.
    GAO has estimated that the average lifespan of temporary 
housing units can be as long as 3 years, and the lifespan costs 
could range from $26,379 for a travel trailer at a private site 
to $229,000 for a travel trailer at a group site.
    In addition to these costs, FEMA estimates it is currently 
spending about $100 million per year to store over 100,000 
trailers in manufactured housing units that they eventually 
plan to dispose of.
    The use of manufactured housing might be a reasonable 
approach after most disasters, as Mr. Fugate pointed out, but 
in the wake of a catastrophic event, as Hurricanes Katrina and 
Rita have taught us, FEMA needs better alternatives that 
quickly restore housing stocks and represent a cost-effective 
option for American taxpayers.
    It is critical to understand the impact that post-disaster 
housing stock levels have on disaster housing operations. The 
repair and restoration of existing housing stocks is one of the 
most important challenges FEMA and its response-and-recovery 
partners face following a catastrophic housing disaster. All 
other housing decisions and programs hinge on this single 
variable.
    When January 16 of this year FEMA released a national 
disaster housing strategy required by the Post-Katrina Act of 
2006, this is FEMA's fourth attempt to develop a catastrophic 
disaster housing strategy since 2002. The strategy summarizes 
the sheltering housing capabilities, principles, and policies 
that will guide the disaster housing process.
    It is a positive step forward, but it is only an interim 
step. It provides the framework for much-needed changes in 
disaster housing policy and outlines a number of potential 
programs and Federal agencies that can help victims find 
housing solutions.
    But the strategy does not include the operational plans 
that everyone acknowledges are needed for successful post-
disaster housing recovery. These plans should be tailored to 
meet the needs of the particular event or disaster scenario, 
that is, from the garden-variety disaster to the catastrophic 
disaster.
    FEMA needs more flexibility to explore innovative and cost-
effective solutions to disaster housing challenges. In our 2008 
report, FEMA's Sheltering and Transitional Housing Activities 
after Hurricane Katrina, we encouraged FEMA to explore 
alternatives.
    Both FEMA's national disaster housing strategy and a recent 
U.S. Senate report on disaster housing recognizes the 
challenges and the importance of developing greater flexibility 
in providing housing solutions. Some promising ideas came out 
of those studies.
    Catastrophic disasters are high-consequence, low-
probability events, and preparing for these events is extremely 
complex and difficult, as Mr. Fugate has pointed out. It is not 
something that we are going to fix overnight, so we are going 
to require everyone to sit around the table, Federal, State, 
local, nonprofit. It also will require considerable input from 
this committee and others that have a stake in developing a 
solution.
    FEMA's greatest housing challenge is helping victims remain 
in their communities following catastrophic disasters. To meet 
this challenge, FEMA needs flexible, innovative and cost-
effective ways to help victims repair housing stocks. It is 
critically important that all disaster stakeholders at the 
Federal, State, and local levels and private sector maintain 
this momentum and continue to implement needed changes over 
time. Only by doing this will we as a Nation be better prepared 
for the next catastrophic disaster.
    Mr. Chairman, that concludes my testimony. I will be happy 
to answer any of your questions.
    [The statement of Mr. Skinner follows:]

                Prepared Statement of Richard L. Skinner
                              July 8, 2009

    Good morning, Mr. Chairman and Members of the committee. I am 
Richard Skinner, Inspector General for the Department of Homeland 
Security (DHS). Thank you for the opportunity to discuss the status of 
the Federal Emergency Management Agency's (FEMA) efforts to improve its 
disaster housing operations.
    As you are well aware, hurricane season is upon us. While FEMA has 
made strides in a number of areas since Hurricanes Katrina and Rita 
struck the Gulf Coast in 2005, there is still room for improvement, 
including in the critical area of disaster housing.
    When Hurricane Katrina made landfall, it devastated far more 
residential property than any recent hurricane, displacing over a 
million people and destroying over 300,000 homes--nearly ten times the 
number of homes destroyed by hurricanes Camille and Andrew combined. 
Hurricane Rita caused further devastation, making landfall on the Gulf 
Coast in September 2005. Hurricanes Katrina and Rita severely 
challenged FEMA's ability to find housing solutions for victims. 
Complicating the challenge, these hurricanes affected large numbers of 
renters, the poor, and the elderly--groups that have more difficulty 
dealing with the challenges of a catastrophic disaster.
    Losing one's home in a disaster has far-reaching consequences. In 
the immediate aftermath of a disaster, individuals need secure shelter. 
When one's home is destroyed, most personal possessions are also 
destroyed and must be replaced. In order to begin rebuilding, 
individuals often need to return to work. Children need to return to 
school. But this may not be possible if a family has to relocate far 
from the affected area. The sooner individuals can get into permanent 
or semi-permanent housing, the sooner they can begin rebuilding their 
lives. In turn, communities can also begin to rebuild and recover.
    FEMA is addressing weaknesses identified in a range of post-Katrina 
reports and is in various stages of implementing the requirements of 
the Post-Katrina Emergency Management Reform Act of 2006 (Pub. L. 109-
295, Title VI--National Emergency Management, of the Department of 
Homeland Security Appropriations Act of 2007) (Post-Katrina Act). FEMA 
continues to perform well responding to non-catastrophic or ``garden 
variety'' disasters; however, it still has much to do to become a 
cohesive, efficient, and effective organization to prepare for and 
respond to the next catastrophic event.
    My testimony today draws upon past and on-going work performed by 
my office and focuses on FEMA's efforts to improve its disaster housing 
operations. It also addresses FEMA's progress implementing 
recommendations made by my office, as well as external organizations 
including Congress and GAO. I will focus on six key areas: (1) The high 
cost of FEMA's current housing approach; (2) the critical element of 
housing stocks; (3) the importance of communications in the aftermath 
of a disaster; (4) the National Disaster Housing Strategy and the Joint 
Housing Solutions Group; (5) the importance of State and local 
officials' involvement and leadership; and (6) the need for innovation 
and ``thinking outside the box'' in addressing the intractable disaster 
housing problem.

                THE HIGH COST OF CURRENT HOUSING OPTIONS

    Developing better alternative housing solutions, particularly 
options to be used in catastrophic disasters, is important for a number 
of reasons, but a key one is the cost of the current housing approach.
    FEMA's traditional housing programs are not always the most cost-
effective way to deal with the massive destruction of housing stocks. 
For example, following Hurricane Katrina, FEMA built expensive 
community sites and placed victims in travel trailers, sometimes 
spending over $100,000 to house a family for 18 months. Further, FEMA 
paid rent to tens of thousands of hurricane victims under various 
housing programs for up to 44 months, 26 months longer than the 18 
months generally allowed under the Stafford Act.
    FEMA has estimated that the average lifespan of temporary housing 
units occupied by disaster assistance applicants post-Katrina/Rita is 3 
years. Their estimate assumes that a temporary housing unit will be 
deployed in the field for up to 2 years and stored at a FEMA housing 
storage site for 1 year. When a unit is returned after use by an 
occupant, the unit is designated either for disposal or redeployment 
depending on its condition. FEMA estimates that the lifespan cost of a 
travel trailer, park model, and mobile home is $26,379, $37,379, and 
$52,634, respectively. When units are disposed of, the average sales 
price is $5,550, $7,250, and $19,000, respectively. These cost 
estimates are consistent with those determined by the U.S. Government 
Accountability Office (GAO) in a 2007 report \1\ based on Hurricane 
Katrina and Rita occupants, which indicated that FEMA would spend an 
average of $30,000 for each 280-square-foot trailer at a private site. 
It is important to note, however, that at some sites, the average costs 
were significantly higher, estimated to be as high as $229,000, 
approximately the equivalent of the cost of a five-bedroom, 2,000-
square-foot home in Jackson, Mississippi.
---------------------------------------------------------------------------
    \1\ Hurricane Katrina: Ineffective FEMA Oversight of Housing 
Maintenance Contracts in Mississippi Resulted in Millions of Dollars of 
Waste and Potential Fraud (GAO-08-106), U.S. Government Accountability 
Office, November 2007.
---------------------------------------------------------------------------
    FEMA estimates it is spending about $100 million per year to store 
over 100,000 trailers and manufactured housing units that they 
eventually plan to dispose of. While in a ``garden variety'' disaster, 
the use of manufactured housing might be a reasonable approach, in the 
wake of a catastrophic event, FEMA needs better alternatives that 
quickly restore housing stocks and represent a cost-effective option 
for disaster victims and American taxpayers.

                 THE CRITICAL ELEMENT OF HOUSING STOCKS

    It is critical to understand the impact that post-disaster housing 
stock levels have on disaster housing operations. The repair and 
restoration of existing housing stocks is one of the most important 
challenges FEMA and its response and recovery partners face following a 
catastrophic housing disaster. All other housing decisions and programs 
hinge on this single variable.
    After Hurricanes Katrina and Rita, there was simply not enough 
affordable housing left to allow many victims to remain near their 
communities. The Brookings Institution reported that in the months 
following Hurricane Katrina, the population of New Orleans might have 
fallen by as much as half.\2\ It's not that people wanted to relocate 
outside the area; there just wasn't enough housing to support the 
population. Three-and-a-half years after the storm, the Brookings 
report estimates the New Orleans metropolitan area has recovered to 
about 88% of its pre-storm population, but rents have also risen, to 
approximately 46% above pre-Katrina rates.
---------------------------------------------------------------------------
    \2\ The New Orleans Index Anniversary Edition: Three Years after 
Katrina, The Brookings Institution Metropolitan Policy Program & 
Greater New Orleans Community Data Center, August 2009.
---------------------------------------------------------------------------
    ``Alternatives need to be explored for situations in which suitable 
rental resources are not readily available.'' I don't think anyone is 
surprised by this statement, but you may be surprised that it was 
written by the FEMA Inspector General in 1993 after Hurricane 
Andrew.\3\ I believe it is as true today as when it was written more 
than 15 years ago.
---------------------------------------------------------------------------
    \3\ FEMA's Disaster Management Program: A Performance Audit After 
Hurricane Andrew (H-01-93), FEMA Office of Inspector General, January 
14, 1993.
---------------------------------------------------------------------------
    FEMA does not have sufficient tools, operational procedures, and 
legislative authorities to aggressively promote the cost-effective 
repair of housing stocks, which would increase the amount of housing 
available and likely limit increases in the cost of housing, 
particularly rental rates. For example, FEMA needs a flexible and 
efficient rental repair program for use in catastrophic disasters to 
get low-income rental housing back on-line quickly. For catastrophic 
disasters, it may help for FEMA to have the flexibility to provide more 
repair money, above the $30,300 currently available under the 
Individuals and Households Program, to low-income home owners.
    In the Post-Katrina Act, Congress required FEMA to develop the 
National Disaster Housing Strategy and describe any additional 
authorities necessary to carry out any portion of the strategy. 
However, when FEMA issued the Strategy, it did not identify additional 
authorities to strengthen its ability to repair existing housing 
stocks.

                          COMMUNICATION IS KEY

    Whether there is enough housing stock after a disaster to resettle 
residents in the affected area, or whether individuals and households 
may need to consider relocation, clear communication is key. Following 
the 2005 hurricanes, affected individuals, the media, Members of 
Congress, and State and local officials severely criticized FEMA for 
its response to the housing crisis. Many of these criticisms occurred 
because of a misunderstanding of disaster housing roles, 
responsibilities, and limitations. To better manage expectations 
following a catastrophic event and speed the recovery process, FEMA 
should work with State and local officials to state clearly in its 
policies, procedures, and public messaging achievable goals and what 
constitutes success when howzausing stocks cannot be repaired. In 
extreme cases, officials should clearly communicate that some victims 
may need to relocate their households, possibly far from their original 
communities.
    Stakeholders generally understand that quickly assisting affected 
individuals to secure housing near their pre-disaster communities is 
the primary goal and defines success in virtually all disasters. When 
housing stocks are not lost on a massive scale, FEMA and its partners 
have the tools to help victims locate permanent housing in their pre-
disaster communities. However, the usefulness of this definition of 
success breaks down in a catastrophic disaster.
    Homeowners can make home repairs with insurance proceeds or through 
small grants provided by FEMA's Individuals and Households Program. 
When the storm destroys some rental properties, housing officials can 
help individuals find new units from surviving stocks. FEMA can also 
provide temporary manufactured housing units until victims can repair 
or replace their homes.
    However, when housing stocks are destroyed and have little prospect 
for quick repair, FEMA, State, and local officials should clearly 
communicate to stakeholders that there is not enough housing stock for 
everyone and that some will need to relocate to other communities. This 
will help individuals and families begin to rebuild their lives. The 
sooner FEMA, its Federal partners, State, and local government leaders, 
and other stakeholders make this determination, the quicker households 
can be assisted in finding permanent and cost-effective housing 
solutions. Officials at every level should communicate to affected 
individuals their roles and responsibilities in finding permanent 
housing. This communication is key and should occur, as the saying 
goes, early and often.
    FEMA's Acting Administrator summarized the challenge of housing 
victims of a catastrophic disaster, in March 2009, this way, ``The 
fundamental issue is not whether FEMA and our partners can find and 
provide provisional housing to disaster survivors, we can. The 
fundamental challenge is whether we can provide those disaster 
survivors safe and secure housing where they and their communities want 
it, and do so in a timely and cost-effective manner. This latter 
challenge is, and will remain, our greatest challenge.''\4\
---------------------------------------------------------------------------
    \4\ Written Statement of Nancy Ward, Acting Administrator, Federal 
Emergency Management Agency, U.S. Department of Homeland Security, 
before the Ad Hoc Subcommittee on Disaster Recovery, Homeland Security 
and Governmental Affairs Committee, United States Senate, ``A New Way 
Home: Findings from the Subcommittee on Disaster Recovery's Special 
Report and Working with the Obama Administration on a Way Forward,'' 
March 18, 2009.
---------------------------------------------------------------------------
THE NATIONAL DISASTER HOUSING STRATEGY AND THE JOINT HOUSING SOLUTIONS 
                                 GROUP

    On January 16 of this year, FEMA released the National Disaster 
Housing Strategy required by the Post-Katrina Act. The Strategy 
summarizes the sheltering and housing capabilities, principles, and 
policies that will guide the disaster housing process.
    The Strategy promotes engagement of all levels of government, along 
with non-profits, the private sector, and individuals to collectively 
address the housing needs of disaster victims. The goal is to enable 
individuals, households, and communities to rebuild and restore their 
way of life as soon after a disaster as possible.
    The Strategy released in January is a positive step forward, but it 
is only an interim step. It outlines a number of potential programs and 
Federal agencies that can help victims find housing solutions. But the 
Strategy does not include a plan of action designed to achieve a 
specific goal. It also does not describe what would be a favorable 
outcome or goal in a particular disaster scenario and what steps FEMA 
would take to achieve that goal. To be complete, FEMA must specify what 
constitutes success under increasingly severe disaster scenarios, 
especially catastrophic disasters.
    Complementing the National Disaster Housing Strategy is the Joint 
Housing Solutions Group (JHSG) initiative, begun in September 2006, 
which is a multi-year effort to develop a systematic process to 
evaluate and rate various disaster housing options, identify 
alternatives to FEMA travel trailers and manufactured homes, and 
recommend improvements for conducting disaster housing operations. The 
JHSG, which includes housing specialists from the U.S. Department of 
Housing and Urban Development (HUD), the National Institute of Building 
Sciences (NIBS), and FEMA, evaluated proposals and initiated contracts 
with seven alternative housing manufacturers, each of whom has 
delivered one prototype unit to FEMA's Emergency Management Institute 
(EMI) in Emmitsburg, MD. These units will undergo pilot testing by 
having EMI students live in the units. Additionally, the JHSG continues 
to develop and field test a Housing Assessment Tool to facilitate 
decisions on the selection and use of temporary and alternative housing 
units. This tool is used by FEMA to collect information on housing 
products and determine whether available options are suitable for 
meeting disaster housing needs.
    The JHSG has identified seven action items that FEMA should 
consider implementing to maintain its momentum in developing 
alternative housing solutions:
  <bullet> Develop an Alternative Housing Options Strategy, pulling 
        together stakeholders in a coherent and structured way;
  <bullet> Continue identification and assessment of potential 
        alternative housing units;
  <bullet> Pilot the most promising alternative housing units;
  <bullet> Develop performance specifications for new alternative 
        housing units;
  <bullet> Develop a procurement plan for pilot and full implementation 
        of alternative units;
  <bullet> Increase coordination between JHSG and the Alternative 
        Housing Pilot Program (AHPP); and
  <bullet> Conduct public information and outreach.
           emphasizing state and local government leadership
    Both the National Disaster Housing Strategy and FEMA's 2009 
Disaster Housing Plan, which is based on key concepts in the Strategy 
and describes FEMA's approach to meeting disaster housing needs during 
the 2009 hurricane season, emphasize the role of State and local 
governments in assuming greater housing leadership through the State-
led Joint Housing Task Force. Although State and local government 
officials are in the position to know the best housing solutions for 
their communities, officials may be reluctant to lead this effort.
    In a 2008 audit prepared by my office, we reported that after 
Hurricane Katrina, a number of local communities were very reluctant, 
or even directly refused, to accept FEMA mobile home and travel trailer 
group sites in their communities. In some cases, State or local 
governments agreed to temporary housing sites, but then reversed their 
decision after housing installation had begun. Each time this happened, 
FEMA was further delayed in housing disaster victims and incurred 
additional costs.\5\ FEMA has wasted millions of dollars in the past 
preparing group sites that were later rejected for one reason or 
another.
---------------------------------------------------------------------------
    \5\ FEMA's Preparedness for the Next Catastrophic Disaster (OIG-08-
34), U.S. Department of Homeland Security Office of Inspector General, 
March 2008.
---------------------------------------------------------------------------
    According to the National Disaster Housing Strategy, when it 
becomes necessary to build group housing sites, State and local 
governments are responsible for identifying vacant land that they own 
that may be suitable for a community site. When publicly owned land is 
unavailable or infeasible, the State and local governments are 
responsible for identifying potentially viable sites for FEMA to lease. 
FEMA must continue to emphasize to State and local government officials 
their increased responsibility to develop and implement housing 
solutions.

                        THINKING OUTSIDE THE BOX

    FEMA needs more flexibility to explore innovative and cost-
effective solutions to disaster housing challenges. In our report, 
FEMA's Sheltering and Transitional Housing Activities After Hurricane 
Katrina,\6\ issued in September 2008, we encouraged FEMA to explore 
alternatives to its traditional housing programs, including providing 
lump sum payments to disaster victims. This could be a more cost-
effective and expeditious way of returning them to a more normal way of 
life.
---------------------------------------------------------------------------
    \6\ FEMA's Sheltering and Transitional Housing Activities After 
Hurricane Katrina (OIG-08-93), U.S. Department of Homeland Security 
Office of Inspector General, September 2008.
---------------------------------------------------------------------------
    Both FEMA's National Disaster Housing Strategy and a recent United 
States Senate report on disaster housing \7\ recognize the challenges 
and the importance of developing greater flexibility in providing 
housing solutions. Some promising ideas include:
---------------------------------------------------------------------------
    \7\ Far From Home: Deficiencies in Federal Disaster Housing 
Assistance After Hurricanes Katrina and Rita and Recommendations for 
Improvement, Ad Hoc Subcommittee on Disaster Recovery of the Committee 
on Homeland Security and Governmental Affairs, United States Senate, 
February 2009.
---------------------------------------------------------------------------
  <bullet> Implementing a rental repair program.--Although FEMA's 
        Individuals and Households Pilot Program shows promise, it is 
        uncertain whether the program is sufficiently scalable and 
        flexible to be effective following a catastrophic disaster.
  <bullet> Expanding the Individuals and Households Program for 
        catastrophic events.--In catastrophic events that include the 
        massive loss of housing stocks, the $30,300 repair limit may 
        not be sufficient to provide victims the flexibility to choose 
        cost-effective solutions, especially when compared to the cost 
        of building community sites, providing manufactured housing, or 
        paying rental assistance over extended periods.
  <bullet> Finding low-cost and low-formaldehyde alternatives to travel 
        trailers.--FEMA, through its Joint Housing Solutions Group, has 
        recently developed temporary disaster housing alternatives that 
        meet stringent emission standards. However, these alternatives 
        are expensive, ranging from $45,000 to $75,000, before 
        installation, monthly maintenance, deactivation costs and, when 
        required, building community sites. Additionally, contractors 
        may not be able to quickly produce the many thousands of units 
        that FEMA could need following a catastrophic disaster. Based 
        on current contracts, FEMA has the capacity to purchase 
        approximately 38,000 travel trailers, mobile homes, and park 
        models in a relatively short period of time. However, following 
        Hurricanes Katrina and Rita, FEMA eventually purchased 
        approximately 145,000 units.
  <bullet> Maintaining comprehensive cost data on all housing 
        options.--FEMA should collect and maintain comprehensive 
        historical cost data for all housing options. This information 
        will assist FEMA and future disaster victims in deciding among 
        the most cost-effective housing options.
    As a result of the Post-Katrina Act, FEMA undertook the Alternative 
Housing Pilot Program (AHPP), which funded five projects, in four 
States, using $400 million appropriated for this purpose. The goal of 
the AHPP is to identify and evaluate better alternatives for housing 
disaster victims. FEMA's final report on the AHPP, which will be 
produced in conjunction with HUD, is expected to be completed by 
December 31, 2011.

                               CONCLUSION

    Catastrophic disasters are high-consequence, low-probability 
events, and preparing for these events is extremely complex and 
difficult. FEMA's greatest housing challenge is helping victims remain 
in their communities following catastrophic disasters. To meet this 
challenge, FEMA needs flexible, innovative, and cost-effective ways to 
help victims repair housing stocks. But when restoration of housing 
stocks is not possible, FEMA, State, and local officials need to 
communicate the need for individuals to consider relocation.
    In our report on FEMA's response to Hurricane Ike, we stated:

``FEMA's response to Hurricane Ike was well organized and effective, 
and FEMA and its Federal and State partners implemented their incident 
objectives aggressively. By the end of October 2008, only 7 weeks after 
landfall, FEMA had registered more than 715,000 hurricane victims, 
completed 359,000 housing inspections, installed manufactured housing 
for 339 families, and disbursed $326 million for housing and other 
needs. FEMA also assisted more than 100,000 disaster victims at its 
Disaster Recovery Centers.''\8\
---------------------------------------------------------------------------
    \8\ Management Advisory Report: FEMA's Response to Hurricane Ike 
(OIG-09-78), U.S. Department of Homeland Security Office of Inspector 
General, June 2009.

Also, FEMA's National Disaster Housing Strategy, released in January 
2009, is a significant step toward improving FEMA's overall disaster 
housing response. The strategy catalogues the Nation's housing options 
and provides common principles to assist stakeholders in creating 
housing implementation plans. However, FEMA's housing program continues 
to face challenges.
    As demonstrated following Hurricane Ike, FEMA is better prepared 
for the next housing disaster. However, FEMA should act quickly to 
develop the tools, operational procedures and, if needed, seek 
additional legislative authorities to respond effectively to the next 
catastrophic disaster. Also, to better manage expectations and speed 
housing solutions, FEMA should set achievable housing goals and manage 
expectations following catastrophic disasters.
    It is critically important that all disaster stakeholders at the 
Federal, State, and local levels maintain momentum and continue to 
implement needed changes over time. Only by doing so will we, as a 
Nation, be better prepared for the next catastrophic disaster, whether 
man-made or natural.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or the committee Members may have.

    Chairman Thompson. Thank you very much, Mr. Skinner.
    I now recognize Mr. Jones for 5 minutes.

  STATEMENT OF GERALD H. JONES, MEMBER, NATIONAL INSTITUTE OF 
                       BUILDING SCIENCES

    Mr. Jones. Thank you, Mr. Chairman, Members of the 
committee. I find it hard to live up to the introduction that 
Congressman Cleaver gave to me, but I think there is a message 
here in that what I was able to accomplish in the city of 
Kansas City, Missouri, was only possible because of the 
legislature, the council gave the will and the resources to let 
me do it. I think that applies across the board.
    I am here today as a member of the National Institute of 
Building Sciences, which was created by Congress in 1974 as a 
single authoritative national source to make findings and 
advise both the public and private sectors on the use of 
building science and technology to achieve national goals and 
benefits.
    Our board is diverse and includes six public interest 
members appointed by the President and confirmed by the Senate. 
As part of our mission, we work to reduce social and economic 
losses from natural hazards by improving collaboration among 
all entities involved in mitigation by deliberately promoting 
risk--multihazard risk reduction in the planning, design, and 
operation of built environment and not just let it happen 
later.
    We serve as a focal point for dissemination of information 
on major policy issues. We have worked closely with FEMA for 
many years in several areas of hazard mitigation to manage 
post-disaster information and ensure that lessons learned from 
each disaster are documented and disseminated.
    My written testimony provides documents of our 
collaborative work and many of the things that we have done 
with FEMA over the years. Our last project was to assist FEMA 
supporting the Joint Housing Solutions Group, as they attempted 
to evaluate the many different temporary housing solutions 
offered.
    We assisted them in developing criteria and methodologies 
to determine the suitability of temporary structures, including 
safe, hazard-resistant designs, materials, taking into account 
geographic location, prevalent hazards, weather, environmental 
requirements, cost, delivery, and other factors that must be 
considered in reacting to a disaster.
    We help the council develop a spreadsheet assessment tool 
that had at some 175 characteristics of a proposed housing 
unit. It included such things as production capability, the 
ability to ramp up production, storage issues, reuse issues, 
and it provided a standard frame of reference for comparing 
traditional and innovative emergency housing alternatives.
    As a result of an open solicitation by FEMA, we then had 
representatives on a field assessment team that looked at some 
40 potential solutions. We looked--we went into various parts 
of the United States, Puerto Rico, and Canada, looking at the 
various proposed solutions.
    There were a wide variety of units submitted, and the team 
assessed each one as we were on the site. Then the team tried 
to do a team ranking as we went along. It is my understanding 
that those rankings have been taken into consideration in the 
units that are currently under testing right now.
    We congratulate FEMA on the work they have completed under 
the housing group, but--there is always a but--we think that 
there is more work to be done in the nature of: What is the 
transition issue between temporary and permanent?
    As a local building official, let me tell you that I have 
some temporary structures that are 20 years old. We have no 
scientific basis for how we have determined the interface 
between temporary and permanent use.
    A community is very sensitive to compatibility with its 
housing stock. We need to take that into consideration. Right 
now, in my opinion, we are winging it. We are doing our past 
experience that says, ``This will work,'' or, ``This will 
work.''
    There are scientists out there who can provide additional 
scientific basis for trying to reach a longer-term goal of: How 
do we reach transition into permanent?
    We thank you very much for the opportunity to make these 
opening remarks and be happy to try to deal with any questions 
you may have.
    Thank you, sir.
    [The statement of Mr. Jones follows:]

                 Prepared Statement of Gerald H. Jones
                              July 8, 2009

    Mr. Chairman and Members of the committee, my name is Gerald Jones 
and I am a professional engineer. Before retiring in 1994, I served as 
building codes administrator for Kansas City, Missouri, for 14 years. 
Prior to that, I was building codes administrator for Overland Park, 
Kansas, for 11 years. I worked as a partner and chief engineer for a 
metal building design and construction firm for 20 years before 
entering into the building official profession. I am testifying before 
this committee as a volunteer member of the National Institute of 
Building Sciences (Institute). I currently serve on the Institute's 
Multihazard Mitigation Council (MMC) Board of Direction. I have 
attached a copy of the MMC Overview including a membership listing for 
the MMC Board of Direction and Member organizations (Exhibit 1).
    I previously chaired the Institute's Board of Directors and its 
Building Seismic Safety Council Board of Direction. I also served as 
chair of the Council of American Building Officials and president of 
the Building Officials and Code Administrators International (two 
predecessor organizations of the International Code Council). Over the 
years, I have worked closely with the Federal Emergency Management 
Agency (FEMA). FEMA honored my service with an Outstanding Public 
Service Award for recognition of extraordinary contribution to 
improving seismic safety to the Nation's buildings and occupants.
    The National Institute of Building Sciences is a private, non-
profit organization established by Congress through the Housing and 
Community Development Act of 1974 (Public Law 93-383) as a single 
authoritative national source to make findings and advise both the 
public and private sectors on the use of building science and 
technology to achieve national goals and benefits. The Institute is a 
public/private sector partnership governed by a Board of Directors that 
represents all sectors of the building community, including six public 
interest appointees by the President of the United States.
    The Institute serves the Nation and the public interest by 
initiating advances in building science and technology and supporting 
their application to improve the built environment. As a nonprofit, 
nongovernmental organization, the Institute brings together 
representatives of Government, the professions, industry, labor, and 
consumer interests to focus on the identification and resolution of 
problems that hamper the construction of safe, affordable structures 
for housing, commerce, and industry throughout the United States.
    The MMC works to reduce social and economic losses from natural 
hazards. Established in 1997 as a voluntary advisory facilitative body, 
the MMC works to achieve its purpose by conducting activities and 
providing the leadership needed to:
  <bullet> Improve communication, coordination, and cooperation among 
        all entities involved in mitigation.
  <bullet> Promote deliberate consideration of multi-hazard risk 
        reduction in all efforts that affect the planning, design, 
        construction, and operation of the built environment.
  <bullet> Serve as a focal point for sage counsel as well as the 
        dissemination of credible information on major policy issues 
        involving multi-hazard risk mitigation.
    Since its creation, the MMC has worked closely with FEMA to 
stimulate hazard mitigation planning and activities across the Nation 
and to explore how best to manage post-disaster information and ensure 
that ``lessons learned'' from each disaster event are documented and 
disseminated. It currently is developing mechanisms for creating a 
network that will foster disaster-related, peer-to-peer mentoring. 
Examples of the MMC's collaborative work including:
  <bullet> In 2007 and 2008, assisting FEMA and the Joint Housing 
        Solutions Group to explore and assess innovative solutions for 
        post-disaster housing needs.
  <bullet> Issuing an independent report in 2005, making an assessment 
        for FEMA \1\ of the future savings from mitigation activities, 
        which provided the Federal Government with quantitative 
        evidence that every dollar spent on hazard mitigation 
        activities results in $4 in benefits to society as a whole. 
        (Exhibit 2)*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
    \1\ FEMA funded this independent study in response to a mandate by 
the Senate Appropriations Committee, Subcommittee for Veterans 
Administration, Department of Housing and Urban Development, and 
Independent Agencies of the 106th Congress (Senate Report 106-161).
---------------------------------------------------------------------------
  <bullet> Since 1992, the National Institute of Building Sciences has 
        provided the organizational home for the FEMA-funded HAZUSMH 
        program. This geographic information system (GIS) based 
        software program estimates the consequences of a natural 
        disaster before it happens, which is useful in assessing the 
        costs and benefits of alternative mitigation actions.
  <bullet> Managing the American Lifelines Alliance (ALA) for FEMA for 
        the past 7 years. This private-public partnership builds upon 
        established industry practices to support the development of 
        national consensus guidance for the design, construction, and 
        retrofit of new and existing lifelines.
    A more complete listing of work within the MMC with FEMA is 
contained in the MMC Background document. (Exhibit 1)
    The MMC began its work for FEMA in support of the Joint Housing 
Solutions Group (JHSG) in late 2006. Its charge was to:
  <bullet> Assist the JHSG in developing criteria and methodologies for 
        determining the suitability of temporary housing structures, 
        including safe and hazard-resistant design and materials.
  <bullet> Take into account geographic location and prevalent hazards, 
        weather and environmental requirements, cost, delivery, and 
        other various factors that must be considered in reacting to a 
        large disaster.
    The MMC initially helped the JHSG refine a tool that would provide 
for the evaluation of innovative models for emergency housing. In 
general, the emergency housing is expected to be deployed for a maximum 
of 18 months but some alternatives have the potential to evolve into 
permanent housing. Essentially, the housing assessment tool (HAT) is a 
web-based spreadsheet that permits the collection of information on 
housing alternatives from housing manufacturers, vendors, and builders. 
The HAT provides a standard frame of reference that permits the 
comparison of traditional and innovative emergency housing 
alternatives.
    MMC representatives also participated in HAT field tests as members 
of teams that visited alternative housing models and manufacturing 
facilities in the United States, Puerto Rico, and Canada. In addition, 
the MMC worked with a testing facility to develop a draft testing 
protocol for FEMA personnel. The protocol could be used to verify the 
physical characteristics of housing alternatives and their conformance 
with a variety of codes and standards.
    Based on feedback from HAT team participants, the Institute 
understands that information from the field assessments was used to 
identify potential candidates for temporary housing. It also appears 
those candidates chosen for further consideration were ones that rated 
well during the field assessments. The Institute supports the work done 
by the JHSG and believes that significant progress has been 
accomplished.
    However, work is not yet complete in dealing with the many issues 
surrounding emergency housing and requires additional consideration. 
While the HAT now serves as an excellent tool for assessing housing 
options, it does not yet provide a complete set of specifications that 
reflect the full range of considerations for temporary or transitional 
housing.
    The direction taken by the JHSG in assessing the use of temporary 
housing has been influenced by disaster events that occurred over the 
past couple of years, including the problems attributed to the use of 
temporary housing. What is needed now is a comprehensive post-
application examination and expansion of the JHSG findings and the HAT 
to ensure that the broad range of local community attributes and 
acceptance issues are addressed. Among the matters of concerns are 
attributes and issues surrounding the location and placement of various 
temporary housing alternatives in a community environment; potential 
social impacts, local sensitivities, and preferences regarding housing 
design and appearance; and the potential costs and benefits of housing 
re-use, re-sale, and related storage and rehabilitation considerations.
    This could result in the creation of an additional tool used to 
provide a framework for exploring these community-based issues in ways 
that are consistent with Federal, State, and local government needs and 
priorities, as well as those of disaster victims. This framework would 
provide further information for decision-making in the future and 
support efforts to ensure temporary housing alternatives deployed in 
communities are acceptable in several respects.
    Flexibility remains essential to providing temporary housing on a 
large scale. Nevertheless, many factors still require consideration in 
a performance context. The opportunity for collecting and analyzing 
real-time performance feedback should not be overlooked. A 
comprehensive set of standards should include a range of attributes to 
provide for flexibility in providing temporary housing throughout the 
United States.
    Thank you.
    Exhibits: 1. MMC Background including Board of Direction, Members 
Organizations, and Projects and Activities. 2. Natural Hazards 
Mitigation Saves Lives: An Independent Study to Assess the Future 
Savings from Mitigation Activities

                               EXHIBIT 1
               MULTIHAZARD MITIGATION COUNCIL--BACKGROUND

    The purpose of the Multihazard Mitigation Council (MMC) is to 
reduce the total costs associated with natural and other hazards to 
buildings by fostering and promoting consistent and improved 
multihazard risk mitigation strategies, guidelines, practices, and 
related efforts. Total costs are considered to include the direct and 
indirect cost of deaths and injuries; property damage; business, 
personal, and governmental/civil disruption; disaster assistance and 
emergency services; and redundant or duplicative mitigation measures 
associated with training, planning, programming, design, construction, 
operation, maintenance, and enforcement.
    The scope of the Council's interests is diverse and reflects the 
concerns and responsibilities of all those public and private sector 
entities involved with building and non-building structure and lifeline 
facility research, planning, design, construction, regulation, 
management, and utilization/operation and the hazards that affect them. 
In recognition of this diversity, the Council believes that appropriate 
multihazard risk reduction measures and initiatives should be adopted 
by existing organizations and institutions and incorporated into their 
legislation, regulations, practices, rules, relief procedures, and loan 
and insurance requirements whenever possible so that these measures and 
initiatives become part of established activities rather than being 
superimposed as separate and additional. Further, the Council's 
activities are structured to provide for explicit consideration and 
assessment of the social, technical, administrative, political, legal, 
and economic implications of its deliberations and recommendations.
    To achieve its purpose, the Council conducts activities and 
provides the leadership needed to:
  <bullet> Improve communication, coordination, and cooperation among 
        all entities involved with mitigation.
  <bullet> Promote deliberate consideration of multi-hazard risk 
        mitigation in all efforts that affect the planning, design, 
        construction, and operation of the built environment.
  <bullet> Serve as a focal point for sage counsel as well as the 
        dissemination of credible information on major policy issues 
        involving multi-hazard risk mitigation.

                        PROJECTS AND ACTIVITIES

    Since its establishment in 1997 as a voluntary advisory, 
facilitative body of the Congressionally authorized, nonprofit National 
Institute of Building Sciences (the Institute), the MMC has conducted a 
variety of projects:
    An assessment for the Federal Emergency Management Agency (FEMA) of 
the future savings from mitigation activities that provided the agency 
with quantitative evidence that every dollar spent on hazard mitigation 
activities results in $4 of benefits to society as a whole.
    Assisting FEMA and the Joint Housing Solutions Group in exploring 
and assessing innovative solutions (e.g., the latest in factory-built 
contemporary housing, modular homes based on universal design, housing 
built from recyclable materials) to post-disaster temporary housing 
needs.
    Providing the organizational home within the Institute for the 
FEMA-funded HAZUSMH software that facilitates assessment of the risk 
from hurricane winds, riverine flooding, and earthquake events.
    Operating, with FEMA funding, the American Lifelines Alliance 
(ALA), a public-private partnership that builds upon established 
industry practices to support the development of national consensus 
guidance for the design, construction, and retrofit of new and existing 
lifelines.
    Exploring for FEMA of ways to optimize the role of building code 
enforcement officials in disaster mitigation, preparedness, response, 
and recovery and providing disaster-susceptible communities with a 
resource to assist them in preparing for and recovering from disaster 
events.
    Administering a community planning fellowship program for FEMA.
    Developing, managing, and conducting the Multihazard Building 
Design Summer Institute (MBDSI) for the Emergency Management Institute.
    Assessing for FEMA the state-of-the-art of hazard mitigation in 
graduate-level mitigation planning curricula and formulating a 
preliminary strategy for stimulating the integration of hazard 
mitigation courses into such curricula.
    Assisting FEMA in responding to its responsibilities under the 
Earthquake Hazards Reduction Program Authorization Act of 2000.
    Assisting the National Institute of Standards and Technology (NIST) 
in translating appropriate recommendations from its World Trade Center 
investigation into building codes and standards.
    Assisting NIST in developing guidance concerning progressive 
collapse prevention and fire safety design.
    Organizing for NIST a building egress workshop intended to foster 
out-of-the-box thinking concerning egress from tall buildings.
    Conducting a workshop on the vulnerability of buildings to 
chemical, biological, and radiological attack under a grant from the 
Alfred P. Sloan Foundation.

                         MMC BOARD OF DIRECTION

Chair
    Brent Woodworth, Global Crisis Services, Inc. (representing the 
building/facility owner community).
Vice Chair
    L. Thomas Tobin, Tobin & Associates (representing Government and 
policy).
Secretary
    Ann Patton, Ann Patton Company, LLC, Tulsa, Oklahoma (ex-officio 
member representing community interests).
Members
    Andrew Castaldi, Swiss Reinsurance America Corporation 
(representing the reinsurance community); Ken Ford, National 
Association of Home Builders (representing the contracting/building 
community); Philip Ganderton, MEc, PhD, University of New Mexico, 
Albuquerque (representing the financial community); Michael Gaus, PhD, 
Professor Emeritus, State University of New York at Buffalo 
(representing the wind hazard mitigation community); David Godschalk, 
PhD, University of North Carolina at Chapel Hill (representing the 
planning/development community); George Hosek, Michigan Department of 
Environmental Quality (representing the flood hazard mitigation 
community); Klaus H. Jacob, PhD, Columbia University, Lamont-Doherty 
Earth Observatory (representing the geological hazards research 
community); Gerald H. Jones, retired building official, Kansas City, 
Missouri (representing the building code enforcement community); David 
McMillion, Consultant (representing the emergency management 
community); Nancy McNabb, National Fire Protection Association 
(representing the fire hazard mitigation community); Michael Moye, 
National Lender's Insurance Council (representing the financial 
community); Dennis Mileti, PhD, Professor Emeritus, University of 
Colorado (representing the multi-hazard risk reduction community); 
Michael J. O'Rourke, PE, Rensselaer Polytechnic Institute (representing 
the snow hazard mitigation community); Timothy Reinhold, PhD, PE, 
Institute for Business and Home Safety (representing the insurance 
community); Alex Tang, PEng, C Eng, Chair, ASCE Committee on Lifeline 
Earthquake Engineering, Mississauga, Ontario (representing the 
lifelines community); Charles H. Thornton, PhD, SE, CHT and Company, 
Inc. (representing the structural engineering community); Eugene 
Zeller, retired building official, City of Long Beach, California 
(representing the seismic hazard mitigation community).

                             MMC MEMBERSHIP

Organizational Members
    American Forest and Paper Association, Washington, DC; The American 
Red Cross, Washington, DC; Association of State Floodplain Managers, 
Inc., Madison, Wisconsin; Consortium of Universities for Research in 
Earthquake Engineering, Richmond, California; Earthquake Engineering 
Research Institute, Oakland, California; Factory Mutual Insurance 
Company, Norwood, Massachusetts; GE Global Asset Protection Service, 
Hartford, Connecticut; IBM, Woodland Hills, California; Institute for 
Catastrophic Loss Reduction, Toronto, Ontario, Canada; International 
Code Council, Inc., Country Club Hills, Illinois; Johns Hopkins 
University Applied Physics Laboratory, Laurel, Maryland; 
Multidisciplinary Center for Earthquake Engineering Research, State 
University of New York, Buffalo; National Fire Protection Association, 
Quincy, Massachusetts; National Fire Sprinkler Association, Patterson, 
New York; NIST Building and Fire Research Laboratory, Gaithersburg, 
Maryland; Natural Hazards Center, University of Colorado, Boulder; 
Portland Cement Association, Skokie, Illinois; Society of Fire 
Protection Engineers, Bethesda, Maryland; State Farm Fire and Casualty 
Company, Bloomington, Illinois; The Thornton-Tomasetti Group, Inc., New 
York, New York.
Affiliate Members
    Arup; Baldridge Associates; Structural Engineering, Inc.; Corotis, 
Ross, Boulder, Colorado; EverGlow NA, Inc.; Goettel & Associates, Inc.; 
Martin & Chock, Inc., Honolulu, Hawaii; Seismic Installations.

    Chairman Thompson. Thank you very much.
    I want to thank you for your testimony. I will remind each 
Member that he or she will have 5 minutes to question the 
panel. I now recognize myself for questions.
    Mr. Fugate, I appreciate your recognition that mitigation 
is absolutely important. Going forward, you will see some 
legislation that has been introduced to kind of reflect that as 
a priority. But for the here and now, as Carl Rogers would say, 
I think we have to address it.
    Are you presently in your position as FEMA director 
satisfied with the temporary housing plan that FEMA is 
operating under?
    Mr. Fugate. Mr. Chairman, no.
    Chairman Thompson. Can you share with the committee what 
dissatisfaction you have identified thus far?
    Mr. Fugate. Mr. Chairman, the plan does not define an 
outcome. It is not scalable. It does not address catastrophic 
housing.
    I have asked that they incorporate into our strategy an 
outcome based upon what our strategy would be and how we would 
implement temporary housing for 500,000 housing units 
destroyed.
    As you heard in the opening remarks about the variety of 
catastrophic effects, those numbers don't reflect every 
potential scenario. But I believe it is important that we 
stress the plan to the point where we see where it breaks. At 
what point would temporary housing no longer be an option as 
hauling in units versus having to relocate population?
    When does it now make sense that we have to look at, how do 
we recover and repair and salvage existing structures, which 
our programs currently do not address, both through Stafford 
Act and other prohibitions against going into rental properties 
or repairing private homeowners' homes, above and beyond 
individual assistance programs where they are oftentimes having 
to go out and find those resources?
    Chairman Thompson. Thank you. Thank you. I am sorry I cut 
you off.
    Mr. Jones, you made a reference that we were kind of 
winging it as an entity. Is that because you think FEMA or the 
United States Government ought to do more than just what they 
have done so far?
    Mr. Jones. I believe we need to do some additional 
scientific study. By winging it, I meant that, in my own case 
especially, I am depending on past history and experience, but 
I have no scientific basis to back up my intuitive decisions.
    I think that, on the long run, we need some more research, 
and I know research is kind of a bad word sometimes. But I 
think we need to do more in-depth review of this issue of, what 
is temporary? When does the transition take place? How do you 
transition from something that is readily available on the spot 
to make it permanently available and desirable? That is why.
    Chairman Thompson. Thank you. You showed a slide of seven 
possibilities. Mr. Skinner talked about costs ranging anywhere 
from $26,000 to $229,000 at a private site. Those are 
significant figures.
    Have we looked at whether or not the travel trailer 
alternative, Mr. Fugate, is the only alternative available in 
this situation? Have we asked the private sector to help us 
craft something that may or may not confirm that this may or 
may not be the best response to this?
    Mr. Fugate. Mr. Chairman, in the few months I have been 
here, we have been able to demonstrate through the pilot 
project, because these units you see here are--actually, six of 
them are installed up at the Emergency Management Institute in 
Emmitsburg, Maryland. We are actually--we host students up 
there having them use and tell us about these units.
    But I guess the question I have is, have we actually asked 
the public what they need? Again, I think we have situations 
where, if my home is damaged and I can get a travel trailer or 
a travel unit or whatever we are going to call it, put it in my 
driveway so I can stay there and fix my house, that may be my 
preference.
    In many cases, it will be, do we have rental property that 
we can rent or hotel-motel rooms while you do that repair? What 
if the home isn't yours and it is a rental unit? Is there any 
way we can get that rental unit back on-line?
    So I think we have to look at these tools and go back and 
go, based upon various scenarios, what does the public want to 
be able to do? My experience has been, dislocating people even 
tens of miles in their community is so disruptive that their 
preference is not to leave if they have property to move 
outside that area, but sometimes the tools are not going to 
provide us with options other than relocation to rental 
properties or other locations where housing exists.
    Chairman Thompson. Thank you.
    Mr. Skinner, what is your analysis of these units and 
whether or not you think we are getting the best for our 
investment?
    Mr. Skinner. As far as these units, we actually haven't 
done any studies as to the utility, but I think we have to be 
careful here as to looking at these as a fix-all, especially 
from a cost perspective, and that is something our office is 
always looking at.
    To transport, store, install, maintain, deactivate, store, 
these units are going to cost just as much as a travel trailer. 
So we have to take a very close look at what we have here.
    Second, do we want to create--and they are looking at these 
units as something that is in between--temporary--transitional. 
I am starting to use new terms here, temporary, permanent-type 
homes.
    The thing is--and as Mr. Fugate pointed out--what we have 
to do is work with the communities. We are still going to have 
the issue of, do we want these units in our community? Do we 
want to make these units permanent? Does the community want to 
have these units there permanently?
    These are the questions you have to work locally with the 
local community to address. I am not going to suggest--and we 
haven't done a study--that this is the fix-all as a replacement 
for travel trailers.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Indiana for 5 
minutes, Mr. Souder.
    Mr. Souder. Thank you. I appreciate you all showing the 
complexity of whether you are working on your own home, what 
your neighbors are like, whether we are in a beachfront 
community or an area where they may not have the assets with 
which to rebuild because most of the people may not even have a 
job at the particular point in time, depending on what has been 
hit. It is an extremely complex price range and style of home 
challenge and assets of the individuals.
    I wanted to make sure I pointed out for the record, Mr. 
Fugate, in your testimony, you say--and you have reiterated 
here--that many States and communities do want the travel 
trailers. You state in your testimony that they are not 
suitable for people who need housing solutions for a prolonged 
period of time.
    While I would agree that certain of those units are not, 
the fact is, is that many people spend their whole lives in 
larger versions of these. Sometimes we get confused the park 
trailer, which is very small, not as much ventilation, are 
intended for emergency use. In fact, most of what are in 
Arkansas are not for sale to the general public.
    They were FEMA specs that you would not have in a regular 
situation that were designed specifically for short-term, but 
many because FEMA purchased all kinds are now being smeared 
beyond that and saying, well, you shouldn't live in those long-
term, but millions of Americans in our Park Service, in our 
Border Patrol, in our Government agencies live in different 
forms of trailers for extended periods of time.
    In addition to that, modular housing, which gets thrown in 
with this, we have classrooms in this for many years, as we try 
to make the transition, and, you know, this temporary, 
transitional, and permanent housing is not only confusing in 
emergency after a disaster.
    It is when a neighborhood gets a new school and they didn't 
have enough buildings for it and you have trams, so to speak. 
You have how you put the police department back-up, the fire 
department back-up, an emergency health unit. Where are you 
going to get groceries in the neighborhood? All those things 
are variations of modular housing. Now, my--and temporary. We 
shouldn't look for a simplistic, quick fix.
    Also, some people have four kids and a big family and the 
grandparents there. Some are single people. Size and scale, 
cost.
    But I think that all of you--and Mr. Jones in particular--
and I wanted to ask Mr. Skinner this question. Fundamentally, 
just as a business guy, I don't understand why we don't have a 
fixed time where this is a FEMA emergency management and then 
it gets handed off to HUD or a housing agency? Why is FEMA 
involved in something 4 years later?
    Wouldn't a logical way to do this, say, FEMA, your 
responsibility is--and would you say 1 year, 2 years, take care 
of emergency, and then there is a long-term that looks at the 
neighborhoods, it looks at complexity of problems, because FEMA 
isn't supposed to be a housing agency?
    Mr. Skinner.
    Mr. Skinner. That is an excellent point. Traditionally, we 
have always talked about housing as sheltering prior to, 
during, and immediately after an event, temporary. If you want 
to define temporary, by the Stafford Act standards, it would be 
18 months, but that is extendable. Then bringing people into 
permanent housing.
    FEMA had never considered itself as responsible for the 
permanent housing business, so to speak. FEMA was to coordinate 
and help people get back on their feet so they can transition 
into permanent housing.
    The issues that we are dealing with here is, should there 
be a finite time? You know, to get--I hesitate to say we should 
use a cookie-cutter approach here. Every disaster is going to 
be different. Sometimes we can do it in 6 months; sometimes we 
can do it in 18; sometimes it may take 3 years.
    Mr. Souder. If I may----
    Mr. Skinner. We need a plan----
    Mr. Souder. If I may reclaim my time for just a second, 
because it is ticking down, you said several different things. 
You said 18 months, but the Stafford Act can be continued 
indefinitely would be one question. The second thing is, is 
that, once again, we are going emergency housing into 
transitional housing into permanent housing. Why is FEMA in 
transitional housing? That is a housing question, not an 
emergency management question.
    And that nobody is arguing that some of these things don't 
take longer. The question is, if it takes a fully developed 
plan, why would FEMA be doing the development plan? I am not 
anti-FEMA here. It is just that then they are getting into 
these massive long-term plans, and emergencies are coming up 
all over the place, that it seems to be a different skill set 
even and different people that you would need and different 
strategies.
    Mr. Skinner. If you can develop a comprehensive plan, I 
think FEMA definitely needs to be at the table. They have the 
responsibility to shelter people, to put them in temporary 
housing, and they need to pass off those people into permanent 
housing.
    They should be at that table helping HUD, SBA, VA, IRS, 
other agencies, Agriculture, all have capabilities, not only at 
the Federal level, not only horizontally, but vertically, down 
at the local level. They are major players. It is the State and 
locals that have the responsibility to be working to put their 
citizens back into permanent housing.
    FEMA is responding, and they have a statutory 
responsibility to help people recover in the community. They 
have to be working with the people on the infrastructure, for 
example. You pointed out, do you want to put a neighborhood--
and I just came back from the Lower Ninth Ward just this past 
week, as well as Biloxi, Mississippi--and do you want to be 
putting people back into housing where there are no shopping, 
where there is no food, where there are no medical facilities?
    All of this has to be taken into consideration, and FEMA 
needs to be at the table helping coordinate that.
    Mr. Souder. Thank you.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Missouri for 5 
minutes, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. I also want to 
apologize. I am on Financial Services, and we are in markup. So 
I am going to leave.
    I have one question. The photograph that was shown on the 
screen with all of the trailers in Hope, Arkansas, I am just 
wondering--and then based on the--on your testimony, Mr. 
Skinner, and this story in today's Washington Post, A-5, which 
actually talks about your testimony today--when you look at all 
of those homes, it makes sense to somebody like me that if we 
are going to have a mass holding place for temporary housing, 
that it would be located in the areas that have been mentioned 
by your testimony, where we normally will have disasters.
    I mean, instead of Hope, Arkansas, then what about 
somewhere on high ground in Louisiana or Florida or California 
or somewhere in the Midwest, not--I mean, because of what 
happened in Greensburg and all around the Midwest, and 
particularly the northern part of Texas, we know that that is 
tornado alley.
    So would it make sense and save money if we located 
temporary housing, maybe even a manufacturing center, near 
areas that we could expect, just based on history and 
topography and weather patterns, for a disaster to hit? Is that 
just beyond anything that we can do or even imagine?
    Mr. Skinner. I think that is something that should be part 
of our strategy, and then I believe that it also should be part 
of our operational plan. Incidentally, with Hope, Arkansas, 
that was just one of several sites.
    Mr. Cleaver. Yes, I understand.
    Mr. Skinner. The reason that got so much attention was 
because of the volume of trailers that went in there that were 
never--were not eventually deployed for use.
    But, yes, as far as the manufacturing of these things, that 
that is something I think maybe the private sector and FEMA 
need to work on as to--so you have these places that we can 
deploy in a timely manner.
    But we also have to take into consideration, we don't want 
to put these places in harm's way. For example, storing travel 
trailers in Louisiana could present a problem because it is--
most of Louisiana is in a flood zone. Putting these trailers 
along in Florida, they could be in a hurricane area that is 
prone to hurricanes on an annual basis. So those things have to 
be obviously taken into consideration.
    Hope, Arkansas, was actually, I believe--my recollection--
was a good place other than the tornado threats that could go 
through that region because of the highway systems. They could 
be deployed easily to Mississippi. They could be deployed 
easily over to Louisiana and Texas, and that was the reason 
that site was, in fact, selected.
    Mr. Cleaver. Yes, just to follow up on that, I am not 
suggesting that that an inappropriate or bad location. I am 
wondering if we were in Hope, Arkansas, with great 
intentionality or were we just there? Because this was--because 
there was some land there. You know, I mean, why were we there?
    Mr. Skinner. Keep in mind, we were not prepared. We were 
not prepared for a catastrophic disaster, and we were not 
prepared to handle a housing disaster of this magnitude. That 
is what we need to have in place before the disaster.
    We were actually preparing in the midst--developing our war 
plan in the middle of the battle. That is why--and I think, 
under the reform act, the Homeland Security--the Post-Katrina 
Reform Act is requiring now that we start developing and 
thinking along these lines.
    I think FEMA is now taking the first step forward. We do 
have a strategy. We now have to fill in the blanks. The devils 
are the details. We have to start developing the operational 
plans. It is not going to be easy, and it is going to involve a 
lot of players.
    Once that is put together, we should not have to be 
developing and amending our strategies during the course of a 
disaster or after the disaster strikes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from New Orleans, Mr. Cao, 
for 5 minutes.
    Mr. Cao. Thank you, Mr. Chairman.
    Mr. Fugate, in the beginning, you spoke of mitigation, 
which is important, but in the case of Katrina, no mitigation 
process could have gotten people back into their homes when 
city and utility infrastructures were destroyed. During your 
testimony, I did not hear any specifics with respect to housing 
plans.
    What plans do you have, for instance, to house people for a 
period of 3 months, 6 months, 12 months, 2 years? Can you 
provide us with some specifics?
    Mr. Fugate. Yes, sir. If you have in the tens of thousands, 
we can probably house people in their communities using a 
combination of renting non-impacted properties and temporary 
housing units that can be brought in site-specific.
    Once you probably get up around the 100,000 range, we are 
probably looking at having to relocate people out of the area, 
if there is no housing. You also, as you have seen in some of 
the other previous statements, that along with the housing 
loss, you also tend to also lose a lot of infrastructure.
    So you end up with a situation that there is a point at 
which we will not be able to bring in housing or find enough 
housing in the immediate area, and we have to look at 
relocating people.
    Now, the next part of that question--and this is the one 
that is, I think, of great concern to everybody, particularly 
to communities--is, how long will that relocation take place?
    We know--and this is something I have faced in Florida in 
many disasters--that, once people are moved from their 
community for any period of time, a certain percentage will not 
return. That number will increase by the time frame it takes to 
re-establish a housing base for people to move back, provide 
schools, safety, and infrastructure.
    So the initial tendency is not to move people and try to 
bring the resources to them. That is why you see us using 
things like temporary housing units, because that is something 
that we can add to the housing stock when the housing stock is 
destroyed.
    But that is finite. It is not time or fast enough. In many 
cases, we have to determine--and this is part of where I want 
to go in our planning from the strategy--to how we implement 
this. So, community leaders, if we have a disaster, you would 
know that if we were dealing with several thousand homes 
destroyed, this would be the response and the solutions that we 
can bring to bear and the time frames we can bring to bear.
    If it is larger than that, the answer may not be what 
people want to hear, but the reality is, if we cannot establish 
enough housing--and, Mr. Chairman, I will just throw this out 
probably for semantics. But in what we do at FEMA, I would look 
at a sheltering, because even up to 2 years is not the long-
term solution.
    But if we can provide enough sheltering, whether it is 
congregate, whether it is individual, to keep people in that 
community, that is the initiative first starting point. That is 
the best option we would have.
    But there will be a point where the option will not work. 
We can either get it there, or is there enough property that we 
can repair, rebuild, or somehow get back on-line? We need to 
know early that we are going to have to relocate people and 
then what that plan is, as been pointed out here, what is the 
housing solution?
    Our business is sheltering. We may be using units up to 2 
years, but our business is sheltering. We do not have the 
solution for, how do we re-establish housing stock to get a 
community back? This goes right to the heart of long-term 
recovery. If we don't solve this problem, we risk communities 
not coming back.
    Mr. Cao. Thank you.
    This is to either Mr. Skinner or Mr. Fugate. I believe that 
a more important issue--shelter is extremely important, but to 
me the more important issue, having lived through Katrina 
myself, is the ability for people to move back into their homes 
as quickly as possible, because oftentimes you sent trailers to 
different houses and, by the time you would get them there, 
their temporary housing, their house might have already been 
repaired.
    I believe that Mr. Skinner's absolutely right in a sense 
that we have to have better coordination between Federal, State 
and city agencies in order to push the issue of recovery.
    This is to either Mr. Fugate, Mr. Skinner. What plans do 
you have in place in order to better coordinate? Because, 
having lived through Katrina, after 4 years after Katrina, I 
still see a lack in the area of coordination between State, 
Federal, and city agencies with respect to recovery.
    Mr. Fugate. Well, let's tackle this one. Let's talk about 
it very specifically, your house. Who is responsible for 
repairing your house? Because if the majority of the homeowners 
can get that house repaired, then we can focus on renters and 
other folks that don't have those options.
    That is generally the way we have modeled our response out 
of Stafford Act, the responsibility of individual insurance or 
their private funds. We are not really set up under the 
Stafford Act to directly enable that person to fix their house.
    Yet, as has been pointed out, we will spend considerable 
sums of money to fund a temporary housing unit in their 
driveway. That goes back to permitting. That goes back into 
working with the private sector, because even if you have 
financial assistance, you may not have enough contractors, you 
may not have enough materials.
    These disasters in Florida, it took better part of a year, 
year-and-a-half to re-roof houses just from the 2004 hurricane 
season, and that had nothing to do with the Federal response. 
That had to deal with supplies, contractors, and workers.
    So when you talk about--if we can get the answers on how we 
would approach homes that either--because the insurance isn't 
fast enough or the workforce isn't there or we got supply chain 
disruptions, how do we work better with the private sector, 
State, and local governments, and address issues such as 
bringing in out-of-State contractors, doing the type of things 
to get houses fixed, and then look at, how do we work issues 
such as: Can we provide assistance?
    Now, there was a pilot program where we could have provided 
assistance to people that had rental properties. That has 
expired. We don't have that tool going forward.
    These are things, Mr. Chairman, we need to come back and 
look and use these numbers to drive not what we are capable of 
doing, but what the demand is in a large-scale event and go, 
``What are the tools we need, the whole spectrum from it's 
1,000 homes to it's 500,000?''
    Mr. Cao. Mr. Chairman, I see that my time is expired. I 
yield back my time. Thank you very much.
    Chairman Thompson. Thank you. I don't think you have any 
trouble with the committee, Mr. Fugate, when you come back. We 
are willing to work with you on that.
    The Chair now recognizes the gentlelady from Texas for 5 
minutes, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I would just 
thank you for, I think, what will turn out to be a very 
important and instructive hearing and also to thank you for 
leadership on making some changes that I think are crucial in 
the structure that we have.
    I am a veteran and would never call myself a victim of 
Hurricane Katrina, Rita, and Ike. Unless I have missed it, Mr. 
Fugate, let me extend an invitation for you to come to the Gulf 
Region. I think I have mentioned it to you in the past.
    But what I have seen--and my colleague from New Orleans 
probably lives it every day--certainly, we have lived through 
the Ninth Ward, I as a guest, visiting as a Member of the 
Homeland Security Committee. Others have lived with it.
    But then, of course, the region that I live in took tens of 
thousands of Hurricane Katrina survivors, compounded by 
Hurricane Rita, and what we now call the forgotten hurricane, 
Hurricane Ike.
    So our frustration is mountainous. It is the question of 
getting housing in fast enough and the right kind of housing. 
You were not there, but you know the question of toxicity, the 
trailers that were unlivable, but people lived in them for a 
period of time.
    So my question is going to both Mr. Skinner and our new 
FEMA director as to what has changed. That is the first 
question.
    To the--Mr. Skinner, if you would speak to this question of 
more flexibility and also the idea that, when a disaster of 
mountainous proportion occurs, do we need to look at, consider, 
review the idea of usurping, overriding--and maybe with certain 
criteria--certain ordinances and zoning laws that really have 
inhibited people from being able to get a temporary structure 
in some places?
    The other question would be for Mr. Fugate in particular. 
In our region, when we needed emergency housing, we would have 
to listen to, ``It's in a flood zone.'' Well, you know, should 
I say, a light bulb just went on. Of course we are in a flood 
zone. That is where we live. You have us kicked out and can 
come back, because you are telling us we are in a flood zone, 
if you could answer that.
    Let me just put two other questions on the table. You have 
a FEMA pilot program, if you can tell me what the status of 
that is. In Texas, we are still trying to be able to respond to 
that pilot program. I spoke with you a couple of weeks ago; I 
have not heard back from you on the environmental issue. If you 
can give me a report on the new contract you have on the 
alternative housing that is out in Maryland.
    Mr. Skinner, if you would on those questions?
    Mr. Skinner. With regards to your question with, should the 
Federal Government assume the authority to usurp local laws and 
ordinances----
    Ms. Jackson Lee. With criteria.
    Mr. Skinner [continuing]. With criteria----
    Ms. Jackson Lee [continuing]. Enormous----
    Mr. Skinner. I would suggest that we should not do that. 
What we need to focus on is preparedness. We need to know what 
city ordinances, what codes that would prohibit us from 
responding to a disaster on different scales and to work with 
the local community to find solutions before the disaster 
strikes so that, when the disaster does strike, we know where 
to go.
    For example, in the State of Florida, Mr. Fugate's former 
State--or maybe still current State--but with debris removal, 
the State of Florida knew before disaster strikes who--many of 
the counties that have defined----
    Ms. Jackson Lee. Let me let you move on to the next 
question about flexibility. The reason why I say that is that 
is not always the best approach. Some people believe that the 
fix is in when you get contracts ahead of time. But I don't 
want to focus on that. What about the flexibility issue on 
housing?
    Mr. Skinner. I keep referring to flexibility, and this is 
something that I have been--that I have referred to not just 
from Katrina or Rita, but it goes back to Hurricane Andrew and 
Northridge earthquake, and that is that we have to define the 
Stafford Act. We, I think, are tying our own hands when we try 
to implement the Stafford Act.
    For example, there is a belief that we cannot pay a local 
unit of government to begin rebuilding, that, instead, they 
must spend their funds and we will reimburse them. I have 
always challenged and questioned that interpretation.
    Yes, it is a reimbursement program, but that is at the end 
of the day, not at the beginning of the day. If we need that 
working capital fund or need that advance to get the work 
started, then you should have that flexibility to do that.
    Ms. Jackson Lee. Mr. Fugate, can you----
    Chairman Thompson. The gentlelady's time has expired. You 
asked about six questions, and that created a program, because 
there is no way they can answer them within 5 minutes.
    I mean, I will--Mr. Fugate, if you will give it as quick a 
shot as you can?
    Mr. Fugate. Mr. Chairman, Congressman, I have got two good 
facts to you. Where is that environmental review at and the 
contract status of our pilot program? We will have that for you 
today.
    Ms. Jackson Lee. I appreciate it. The alternative program, 
if you would, as well.
    Mr. Fugate. Yes, ma'am.
    Chairman Thompson. Thank you.
    We now recognize the gentleman from Texas for 5 minutes, 
Mr. Olson.
    Ms. Olson. Thank you very much, Mr. Chairman.
    Thank you all for coming today. Mr. Fugate, great to see 
you again. I appreciate you coming back. Welcome back.
    I have a question for you regarding Hurricane Ike, which 
seems to be, as my colleague mentioned, a forgotten hurricane 
in many regards. But as you know, the Bolivar Peninsula, which 
is on the east side of Galveston County, suffered probably the 
greatest single damage of one area during Ike.
    Galveston County there has over 300 road projects, with the 
majority of them right there on the peninsula. Many of these 
projects are in a state of flux right now because they are 
located at the velocity zone, where over, as you know, if they 
are over 50 percent damaged, they are prohibited from 
rebuilding.
    I was tremendously encouraged with your testimony when you 
were here for your confirmation on the velocity zones. I 
understand that FEMA was going to go back to take another look 
at that and see if the Federal rules regarding velocity zones 
could be somehow modified to be more helpful.
    I just want to see, what is the status review? Has the 
issue been clarified? Do you have a timeline for us?
    Mr. Fugate. Congressman, the National Flood Insurance 
Program reauthorization is coming up this year. These are many 
of the issues we need to address. I am not sure we are going to 
be able to do it in the short time frame. I think we need to 
take a step back and have a dialogue on how we are doing this.
    But to get to the crux of the matter, when we are looking 
at these types of temporary programs, I think semantics have 
gotten in our way, because the way the National Flood Insurance 
Program reads, if I put in a temporary housing unit there, I 
can do that. If I put in something that is more permanent, like 
a manufactured housing modular unit, that is considered 
housing.
    Well, if I just call it a shelter and recognize it is 
temporary--because I have run into this issue in Florida. We 
have gotten in many cases where we are not talking about a 
long-term fix. We are talking about sheltering people whether 
it is in congregate care or in many of these programs we call 
temporary housing. It is literally a shelter program on a 
temporary basis.
    Yet the way we interpret our rules, because we deal with 
one part that is temporary and one part that can be considered 
permanent, we apply the National Flood Insurance Program to 
what is, in effect, how we try to shelter a population while 
they get back into their homes and rebuild.
    So, again, I think that a lot of times, as we go through 
these programs, as the IG points out, the Stafford Act hasn't 
said a lot of the things that we try to interpret, and we have 
to come back and clarify, well, is that the intention of this 
body? Did Congress intend for us to do things that way?
    If not, are we seeing procedures and processes--and what we 
see as conflict between two separate bodies of legislation 
that, in trying to deal with short-term shelter issues, we are 
mixing housing and sheltering operations in defining how we can 
approach that in a velocity zone, which is different than where 
we would be if we were not in that same zone?
    But it is essentially a short-term housing or shelter 
operation to bridge that gap between what has happened so 
people have a long-term housing solution.
    Ms. Olson. Thank you for the answer to that question.
    One more for you. With Sheila, my colleague from Texas, but 
with a lot of hard work on her behalf in the defense 
supplemental, H.R. 2346, the cost-share ratios for the 
communities affected by Hurricane Ike were amended and to be 
altered consistent with Hurricane Katrina, the 100 percent 
reimbursement.
    I just wanted to see if you have issued the letters to the 
affected governments notifying this change. Is the money 
starting to flow or the reimbursements starting to flow? What 
can we do to help if it is not?
    Mr. Fugate. Congressman, I will have to check. I have not 
seen that or signed that, and I will get back to you today on 
the status of that.
    Ms. Olson. Thank you, Mr. Fugate.
    Thank you, panelists.
    I yield back my time, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes Ms. Kilroy for 5 minutes.
    Ms. Kilroy. Thank you, Mr. Chairman.
    I thank the witnesses for being here this morning.
    I am from a district in Ohio, in Columbus, Ohio, and you 
might not think that disaster planning for hurricanes is of 
significant concern to us, but if you think that, that would be 
wrong.
    In 2005, I was a county commissioner, and I could tell you 
that the people in our county watching on their televisions 
what was going on with Hurricane Katrina were angry. They were 
angry at the Federal Government. They were angry at every level 
of government for not being in a position to respond 
effectively.
    Our county was asked by FEMA to take in some of the Katrina 
veterans. On a very short-term basis, we got called. We said, 
``Sure.'' We got called four times, and we said, ``Sure.'' 
Nobody ever came.
    What we ran into was, time and time again, jurisdictional 
fights and wranglings instead of working with the local 
community here that was willing to help. I just wanted to say 
that it is just appalling to me that, even in the face of a 
disaster like that, that people can't stop their jurisdictional 
in-fighting.
    We came up with a plan on a very quick basis that utilized 
some Section 8 vouchers--not very many, because they are not 
very available to people--even in our own community, there is a 
long waiting list--a plan that took in childcare, helping 
people get their Social Security checks, their child support 
checks, their IDs re- 
established, their banks re-established, and make sure they had 
doctor's care and childcare. We worked with our National Guard 
to house people on base at Rickenbacker. Nobody ever came, and 
that is fine.
    But what really struck me was the lack of planning and the 
winging it that was going on. It disturbs now today to get the 
sense that we still don't have the kind of planning that is 
necessary.
    I think it was General Eisenhower that said, in war, a plan 
is useless, but planning is essential. I think right starting 
from evacuation on out, it is all part of the housing and 
relocation. So how people are evacuated and where they are 
evacuated to affects what kind of housing is going to be needed 
and how we are going to be able to get them back to their homes 
to do that kind of repair.
    So that is enough of the speech. I just want to really 
encourage you to continue to plan and want to know now, how are 
you planning to engage local, State, Federal, or private-sector 
agencies to effectively and efficiently plan for post-disaster 
housing needs, no matter what the level of disaster or what 
type of disaster?
    Mr. Fugate. Congresswoman, we currently have a national 
disaster housing task force that is made up of representatives 
that are working these issues. We also are utilizing through 
the Post-Katrina Emergency Management Reform Act our national 
advisory committee to help bring in a diverse group of people 
to look at these issues and help us craft a strategy and a plan 
that you can execute.
    I think one of the things you point out is, a lot of what 
was happening and how we were dealing with things was based 
upon, we had kind of a concept, but we never put an outcome on 
there.
    That is why I like coming back and saying: Let's look at 
500,000 housing units and what we are going to do within 60 
days, and then start driving, and go into the areas where it is 
likely to see those types of events, and start planning ahead 
and going, ``If we had to evacuate because of earthquakes, 
parts of Arkansas, where are those people going?'' Then go into 
those States and work with those States and going, ``All right, 
based upon the plan, your willingness to accept people, how do 
we make this work so that we lay down a much better 
framework?''
    We won't have all the answers, as you point out. But we 
will have the framework, and we will have built the team that 
can address these issues, and it is going to take all the 
moving pieces of a community. It cannot just be done at the 
Federal level.
    But let's use where we have already looked at, these large-
scale impacts to housing from disasters, and plan how we would 
handle and do relocation. If something occurs outside that 
area, at least we have built a concept and a team that we can 
then apply to things that maybe we had not anticipated.
    But as you show Hope, Arkansas, and other pictures, those 
aren't the results of a plan. They are the consequences of not 
having the plan.
    Ms. Kilroy. Has there been collaboration with HUD on how to 
transition from interim housing into more permanent, affordable 
housing structures?
    Mr. Fugate. Yes, ma'am. That is an on-going process, and 
that is one I think where the administration is very much 
focused in on is: How do we bring in all the Federal family to 
address the long-term housing needs after a disaster? What is 
the appropriate role for each agency? How do we provide a 
seamless system from we evacuate, we shelter, to we do 
temporary or sheltering operations, out to the point where a 
long-term housing solution is present in that community?
    Chairman Thompson. Thank you.
    Ms. Kilroy. Thank you, Mr. Chair.
    Chairman Thompson. We see your interest.
    We now recognize the gentleman from Florida, Mr. Bilirakis, 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    I want to welcome Director Fugate. I am familiar with all 
your good work in Florida. I served in the legislature.
    As you probably know, Florida recently completed an 
emergency management training exercise to strengthen the 
State's plan for preparing for and responding to a catastrophic 
hurricane. One of the scenarios considered during this exercise 
focused on potential options for housing the evacuees from a 
Category 4 hurricane that could displace hundreds of thousands 
of State residents.
    State emergency management officials suggested temporary 
housing, such as evacuees in foreclosed homes as an option of 
last resort. They reasoned that such a plan could avoid the 
large-scale relocation to other States of people whose homes 
were destroyed, like those evacuees in Katrina and Rita, many 
of whom have yet to return to their homes.
    Do you have any thoughts on that? Is FEMA actually 
listening to this? Will they propose something like this? I 
have major concerns.
    Mr. Fugate. We have listened to it. In fact, I was part of 
those original discussions of how we would look at those 
properties. I think the way to approach that and the way I 
would look at it, the way I have--was looking at it originally 
was that we would look at, would banks be willing to lease or 
rent us those properties like we would rent and lease other 
rental units and do it under our traditional program?
    If we could acquire a rent or a lease with that property 
owner, whether it is the mortgage-holder or the bank or the 
institution, and then we would look at the cost-effectiveness 
of that rental against renting a hotel or motel room.
    That is my approach. I think anything other than that gets 
into areas that I am not sure, (A) I have any expertise or any 
authorities to forcefully go in there and try to take those 
properties, but I think if we could sit down and look at where 
we do have those properties, if they are appropriate, is, is 
there a mechanism, through perhaps one of the major lending 
institutions that has those properties?
    The other thing, Congressman, is, are those properties 
ready to go? As you know, this condition of many of those 
foreclosed properties ranges from they are ready to move in to 
they are dilapidated and would not be usable.
    But look at it from the standpoint of, is a rental 
property--if that is available, look at the cost-effectiveness 
versus other programs and see if that would work. But anything 
else, I think, goes into gray areas that I am not sure that 
either we have the tools, the authorities, or whether or not it 
would be cost-effective for us to house evacuees.
    Mr. Bilirakis. I am sorry. My mic is not on. Could you give 
us an assessment of how prepared Florida is--and, specifically, 
the Tampa Bay area--for a Katrina-like storm?
    Mr. Fugate. Congressman, you have heard my answer before. 
We are prepared as our public is. Probably our biggest 
challenge is getting people to evacuate out of the vulnerable 
areas.
    Again, what we are focused on both at our Federal level, 
but working with our State and the local partners, is life 
safety. We can rebuild communities. That is something we work 
to strive to do. But if people have not prepared, if people 
don't heed evacuation orders, then our response is not going to 
be as successful.
    It comes back to the public is part of the team. They have 
to prepare. They have to respond. We have a lot of vulnerable 
citizens out there that we should be focused on. People need to 
take more responsibility for being prepared.
    I think we have good systems in place across the Nation, 
but it always comes back to the public is a key part of that 
process to be prepared so we can focus on our most vulnerable 
citizens. Most importantly, for hurricane threats, to heed 
those evacuation orders early. You know that Tampa Bay is a 
very challenging place even for rush-hour traffic, much less an 
evacuation.
    Mr. Bilirakis. Yes. Give us an example of the most 
effective actions our constituents can take.
    Mr. Fugate. The first one is, if you live anywhere--since 
we are talking hurricanes in the hurricane-prone areas, is to 
know if you are in an evacuation zone or not. If you are, your 
plan should be to evacuate when local officials tell you it is 
time to go and not wait for the next 6-hour forecast and hope 
it gets better.
    The second part of this is, all of us have responsibilities 
to get a plan, protect our families, get training--take CPR, 
first aid--and when disaster strikes, do one more thing. Once 
you are okay and your family is okay, check on a neighbor. This 
has got to be something we all understand is, you know, the 
survivors have to pull together. They are part of the team. 
They are not the liability. They are part of the resource and 
the community.
    Mr. Bilirakis. Thank you very much.
    Thanks, Mr. Chairman. Appreciate it.
    Chairman Thompson. Thank you.
    We now recognize the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. I thank the witnesses 
for appearing.
    I would like to speak rather quickly on a number of topics, 
and specifically I am concerned about the role of a 
congressperson in the post-disaster recovery. I understand that 
there is a need to work with the local and State officials, but 
for whatever reasons--and I can cite many--constituents tend to 
think that congresspersons have a significant role in the 
process.
    When pods are being located, they assume that the 
congressperson will have some input. When NGOs are not being 
reimbursed as they perceive reimbursement should take place, 
they assume that congresspersons should have a role in the 
process.
    So if you can, take about 1 minute and give me your 
perception of what the role of the congressperson is in this 
process.
    Mr. Fugate. Congressman, your role is to represent your 
constituency and work with our external affairs and figure out, 
where is the best place to answer the questions? If it is 
local, if it is our State partners, if it is something Federal 
agencies are doing, again, our job is to work with you to help 
get those answers and to work with your constituent issues.
    Again, it may be something that a local government has got 
the best response or their responsibility. It could be the 
governor, or it could be Federal programs that we need to 
address.
    Mr. Green. Well, let's examine that statement. I appreciate 
it. It was candidly stated.
    Here is what happens under the current thinking or 
methodology process, if you will. It almost becomes adversarial 
as we proceed, because we find that we are engaged in this 
process after things have occurred and we are trying to, for 
want of better terminology, straighten things out.
    It creates some tension that I think we need not have. 
There must be some way for us to find our way into this process 
in a different manner so as to be helpful as opposed to 
reactionary or as opposed to trying to resolve things after 
they have become too much of a problem to be resolved in some 
instances.
    Let's just talk for a moment about one circumstance that we 
might try to help you with. NGOs will come to us after the fact 
and have receipts and say, ``I really should be reimbursed for 
all of this.'' The rules seem to be dynamic, as opposed to 
static. There are times when they can be reimbursed, and there 
are times when they cannot.
    Is there any codification with reference to reimbursement 
of NGOs, faith-based institutions?
    Mr. Fugate. Yes, sir. It is a complex, as you point out, 
process for any applicant receiving assistance under a public 
assistance for what we would generally refer to as Category B 
or emergency protective measures.
    There are a lot of activities that are eligible that non-
profits engage in, whether they are faith-based, community-
based, or your traditional response organizations, that could 
be reimbursed. There are others that are not. Oftentimes, it is 
making sure we understand clearly what activities were taking 
place. Was it eligible work? Was it done in the declared area 
and to find how we can support that?
    But, from time to time, we also run the challenge of some 
of the things they were doing--which were good things--however, 
were not eligible for that process. So it is--for most 
communities, the first disaster has a steep and painful 
learning curve of trying to apply these programs.
    So I have asked staff to come back, as the IG has pointed 
out, many of their programs have a lot of complexity that I am 
not sure if we would be better off simplifying our process so 
it is more understandable and cuts down on the confusion. 
Ultimately, I believe that will save in money and give us 
greater accountability if the programs are easy to explain to 
anybody, not just somebody who has been doing the program for 
some time.
    Mr. Green. With reference to equipment that may be needed--
for example, an air conditioner--we find that sometimes they 
are difficult to come by, and this isn't post-disaster relief. 
Is there any way for us to have a working relationship with 
reference to trying to facilitate the placement of needed 
equipment?
    Mr. Fugate. How big of an air conditioner, Congressman?
    Mr. Green. We are talking about something that usually will 
cool an area perhaps smaller than this room.
    Mr. Fugate. Residential?
    Mr. Green. Yes, residential, generally speaking, or it 
could be at a church center of some kind.
    Mr. Fugate. Generally, Congressman, we would work those 
requests if they came from the State for support. Depending 
upon how that program--there may be something that would be 
done under the individual assistance program, under what they 
call other needs assistance.
    In general, those types of processes, we would just be 
supporting a request that the Governor makes, references what 
that team would need, whether it is support from acquisition or 
support from working with the private sector.
    Mr. Green. My time is up. I just wanted to give you this 
clear indication. I really want to work with you on these 
projects, and I would like to try to find a means by which we 
can establish that working relationship early on.
    Thank you very much.
    Chairman Thompson. Thank you.
    We now recognize the gentleman from Texas for 5 minutes, 
Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. Let me echo the 
sentiments of my colleague from Texas on the point of 
collaboration with the Members of Congress in the impacted 
areas. I think that would help for a more smoother process as 
we go forward.
    I wanted to bring up again, Mr. Fugate, the issue I brought 
up at the previous hearing on the discrepancy between the 
assistance provided in Hurricane Katrina versus Hurricane Ike. 
I know some of this probably has to do with I think some of the 
good legislation we passed after the good work that was done by 
Mr. Skinner's office on the fraud, waste, and abuse that we saw 
after Hurricane Katrina. We passed the FEMA reform bill.
    Having said that, though, I do want to put some numbers out 
there, because the discrepancy is pretty high. In Hurricane 
Ike, the housing assistance was 17 percent of applicants 
received assistance. That is a pretty low number, compared to 
Katrina, where 74 percent of the applicants received 
assistance.
    Other needs assistance, Katrina was three times more than 
Ike. Total assistance, the average payment was almost $5,000 
per application or registrant in Katrina, and about $700 in 
Hurricane Ike.
    To boil it down, less than one-fifth of the Ike victims who 
were referred for assistance were actually deemed eligible for 
assistance, which means that about 80 percent of the people who 
applied for assistance didn't get that assistance.
    These numbers come from your office, and I just--to me, 
that seems a little--that discrepancy just seems to me very, 
very high. I wanted to get your comments on that.
    Mr. Fugate. Congressman, as I understand it, you have asked 
either the General Accounting Office or IG to take a look at 
those numbers in the background. Some of the other numbers I 
would like to run against those tables and take a look at is, 
what was the percentage of insured property versus uninsured 
property? Because, again, insurance is one of the factors we 
look at to determine eligibility.
    Mr. McCaul. Right.
    Mr. Fugate. Also, look at the structures themselves and go, 
what was the level of damage versus repairs? Because that will 
also drive those numbers.
    I have seen in situations where, if I had a lot of roof and 
wind damage, that those numbers would probably be right. If I 
had--or I had more storm surge or flood damage where homes were 
destroyed, the other numbers would sound about right.
    So I would actually--I am welcoming the look at, did we 
unintentionally screen out people by trying to tighten up the 
rules that should have been eligible for assistance? Or are we 
seeing a reflection of the types of damages, insurance, and 
things people do to get ready that actually reduces the burden 
on the Federal taxpayer?
    But I think your point is well taken: Have we inadvertently 
screened people out of assistance they should have received? If 
we did, what is the remedy to that? But we need to go back--and 
I think what you have done is the appropriate thing--is, let's 
get somebody outside to take a look at this and tell us why 
these numbers or why they were there and then see if that is 
something that was an unintentional consequence of trying to be 
mindful of how we spend taxpayers' money, or is this a 
reflection that this type of storm, this type of damages, and 
the level of insurance and preparedness actually drove those 
numbers down?
    Mr. McCaul. I appreciate your candid and honest response. I 
think that an outside look would make some sense whether it 
comes out of the IG's office or whether the GAO does that.
    Mr. Chairman, I would hope that you would join me and have 
this committee take a look at these numbers from an outside 
point of view. I think, again, 80 percent being denied 
eligibility is a pretty high number. I would hope this 
committee could join that effort.
    Chairman Thompson. I don't think I have any problem with 
that. I see our chairman of oversight nodding his head, so I am 
sure Congressman Carney would be happy to join us in that 
effort.
    Mr. McCaul. I appreciate that. Thank you for your 
testimony.
    With that, I will yield back.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Texas for 5 
minutes, Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here.
    My question has to do with a procedure that we have been 
using in my congressional district, and I think other folks 
are, I am sure, doing that. Texas, as you know, we have a State 
surplus commission there. They have been working with FEMA, GSA 
to get those trailers that have been surplus equipment from 
FEMA.
    We have been able to place a lot of those to small 
communities that have used them for fire, police stations, for, 
you know, county offices, et cetera, et cetera, et cetera. You 
know, just to make sure that--you know, that--you know, they 
are--free, you know, our State folks are saying that they are.
    But is there a way we can get some sort of certificate or 
something from you all that would say that, if they--you know, 
that if we get them and then we distribute them out, through 
the Federal surplus, State surplus commissions that we have in 
Texas? I just want to make sure that we don't come back and 
hear that there has been a problem with them.
    But, Mr. Fugate, what ideas do you have?
    Mr. Fugate. Well, right now, there is a court order that is 
limiting what units I can release. Those units that are not 
covered by the court order, we are slapping all kinds of bumper 
stickers and labels on them that these are not to use for long-
term housing.
    As we go forward with the new models that we are looking at 
that--our specifications require a fairly low level of any type 
of product that would involve any noxious or potentially toxic 
gases, those are less restrictive.
    But the current ones we have, because of the on-going 
issue, those that are not covered under the court order that we 
are releasing, we are making it very clear that the temporary 
housing units are labeled not for long-term housing.
    The ones that are manufactured housing are actually covered 
by HUD standards. As long as they met HUD standards, we don't 
have that restriction, and they can be used however that 
jurisdiction appropriately uses--so long as it was manufactured 
to the HUD standard.
    Mr. Cuellar. Could we follow up at a later time with our 
State folks to make sure whatever has been sent to Texas, that 
we don't have any follow-up problems?
    Mr. Fugate. Yes, sir.
    Mr. Cuellar. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I am glad the gentleman mentioned that, Mr. Fugate. The 
transition between FEMA and GSA on to the State has been a 
question, because there is still the question of what is scrap, 
what is sellable, and the lines are not quite clear, so that is 
an issue.
    One of the issues tied to that I think I would be 
interested has, to your knowledge, the ability to resell any of 
the temporary units or put back in use for another emergency, 
have we ever looked at that as a condition for what kind of 
units we look at?
    Mr. Fugate. Yes, sir. Primarily it was--that program was 
built around mobile homes, manufactured housing-type units, 
that were actually specced and built, that they would be used 
and then potentially be used again.
    The smaller units, where basically the wear and tear is 
generally such that it is a cost-benefit of how much you invest 
to repair those, versus their normal lifespan and how they are 
used. So part of that has been because of these large 
inventories that we have, which was, again, consequences of the 
response, not necessarily driven by the plan, is, what is the 
best way to go forward?
    Some of these units we are looking at in the pilot programs 
are looking at it from that standpoint of recyclability, 
rehabbing them, and being able to reuse them. But in the event 
where the lifespan of them and the wear and tear on them does 
not make a cost-effective repair, that they are relatively easy 
to recycle and that we are able to dispose of them if we do not 
have the option of rebuilding it, repairing it, storing it, or 
selling it, that if we do have to, you know, go in and, you 
know, salvage it, is that it does have a much better recyclable 
process.
    Mr. Souder. Mr. Chairman.
    Chairman Thompson. Yes.
    Mr. Souder. I thank the Chairman for yielding. I just 
wanted to make a brief comment on Mr. Cuellar's comment, that 
there is a distinction between whether something is safe and 
whether a community might get sued.
    There were three cases in the United States of complaints 
being filed prior to Katrina and that all those were lost. It 
doesn't appear that most of these suits are being won, either. 
But just because they certified doesn't mean somebody is going 
to get sued, unless we get liability protection.
    Thanks.
    Chairman Thompson. The gentleman from Alabama, Mr. Rogers, 
for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    First, I wanted to thank Mr. Fugate publicly for how 
quickly you handled the problem in Montgomery, Alabama, after a 
flooding. It was very much appreciated.
    I want to talk more about lessons learned--and we have 
talked about this in the past--lessons learned after post-
Katrina. One of the themes that we heard within Louisiana, 
Mississippi, and Alabama was that these local communities 
needed the ability, latitude--to go ahead and negotiate when 
things are calm, arm-length deals with people for debris 
removal, as well as other services, that they would have to 
have immediately after a disaster, rather than having to use 
some contractor from far away that comes in, and the only way 
the city gets reimbursed is if they use that contractor.
    We have had plenty of time. Please tell me those contracts 
have been authorized, and they are in place, as well as 
prepositioned supplies.
    Mr. Fugate. Sir, these programs are oftentimes not going to 
sustain. We had a pilot program for debris management that 
would increase the cost share in a disaster--magnitude of 
Katrina from an average cost share of 75 percent Federal, 25 
percent State and local. We wanted to incentivize that.
    We had a pilot program that provided, if you had an 
approved debris management plan in your local community that 
was signed off on, that the cost share would go to 80 percent, 
which doesn't seem like a lot, but 5 percent is substantial, 
particularly when you look at the costs of debris.
    Mr. Rogers. Right.
    Mr. Fugate. That program was a pilot. I think these are the 
things that we need to go back and look at, is how do we 
incentivize people taking those steps to pre-plan, identify, 
and have contracts in place? Because many communities won't 
face a disaster. It is, again, competing with every other 
resource and every other time constraint of trying to get these 
things ahead of time that, in a smaller disaster, cost share 
could be a factor that would drive that.
    But, again----
    Mr. Rogers. On what time-line do you expect to complete 
that pilot study and move that to other local communities so 
that the mayors and county commissioners can go ahead and 
explore those contract opportunities?
    Mr. Fugate. As I understand it, that was a pilot program 
that was in the legislation that has expired. We--finished up 
the report on that and reported back. It would require, again, 
taking a look at whether we have the authority to do that under 
Stafford or whether we would have to get guidance from Congress 
on how to implement that.
    Mr. Rogers. Well, you know, we are back in the hurricane 
season. If we are hit with a hurricane this year, and these 
local leaders had this problem again, it is a shame on us. It 
is inexcusable to have gone this long and not have given them 
the one thing that all of them said they needed after Katrina. 
That is the authority to pre-plan these things, negotiate it, 
have them signed off on by all, that the contractors are 
credible and the contracts are agreeable, but it is just a 
shame that it had not happened already.
    I want to go back to a point that the Chairman was talking 
about earlier, and that is on these trailers. This will be more 
for Mr. Skinner, I guess.
    I still don't understand why there is not a point after the 
disaster period has--the reasonable period of recovery has 
ended that we don't transition the responsibility for housing, 
when it becomes more interim housing or permanent, over to HUD. 
That is not FEMA's responsibility. It, in my view--I mean, they 
are to move on to the next disaster.
    You said 18 months was how much was in the Stafford Act, 
but why don't we see HUD move in? Because they have got more 
expertise and skill sets and personnel prepared for this role.
    Mr. Skinner. Please understand, I agree that it should be 
transitioned to HUD.
    Mr. Rogers. Okay.
    Mr. Skinner. In fact, we have made recommendations in prior 
reports that permanent housing, can HUD play a more active role 
in permanent housing, in that we should transition--that is our 
ultimate goal. What is the end game to get people back into 
their homes to rebuild the community? But what I was suggesting 
is that FEMA has a role to play up to that----
    Mr. Rogers. Yes, I agree. I think everybody should be at 
the table, like you said, in the planning stages, but there 
should be mutual agreement that it is a 12-month period or this 
18-month period, whatever, that HUD then takes over that 
housing responsibility.
    If, you know, if you have recommended that, my next 
question is, has the policy been put in place to mandate that?
    Mr. Skinner. We didn't recommend a timeline, again, because 
of the extenuating circumstances. Every disaster is going to be 
a little different. Some may take 12 months; some may take 18 
months; some may take 24 months. Some----
    Mr. Rogers. Does this committee need to do anything 
statutorily to help you?
    Mr. Skinner. Could the committee do----
    Mr. Rogers. Do we need to do anything statutorily or 
legislatively to help you?
    Mr. Skinner. Well, we could--the committee could--what I 
think needs to look at HUD's role, their disaster housing 
program, their disaster assistance housing program to 
institutionalize that program. That is something, I think, that 
came in late after Katrina and Rita, and it is something that 
we might want to consider continuing. If it had a legislative 
base, that would be helpful.
    Chairman Thompson. Yes, I think one thing is the Stafford 
Act kicks in and that is T&I, and we have to work with them to 
try to negotiate it. But you are absolutely correct.
    One of the issues with that is, you know, Mr. Jones, you 
put in place part of that strategy. I am a little concerned 
that nothing has happened since you did the first step. Is it 
your expert opinion that FEMA now needs to go and do a little 
more of the planning toward this housing?
    Mr. Jones. Yes, sir. I believe that is correct.
    FEMA is almost overwhelmed at times with the magnitude of 
the here and now. It is a little hard under those circumstances 
to think 4 and 5 years down the road. So our recommendation, I 
believe, is to get busy on some longer-range research and 
planning so that we can get our arms around these issues of 
transition and permanent.
    Chairman Thompson. Thank you.
    The gentleman from Pennsylvania for 5 minutes, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Fugate, Mr. Skinner, Mr. Jones, good to see you again.
    Just a couple of questions. I kind of want to follow up on 
what Mr. Rogers was talking about earlier. How far down the 
road are we in prepositioning in different areas, as far as 
housing and supplies?
    Mr. Fugate. Well, in both cases, we have inventory that we 
have built up in previous storms. We are also looking at our 
response capabilities through either contracts or through 
storage of commodities to move in the areas. We work with our 
States.
    One of the areas we have done more advanced work has been 
on the hurricane-prone States. That is a seasonal event.
    But also going back and looking at our catastrophic 
planning at the types of events that can occur, and what those 
numbers look like, and where those supplies are.
    Again, with housing, we are looking--and, again, this based 
upon what numbers we are talking about--our ability to purchase 
and contract for those units that we have specified after our 
experiences with Katrina versus those that are inventory that 
we can use.
    Part of our planning that we want to get to is, what is the 
appropriate number to maintain an inventory versus what we 
would then depend upon other options?
    There is a finite capability to haul and install these 
units in a short time frame. So that is why I wanted to use a 
large number of 500,000 housing units in a 60-day period to see 
what is actually possible with the existing infrastructure, 
what we can do with current capabilities, and that--we will 
never get to that number, but then that starts telling us when 
we have to look at other options.
    That may be, as we come back and work with the Chairman, 
go, all right, if that is not going to be the answer, then what 
is the answer? Does it mean we have got to fix houses? How do 
we do that? If we have got to relocate people, then we don't 
want to wait until there is a disaster and not have that plan 
ready to go. How do we support communities that end up hosting 
those populations?
    As has been pointed out, this is a very complex issue when 
we move people and then we want to get them back home. We have 
to solve the bottom line: Are we going to be able to store 
enough housing units?
    Mr. Carney. You are asking a lot of questions. What are the 
answers to those questions?
    Mr. Fugate. I think we start with a big number and see what 
the system currently does and where it breaks, and that is 
where we go after it. I think too often what I have run into is 
we have built our plans around what our capabilities are, not 
what the issues are, and then we run into the places where the 
system breaks down, and it tends to fail us catastrophically at 
that point.
    Mr. Carney. Well, one of those considerations, certainly, 
is the cost of the housing trailer itself. What on average is 
the cost when you can put in the maintenance and the 
deactivation and the community construction and all those kinds 
of things?
    Mr. Fugate. Well, one of the numbers that we had--and this 
was a response earlier to a question the Chairman asked--on 
just the temporary housing units, it is probably about anywhere 
from $40,000 to $50,000.
    The other factors you have got to add in, though, is how 
far it took to haul it, because we pay per mile on the trailer 
from either the manufacturer or from storage. So it depends 
upon how far those units go.
    Now, as pointed out, in some of the group sites where we 
actually are leasing space and it is not on somebody's private 
property, we have got reoccurring costs to go there, those 
costs can get up to several hundred thousand dollars. So you 
have got to ask yourself----
    Mr. Carney. Per unit?
    Mr. Fugate [continuing]. Is a couple hundred thousand 
dollars----
    Mr. Carney. Per unit?
    Mr. Fugate. Per unit, sir. You know, in a lot of parts of 
the country, you can pretty well get a small-sized home for 
that price or----
    Mr. Carney. In my part of the country, you get a big house 
for several hundred thousand dollars. I will yield to the 
gentleman.
    Mr. Souder. One of the challenges is, is that, when you go 
to a manufacturer that has a regular business and say, ``We 
need 30,000 right now,'' you pay overtime. You pay--you don't 
have the materials in stock. Some of the wood that we had came 
in from Indonesia. It was mixed in, because we were buying wood 
like crazy. So some of it is not having a plan, which is very 
hard to plan for disasters.
    Mr. Carney. Well, it is not easy to plan for disaster, but 
we try to do as much as we possibly can. You know, I just--and 
we will address all this down the road from the oversight side, 
as well, but to try and get the cost of these things down, I 
think, you know, the more we plan, the more we think about 
these things.
    You know, we have had some experience now. It is not like 
we are coming to this stuff cold and to figure these things 
out. You know, nothing is going to be perfect, but I don't want 
to an 80 percent solution to be the--to stop something that 
you--because we are never going to get perfection, so let's 
just make sure we plan down the road a little bit.
    I will yield back, Mr. Chairman.
    Chairman Thompson. Thank you.
    One of the things that the gentleman hit on is, is whether 
or not the maintenance costs on this inventory is of such that 
it becomes prohibitive to have certain things in stock. I think 
that is one of the considerations long-term that you will have 
to look at is, can we maintain a stock that requires less 
maintenance than what we are doing?
    Staff tells me that, when they looked around at the sites, 
you know, there was--some of the in-stock items, if the 
emergency happened, it couldn't roll out, because it has been 
there for a period of time, and, over time, has depreciated. So 
have you all looked at that?
    Mr. Fugate. Mr. Chairman, I know that they have. I have 
asked for more specifics. Part of what I want to get to is, 
what should be the inventory that we maintain based upon the 
disasters we face, knowing we will never be able to maintain 
enough inventory for the larger-scale events? But what should 
we maintain on short of those types of events to have ready to 
go within a short time frame those products?
    Then, what is the lifespan in storage? How do we rotate 
that? So if we have product that has been there, we know the 
avenue lifespan in dry storage is only going to be finite 
years, that we don't go and go past that point where they now 
have no residual value, but how do we replace and maintain that 
stock?
    The second piece of that, as was pointed out by the 
congressman, was there is a manufacturing capability in this 
country. What is that? If we went and started to let contracts, 
how many could they start building right now in a time frame 
that could provide those units? How long would it take to get 
in there? That tells us the next number.
    Once we get past those, we are going to come back and say, 
``We need to look at a better--how do we get homes fixed? If we 
are going to spend this much money on a temporary unit, is it 
possible to fix homes faster?''
    Well, that is going to come back to material, crews, and 
permitting, contracting, all these issues that are local State 
issues to drive that----
    Chairman Thompson. It is called a plan that Mr. Carney was 
talking about.
    Mr. Fugate. Yes.
    Chairman Thompson. I am going to have to cut you off, 
because I think that we are called to vote.
    Gentleman from Texas--California, Mr. Lungren. Everybody 
here is from Texas.
    Mr. Lungren. Thank you, Mr. Chairman. That is the first 
time I have been called from Texas, but that is all right.
    Chairman Thompson. The accent gives you away.
    Mr. Lungren. That is it. We are further west than Texas.
    Mr. Fugate, first of all, let me thank you for your 
service. It is refreshing to hear your testimony here today as 
someone who understands the problems that this committee is 
posing to you and has given some thought and has provided us 
with some insights.
    I notice in your written testimony you started out by 
explaining that FEMA can't do it all and that, in fact, FEMA 
shouldn't be the one that does most of it. It is a local and 
State responsibility and a personal responsibility.
    I wish you would underscore that a little bit, because 
while I come from a State that is not hit by hurricanes, we 
have just about everything else. Whenever we get the big one, 
the big earthquake, we are going to be the recipient of 
assistance.
    That is why I sometimes get very concerned about all the 
attention given to FEMA, as if you are the end-all and be-all, 
and if it is a problem, it is your problem. If it is a 
solution, it is your solution.
    Could you just indicate a little bit what FEMA's prime 
responsibility is and the necessity for everybody at the local, 
State, regional levels to be intimately engaged in preparing 
and responding to a natural disaster?
    Mr. Fugate. Congressman, it would be an honor. FEMA is not 
a first-response agency. We are part of a team, and that team 
is made up of State and local officials, local responders, the 
private sector, faith-based communities that every day deal 
with disasters, oftentimes that do not involve Federal 
assistance.
    Our primary mission on behalf of the President is, when a 
Governor requests assistance, to provide that assistance under 
the Stafford Act to support those States, as well as coordinate 
with the Federal family, our parent agency, Homeland Security, 
but all the other Federal agencies in providing assistance via 
those Governors' requests.
    But a big part of that, as you point out, of that team that 
oftentimes our plans we don't recognize is the role of the 
public. They are one of our best resources in ensuring that we 
are going to be successful. The better prepared they are, the 
more we can focus on our most vulnerable citizens and make sure 
that we can address the needs of children, our frail elderly, 
people with disabilities, people that just don't have the 
resources, but it is a team effort.
    So oftentimes my analogy, coming from local and State 
government, is FEMA tends to now take on the aspect of its 
description of a team of which we are just one component. But 
the reality is, most of the things that people are going to 
interface with in a disaster are going to be local and State 
officials. Where they are going to interface with FEMA is maybe 
through the individual assistance program or assistance we are 
coordinating on behalf of the President with the Governors.
    But the strength of that team will always be in local and 
State government and, more importantly, individuals being 
prepared to the best of their ability.
    Mr. Lungren. Now, earlier there were some questions asked 
of you about the difference in both per capita expenditures and 
eligibility and so forth, and in part of your response, you 
said, well, I would have to look at the--you either said the 
number or the percentage of insured property. Can you explicate 
a little on that?
    Mr. Fugate. Yes, sir. The whole intention of the Stafford 
Act was non-duplication of benefits. So the first thing we look 
at in the individual assistance or even for governments was, 
what should be insured? Was it insured?
    Again, personal responsibility is, I should be insuring my 
property. Many of these events, the majority of people do not 
seek or receive Federal assistance, they had insurance, they 
paid their bills, they had their homes repaired.
    Our programs are really designed to address people that did 
not have the insurance, were not insurable, did not have the 
resources, or when the magnitude of the event is so great that 
insurance--particularly in housing--can't address the housing 
needs, because there is no housing to get into, even if you had 
insurance.
    Mr. Lungren. The reason I ask that is it would be a 
terrible thing for us to criticize the response of your agency 
based on the fact that many people in these areas had insurance 
or were able to insure their property, which is what we want to 
encourage, as opposed to suggesting that you are not doing a 
good job when, in fact, we had a situation where people were 
responding on a personal basis the way we want them to respond.
    Mr. Skinner, just a very quick question, and that is, you 
mentioned in your testimony the high cost of current housing 
options. Mr. Fugate just responded as to what the dilemma is, 
in terms of determining the life of the stock, whether it cost 
money to hold it, as opposed to attempting to wait until there 
is a disaster and then trying to increase the production at 
that point in time.
    Anything you would add to what Mr. Fugate said about how we 
might be able to bring the cost of these housing options down?
    Mr. Skinner. I certainly do. I think we definitely need to 
do some type of cost-benefit analysis, as to what our options 
are, and that is having pre-award contracts or something--I 
call them--refer to them as call contracts, with those 
manufacturers, with some type of agreement that they have the 
capability and the willingness to provide us with what we need 
after disaster or when a disaster strikes versus maintaining 
trailers or maintaining an inventory of housing stock, which 
can be very expensive.
    FEMA at one time back in the 1980s did, in fact, maintain 
trailers in three different locations around the country. They 
gave up that. They discovered back in the early 1990s and mid-
1990s that it was not cost-benefit-wise to continue to maintain 
those trailers. They were deteriorating. They were expensive to 
maintain. They were subject to the elements. We had full-time 
staffing over securing them.
    So eventually, during the mid- to late 1990s, we depleted 
that stock and then started relying on contractors. I think we 
need to take a real close look as to what would be most 
beneficial for us.
    Chairman Thompson. Thank you. We have a dilemma. We have 
three Members who need to ask questions, and we have about 7 
minutes left for questions.
    We can do 2, 2, and 2 and release our panel and take the 
next witness on the next round.
    Gentleman from Connecticut, Mr. Himes, for 2 minutes.
    Mr. Himes. I will be very quick. I was encouraged to see in 
your testimony the commitment to working with HUD.
    I wonder--a general question--can you characterize whether 
you are satisfied with the communication between your agencies? 
They are obviously very important as an entity that understands 
where housing is regionally and nationally.
    Specifically, coincidentally right now the Financial 
Services Committee is marking up the Section 8 voucher reform 
act. I don't see or hear a lot of discussion about the 
potential for the use of temporary Section 8 vouchers, which 
strikes me, at least in theory, as an interesting way where you 
might provide a temporary solution.
    Mr. Fugate. I think our dialogue with HUD, particularly as 
the new team has come on-board, has been very good. My 
experience with Section 8 actually--there is one thing that is 
kind of interesting. You have those that are applied to the 
individual, and they are transportable. You have those that are 
applied to the facility and are not transferable.
    I have had situations as a State director where I had 
people that did not have their own Section 8 certificate, so if 
that rental unit was destroyed, they had to go back to the 
housing authority and get in line to get another Section 8 
voucher so they could get rental property, which put them at a 
disadvantage, competing with other people that still had not 
been able to get Section 8 housing vouchers.
    Mr. Himes. What if we, for example, created in response to 
a catastrophe temporary Section 8 vouchers that could be 
distributed precisely to people like that?
    Mr. Fugate. I think I--you know, I would want to work with 
my partners at HUD, but I think giving them more tools and more 
options is, again, what we are looking for, because, as the IG 
has pointed out, all disasters are different. We need a variety 
of tools based upon, do we have housing available? Would 
Section 8 help meet those issues? Would we be able to get 
vouchers through HUD to help people get the longer-term 
solutions in those communities?
    Mr. Himes. Thank you.
    Thank you, Mr. Chairman. I yield my time.
    Chairman Thompson. The gentlelady from California for 2 
minutes.
    Ms. Richardson. Two brief questions. Mr. Fugate, you said 
it is the people's responsibility to evacuate and it is their 
responsibility to be prepared. I have been watching a lot of 
news, and if people had difficulties in 2005 responding, we now 
have major financial crises going on.
    Has your plan been re-evaluated to consider the crises that 
people are going through? Many people are unemployed, don't 
have the resources, don't have the vehicles, all the things--
other people helped each other. Those things we won't 
necessarily be able to count on. Have you evaluated your plan, 
given the current financial state of this country?
    Mr. Fugate. Yes, we have. Again, as we pointed out, we want 
people to prepare to the best of your ability. We know that 
people don't have transportation. Those are transportation-
dependent populations our local governments plan for. We 
provide support, as we do with supporting the State of 
Louisiana, if we have to evacuate Orleans Parish.
    The other issue that we run into, particularly with 
hurricanes, is making sure that we are able to, with our State 
and local partners, shelter people closer to the area. In many 
cases, there are--and, again, there are exceptions, but in many 
cases, people really need to evacuate just tens of miles, not 
hundreds of miles. Shelter capacity in those States is very 
important.
    Some of the biggest costs people face when they evacuate, 
though, is, again, lost work, lost wages, gas, other expenses 
that can make those decisions very difficult. I think that is, 
again, why we worked back through our States and local 
partners, to identify, as the situation changes, will they need 
assistance from us to support that?
    But in many cases, the shorter the distance of the 
evacuation, the less costly it is for the people.
    Ms. Richardson. Okay. I have got 26 seconds. Let me make 
sure I am really clear. Have you evaluated the jobless rates, 
the financial situations, things that have happened in these 
major cities that we could expect an occurrence to occur? Have 
you looked at that and evaluated what specific additional 
things need to be done in order to deal with what we think will 
probably be even more people who are not prepared? Yes or no?
    Mr. Fugate. No.
    Ms. Richardson. Okay. We need to do that.
    Thank you, Mr. Chairman.
    Chairman Thompson. The gentleman from New Jersey.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Fugate, you and I have talked about the subject, going 
back to the former administration, to review and reform where 
it is necessary some of the processes they undertook. We have 
got 29 regional indefinite delivery, indefinite quantity areas, 
contractors, three PTS contractors, the production and 
technical services, I believe that is.
    The FEMA process effectively cut out small-, medium-sized, 
potentially many minority-owned businesses. This is a serious 
problem. It was done in December of last year. I don't want to 
get off on that. I don't have the time, but I wanted to, but I 
don't have the time.
    What I am asking you to do is to remedy the decision to 
allow each FEMA region to make its own decision as to whether 
they would like to stick to the IDIQ contractors or choose the 
new PTS contractors.
    The people who work in each FEMA region, the people who 
work in our backyards should be responsible for these 
decisions, not contracting services here in Washington, DC. We 
are doing just the opposite of what we said we were going to do 
8 years ago.
    As far as I know, nothing in either set of contracts 
precludes the other from being used. The PTS contractors can 
supplement the work of IDIQs instead of supplanting them.
    Now, Administrator Fugate, are you willing to undertake 
this solution, instead of mitigate the effects to small- and 
medium-sized businesses under these flood mapping contracts, 
particularly in view of what the financial situation is today? 
This is unconscionable.
    Mr. Fugate. I understand, sir. I am researching it to give 
you an answer by Friday as to where we are at in this 
contracting process and what my options are and what I can and 
cannot do under the current----
    Mr. Pascrell. Is my analysis of the issue and the problem 
correct?
    Mr. Fugate. I will have an answer Friday, as I go back and 
look through the answer, sir.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We will begin with the next panel in about 20 minutes or at 
the time we finish the next two votes.
    The committee is recessed.
    [Recess.]
    Chairman Thompson. I would like to reconvene our hearing. A 
number of Members have indicated they will come as the 
testimony is given, given some other matters.
    I now welcome our second panel of witnesses. We would like 
to welcome you.
    Our first witness to this panel is Ms. Erica Gees, a member 
of the national board of directors of the American Institute of 
Architects. Ms. Gees is currently serving as a Massachusetts 
State-wide disaster coordinator for the AIA and formerly served 
on the AIA's national director assistance committee and 
disaster assistance task force.
    Welcome.
    Our second witness is Mr. Reilly Morse, senior attorney for 
the Biloxi office of the Mississippi Center for Justice, where 
he focuses his attention on affordable housing policy and civil 
rights.
    Welcome.
    Our third witness is Mr. Don Kubley, president and chief 
executive officer of Intershelter, Incorporated. Mr. Kubley has 
served as a chief of staff and legislative liaison to the 
lieutenant governor of the State of Alaska and a special 
appointment from the Governor of Alaska as director of the 
Governor's office of regulatory reform.
    Welcome, also.
    Our fourth witness is Mr. Braddon Rininger--I hope I did 
you justice, Braddon--president of Brajo, Incorporated, a 
housing initiative to create affordable, safe, and sustainable 
housing units using environmentally responsible materials and 
methods.
    Our firth witness is Mr. Walter Boasso, chief executive 
officer of Housing Emergency Logistics Plan, or HELP. Mr. 
Boasso has been in the business over 20 years and is a former 
member of the Louisiana State legislature, where he served as 
chair of the senate select committee.
    Without objection, the witnesses' full statement will be 
inserted into the record.
    I now recognize Ms. Gees to summarize her statement for 5 
minutes.

  STATEMENT OF ERICA RIOUX GEES, REPRESENTATIVE, THE AMERICAN 
                    INSTITUTE OF ARCHITECTS

    Ms. Gees. Thank you, Chairman Thompson.
    Chairman Thompson and other Members of the committee, 
present and not, I am Erica Rioux Gees, AIA. I am an architect 
in Amherst, Massachusetts. I am also a member of the national 
board of directors for the American Institute of Architects.
    Thank you for this opportunity to appear today to discuss 
disaster assistance and housing issues. There are strong 
connections between the dual challenges of post-disaster 
housing and sustainable approaches to mitigation and long-term 
recovery.
    Architects and their allied design and construction 
professionals are ideally and uniquely suited to help FEMA, 
State and local emergency management agencies, and communities 
address post-disaster housing and recovery in a number of ways. 
Through our disaster assistance program, the AIA works with 
these agencies to put design professionals on the ground to 
assist communities after a disaster hits.
    In the short-term, architects and fellow design 
professionals conduct rapid damage assessments to homes, 
businesses, and public infrastructure to begin the process of 
rebuilding. Licensed design professionals need to be involved 
to identify exactly what can be repaired and rebuilt and what 
must be torn down or reconstructed. This process is what gets 
people out of emergency housing and back into their community.
    With regard to temporary and transitional post-disaster 
housing, there are a lot of interesting and ambitious ideas in 
the field, and many of our members are engaged in finding 
creative approaches. The main criteria that should be used to 
judge such housing are practicality, comfort, and 
sustainability.
    We urge FEMA to continue working with HUD, NIST, NIBS, the 
Joint Housing Solutions Group, and design and construction 
professionals to continue fostering innovative housing 
solutions.
    We also urge FEMA to work with these stakeholders to 
address not just the quality of the housing units themselves, 
but also that of the places where those units are located to 
avoid the FEMA-ville effect of isolated, unsafe, and 
unsustainable clusters of temporary shelter cut off from the 
rest of the world.
    As a community transitions from short-term response to 
long-term recovery, it will need to make decisions that affect 
and may even significantly alter the built environment. It is 
essential, therefore, that they are made aware of the 
opportunities to not just rebuild, but rebuild better.
    Among these opportunities are comprehensive neighborhood 
redesign, urban redesign, landscape redesign, preservation, and 
appreciation of little-known assets and utility relocation.
    At the AIA, we have been providing long-term assistance 
through pro bono public service programs that offer unique 
opportunities to build long-term recovery strategies which are 
inexpensive and achievable.
    We are encouraged by the recently announced partnership 
between HUD, DOT, and EPA on livable communities. We believe 
this approach has application in a post-disaster context, as 
well, and we urge FEMA to explore ways to work collaboratively 
with these agencies.
    I would like to discuss some key principles that my fellow 
architects and I have observed through our program. First, 
building a local capacity to respond to disasters is at the 
center of our strategy. There is no national one-size-fits-all 
approach to disaster response.
    Our programs foster local communities' ability to take 
action in the wake of disaster by deploying the assets that are 
already in place. They also develop an engaged, knowledgeable 
community of citizens ready to respond.
    The second principle is the importance of partnerships, 
effective collaboration between emergency management agencies 
and professional associations to be the centerpiece of efforts 
moving forward. It is vital that these partnerships are planned 
and formed before the disaster strikes so that plans can be put 
into motion immediately.
    Communications are often challenged in the aftermath of a 
disaster. Having a well-established in-place network beforehand 
is absolutely critical.
    The final principle is speed, the ability to get trained 
and licensed design professionals on the ground to perform 
damage assessments quickly is no less an urgent need than 
providing food and medicine. Getting people back into their 
homes lessens the needs for temporary shelter and other forms 
of emergency provisions. This is a key part of our disaster 
assistance program.
    That is why it is very important that governmental agencies 
responsible for disaster recovery from FEMA to the local level 
have in place the communication plans to enable them to trigger 
the post-disaster response as soon as possible.
    It is also important to note that these principles apply to 
all forms of disaster, natural or man-made, whether it is a 
hurricane, an earthquake, an act of terrorism, or even a 
pandemic, we need to ensure that people have adequate shelter 
and that the built environment is safe.
    Thank you so much for the opportunity to provide testimony 
today on this very important issue. We look forward to working 
with the committee, and I am happy to answer any questions you 
may have. Thank you.
    [The statement of Ms. Gees follows:]

                 Prepared Statement of Erica Rioux Gees
                              July 8, 2009

                              INTRODUCTION

    Chairman Thompson, Ranking Member King, and Members of the 
committee--good morning. I am Erica Rioux Gees, AIA, an architect from 
Amherst, Massachusetts, and a member of the national board of directors 
of the American Institute of Architects.
    Thank you for this opportunity to appear before you to discuss 
disaster assistance and housing issues. There are strong connections 
between the dual challenges of post-disaster housing and sustainable 
approaches to mitigation and long-term recovery. We believe that 
architects and their allied design and construction professionals are 
ideally and uniquely suited to help FEMA, State and local emergency 
management agencies, and communities address these challenges.
    As an associate with Kuhn Riddle Architects, a 17-person 
architecture, planning, and interior design firm in Amherst, MA, I 
focus on the master planning and design of multi-family housing, 
commercial, and institutional projects. I currently serve as the 
Massachusetts State-wide Disaster Coordinator for the AIA and have 
previously served on the AIA's National Disaster Assistance Committee 
and Disaster Assistance Task Force. I also have served on numerous AIA 
Sustainable Design Assessment Teams (SDATs) in communities across the 
country, including Louisiana, Washington, Florida, Hawaii, and 
Massachusetts.
    I would like to share with the committee some information about the 
work of the AIA and architects to support mitigation and recovery 
efforts, discuss the role of architects and other design professionals 
in helping communities recover and rebuild from both natural and man-
made disasters, and provide some thoughts about the key issues 
affecting post-disaster housing and community recovery.

                  THE AIA DISASTER ASSISTANCE PROGRAM

    The AIA is comprised of more than 83,000 licensed architects, 
architects-in-training, and allied professionals across the country. 
Through our Disaster Assistance Program, we are training and mobilizing 
architects to help communities recover from disasters.
    The program dates back to 1972, when the AIA formally recognized 
the important role that architects can play in disaster response. In 
Washington, DC, Members and staff began developing strategies to assist 
member components to respond quickly to requests for aid.
    Several State and local components, including Texas, California, 
Florida, Kansas, and New York, began to develop programs to provide 
assistance to communities struck by disasters. The program coordinates 
with local AIA components and the larger disaster response community to 
train locally based teams of volunteer architects to respond in the 
event of a disaster. A dedicated network of State coordinators fulfills 
an invaluable role by coordinating with local or State emergency 
management agencies. More information on the AIA Disaster Assistance 
Program can be found on-line at http://www.aia.org/about/initiatives/
AIAS075269.
    The architectural community is well-positioned to offer expertise 
at every phase of the recovery process. When the focus shifts from 
emergency response to making homes livable and workplaces functional; 
licensed building experts--architects, engineers, builders, and 
others--are often called to assist in evaluating post-disaster 
conditions and later to help in restoring a community. There are two 
key areas where architects play a vital role when a disaster strikes: 
Performing damage assessments of buildings and helping communities 
develop long-term recovery plans.
Damage Assessments of Buildings
    One of the most immediate concerns after a disaster is the safety 
of the buildings that people occupy. It is critical to be able to 
conduct rapid damage assessments to homes, businesses, and public 
infrastructure to begin the process of rebuilding, and it is essential 
that licensed design professionals be involved to identify exactly what 
can be repaired and rebuilt and what must be torn down and 
reconstructed. Completing this process is what gets people out of 
emergency housing and back into their community. For instance, more 
than 600 AIA members volunteered to perform damage assessments and 
offer technical assistance to recovery efforts in the aftermath of 
Hurricanes Katrina and Rita.
Long-term Recovery
    As a community transitions from short-term response to longer-term 
recovery, local and State officials need to make decisions that will 
affect--and may even significantly alter--the built environment. It is 
absolutely essential, therefore, that they are made aware of the 
opportunities for change. Among these are comprehensive neighborhood 
redesign, urban redesign, landscape redesign, preservation, 
appreciation of little-known assets, and utility relocation. The 
recovery process can offer the opportunity to remedy underperforming 
aspects of a community.
    There are a number of groups and associations that offer assistance 
programs to address long-term planning. However, these efforts should 
be better coordinated between FEMA's National Response Coordination 
Center and the National Volunteer Organizations Active in Disaster 
(NVOAD), which have had a strategic partnership since 2003.
    We also are encouraged by the recently announced multi-agency 
partnership between the Department of Housing and Urban Development, 
the Department of Transportation, and the Environmental Protection 
Agency on Livable Communities. We believe this approach has application 
in the post-disaster context as well, and we would urge FEMA to explore 
ways to work collaboratively with these agencies.
    At the AIA, we have been providing long-term assistance through pro 
bono public service programs that offer unique opportunities to build 
long-term recovery strategies which are inexpensive. We have helped 143 
communities through our Regional and Urban Design Assistance Team 
(RUDAT) programs since 1967. The RUDAT program has included post-
disaster contexts such as East Nashville, Tennessee, in 1999, and 
Lancaster, Texas, in 1995 following tornadoes. Similarly, through our 
Sustainable Design Assessment Team (SDAT) program, we have been active 
in over 30 communities since 2005, including several projects in New 
Orleans. Through these two programs, multi-disciplinary teams of 
professionals can provide communities with recommended changes to a 
city's comprehensive plan and building codes, offer suggestions on 
urban design issues, and educate and engage the community in a dialogue 
about the options available.

          KEY ISSUES AND PRINCIPLES IN POST-DISASTER RESPONSE

    I would like to take a few moments to discuss some key issues and 
principles that my fellow architects and I have observed through the 
Disaster Assistance Program.
Place-based Strategies
    Building the local capacity to respond to disaster situations is at 
the center of our strategy. There is no national, one-size-fits-all 
approach to disaster response. Our programs foster local communities' 
ability to take responsibility and action in the wake of disaster by 
deploying assets that are already in place. We recognize that the most 
effective programs must be organized at the State level, in part 
because:
  <bullet> Most government agencies coordinating disaster assistance 
        and long-term reconstruction are at the State level, and AIA 
        components can most easily connect resources through this 
        network.
  <bullet> A State component is better able to examine and discern 
        regional patterns and trends to customize programmatic 
        approaches and meet contextual needs.
  <bullet> Most importantly, the local AIA component can most 
        effectively marshal professional resources from nearby 
        unaffected areas.
    Therefore, the AIA's approach has focused on building a national 
Comprehensive Response Network of member volunteers that can deploy 
locally and regionally. First established in 2006, the Comprehensive 
Response Network currently has 52 volunteers in 39 States, the majority 
of whom are currently trained to coordinate local disaster response. 
These State coordinators have the ability to mobilize hundreds of local 
architects to respond to disaster situations.
    This network has proven valuable in both small and large contexts. 
In 2008, AIA Disaster Coordinator Tom Hurd, AIA, mobilized member 
volunteers in Mason City, Iowa, to conduct more than 350 building 
assessments in the days following their historic floods. Along the 
Texas coast, the Texas Society of Architects and Disaster, Inc., worked 
to train and mobilize volunteers to conduct hundreds of damage 
assessments following last year's hurricanes. Our members mobilized 
similar efforts earlier this year in Washington State following the 
flood emergency there. Collectively, our network represents a unique 
resource to the emergency management field.
Partnerships
    Today's partnerships will yield tomorrow's recovery success 
stories. We believe effective collaboration between emergency 
management agencies and professional associations should be the 
centerpiece of efforts moving forward. With an effective local 
structure in place, the disaster assistance process can swiftly and 
efficiently respond to a range of situations.
    Currently, the AIA is working to foster a more productive 
relationship with the larger disaster-response community, recognizing 
that partnerships are fundamental to our future work. In Rhode Island, 
for example, the AIA is collaborating on the development of the Rhode 
Island Architects and Engineers Emergency Response Task Force to 
formally recognize and provide licensing for volunteers to conduct 
damage assessments. This State-recognized network of design 
professionals would be trained and accredited by the Rhode Island 
Emergency Management Agency (RIEMA). They also have plans to work with 
the State Attorney General's office to develop a set of bylaws and an 
activation protocol for the group. While this is an on-going process, 
we are very hopeful that it will provide a model for other States to 
establish a more comprehensive protocol for incorporating architects 
and design professionals who are willing to volunteer for this work.
    Similarly, AIA Louisiana recently met with representatives from the 
office of Governor Bobby Jindal (R) and State emergency management 
officials. They are interested in working with us as well as FEMA to 
develop a pilot program for training and licensing architects and 
design professionals to engage in post-disaster assessment. In 
California, we have continued to work with the California Emergency 
Management Agency (CEMA), which has a volunteer database of thousands 
of design professionals licensed to conduct damage assessments. In 
Florida, Governor Charlie Christ (R) declared March 18 Florida 
Architects' Day in recognition of their contributions to society, 
especially through disaster assistance. AIA members have also 
participated in a limited capacity on FEMA Mitigation Assessment Teams, 
most recently in Galveston, Texas, following the 2008 hurricane.
Post-disaster Housing
    There are a lot of interesting and ambitious post-disaster housing 
ideas in the field currently that relate to post-disaster housing, and 
many of our members are engaged in work that addresses creative 
approaches to the challenge of post-disaster housing. The main 
principles that I believe should be used to judge them are 
practicality, comfort, and sustainability.
    Practicality is the easy one. Emergency housing must be available 
quickly to people who are displaced. It is vital that FEMA has 
contracts and plans in place to ensure that temporary housing can be 
procured quickly in the event of a disaster, and in amounts that 
closely correspond to the need.
    The level of comfort will be directly correlated with the length of 
time people are expected to need temporary housing. The longer the time 
frame, the more comfort and greater the number of amenities that will 
be necessary. Proximity to shopping and employment centers may also 
become important considerations when relocating large numbers of 
displaced people.
    Housing that is designed to be temporary is unsustainable by 
definition. It has to be reusable, and if it is reusable it must be 
lightweight to travel quickly and cheaply.
    The AIA was pleased to work with FEMA on the Alternative Housing 
Pilot Project for the Gulf Coast, authorized by Congress 2006 following 
Hurricanes Katrina and Rita. But clearly more needs to be done to 
ensure a wide range of innovative housing strategies to meet the 
aforementioned goals. We urge FEMA to continue working collaboratively 
with HUD, the National Institute of Standards and Technology, the 
National Institute of Building Sciences, the Joint Housing Solutions 
Group, and design and construction professionals to both evaluate the 
progress and results of the AHPP projects and to continue fostering on 
innovative housing solutions. We also urge FEMA to work with other 
stakeholders in the public and private sectors to address not just the 
practicality, comfort, and sustainability of the housing units 
themselves, but also those of the larger communities in which those 
units are located, to avoid the ``FEMA-Ville'' effect of isolated, 
unsafe, and unsustainable clusters of temporary shelter cut off from 
the rest of the world.
Good Samaritan Legislation
    The involvement of architects in post-disaster contexts raises the 
related issue of the need for Good Samaritan legislation. During a 
disaster event, licensed architects and engineers may be exposed to 
questions of liability even though they are acting in good faith to 
preserve the safety of a community. While most States have statutes 
that cover certain volunteers from liability during an emergency 
situation, it is questionable if these statutes would shield an 
architect or engineer from liability if he or she is called upon to 
render professional services in a time of crisis. This ambiguity needs 
to be removed by passing Federal Good Samaritan legislation.
    Many States have extended immunity from liability to doctors and 
various other professionals who are needed during a crisis. Immunity 
from liability allows these professions to volunteer more readily and 
gives the public access to crucial services during major disasters.
    Similarly, some States have recognized the importance of giving 
licensed architects and engineers immunity during a disaster. States 
ranging in size and population from Colorado to Washington have adopted 
such legislation. Many, however, have not. For the public good it is 
important that Congress pass a Federal Good Samaritan law for 
architects and engineers.
Speed
    Last but certainly not least, post-disaster assistance needs to be 
implemented quickly. Although we cannot predict with any certainly when 
the next disaster will strike, we have seen time and again that timing 
is everything. The ability to get trained and licensed design 
professionals on the ground to perform damage assessments quickly is no 
less an urgent need than providing food and medicine, as getting people 
back into their homes lessens the need for temporary shelter and other 
forms of emergency provisions.
    That is why it is very important that governmental agencies 
responsible for disaster recovery, from FEMA down to the local level, 
have in place the partnerships and communication plans to enable them 
to trigger the post-disaster response as soon as possible.
    Lastly, it is important to note that all of these principles apply 
to all forms of disaster, natural or man-made. Whether is it a 
hurricane, an earthquake, an act of terrorism or a pandemic, the need 
to ensure that people have adequate shelter and the necessity of 
assessing the safety and usability of the built environment are equally 
great.
    Thank you for the opportunity to provide testimony on this 
important issue. We look forward to working with the committee to help 
communities prepare for, mitigate, and respond to disasters, and I am 
happy to answer any questions the committee may have.

    Chairman Thompson. Thank you very much.
    The gentleman from Mississippi for 5 minutes, Mr. Morse.

STATEMENT OF REILLY MORSE, SENIOR ATTORNEY, MISSISSIPPI CENTER 
                          FOR JUSTICE

    Mr. Morse. Thank you, Mr. Chairman and Members of the 
committee for holding this hearing and for inviting Mississippi 
Center for Justice to testify.
    Housing is fundamental for disaster recovery, to state the 
obvious. Nearly 4 years after Hurricane Katrina, coastal 
Mississippi's population, civilian labor force, and permanent 
housing stock all remain below pre-Katrina levels. Until more 
affordable housing becomes available, the labor force cannot 
return.
    We strongly support the strategy of immediate repair 
assistance for rental properties and the development of rental 
repair sweep teams to carry out this mission. This was a missed 
opportunity after Hurricane Katrina, Mr. Chairman. There were 
over 171,000 single-family rentals in the Gulf Region with 
minor damage, and over 163,000 of those untouched by storm 
surge.
    The per-unit cost of restoring a lightly wind-damaged 
rental is one-sixth the cost of a FEMA trailer when on private 
property, one-thirteenth or less the cost of a trailer on a 
group site. So we urge Congress to authorize and fund FEMA's 
ability to pursue this rental repair strategy on a large scale.
    Across the region, the 2005 hurricanes significantly 
reduced the affordable rental stock, and rental rates spiked 
dramatically for what remained. These pressures sharply reduced 
the housing options for low-income individuals. Rebuilding an 
adequate, affordable rental supply can take years.
    As FEMA's 2009 plan notes, populations with additional 
needs or low income receive the same amount of financial 
assistance that the general population, even though their needs 
may exceed the limits of the program. FEMA should ask Congress 
to modify the cap to meet the needs--the greater needs of 
lower-income persons following a disaster, particularly a 
catastrophic disaster.
    Affordable rental shortages after a disaster only magnify 
the acute national undersupply of rental housing for the 9 
million extremely low-income Americans who have only $6.2 
million rental units that rent at rates they can afford. 
Congressional action to close this structural gap serves the 
national interest to house our working poor, elderly, and 
disabled and the interest in responding to the housing needs of 
those displaced by disaster.
    Federal disaster housing strategy increasingly depends upon 
HUD housing voucher programs. But as FEMA's David Garratt 
acknowledged, handing someone a voucher if there are no other 
forms of housing available at or near the fair-market rate is 
not worth a lot. Recently, Mississippi requested funds for 
5,000 housing vouchers citing FEMA data of 2,000 vacancies in 
voucher-qualified apartments.
    But, in fact, Mr. Chairman, coastal Mississippi has less 
than 1,000 such vacancies according to preliminary results of 
surveys attached to my written statement in the past 2 weeks.
    Mississippi today is not better able to use vouchers should 
another disaster strike because its current programs do not 
remedy the undersupply of affordable rental housing. Congress 
must exert greater control over how States spend disaster 
recovery grants and serve the national interests in affordable 
housing and disaster housing response.
    When a disaster destroys most of the available rental 
housing and forces longer stays in interim housing, FEMA should 
look to other options instead of travel trailers. We support 
the Mississippi cottage pilot program funded by FEMA that 
produced and placed 2,800 modular units that are stronger, 
safer, and roomier than the FEMA trailer, and can be converted 
to permanent use on a foundation, provided local jurisdictions 
cooperate.
    Disability access, fair housing enforcement, and 
improvements to case management in interim housing also are 
crucial to meet the needs of the affected population, and I 
have detailed recommendations in my written statement and 
exhibits on these subjects.
    I want to close with a plea for teamwork and an example. 
James Johnson, a 74-year-old Mississippian on Social Security, 
left school at age 9 to work in a sawmill. He helped his family 
buy the land and collected the scrap wood used to build the 
shotgun house that a tornado spawned by Katrina demolished, 
according to a front-page Washington Post report last month.
    Nearly 4 years after Katrina, this man wakes up every 
morning on a bench pushing in a FEMA trailer because of a lack 
of teamwork. Mississippi's homeowner grant program approved by 
HUD turned him down because the State chose to exclude wind 
damage. Mississippi's MEMA cottage program, funded by FEMA, 
won't say if he can buy one of the 700 empty cottages sitting 
in a field 5 minutes' drive away from him.
    Case managers cannot connect the dots for him. HUD allowed 
Mississippi to divert disaster aid from unmet needs like his to 
other purposes.
    I urge this committee and Federal agencies to remedy this 
lack of coordination and to ensure that Mr. Johnson and other 
displaced storm victims like him, as well as future victims of 
disaster, receive better treatment than he has.
    Thank you.
    [The statement of Mr. Morse follows:]

                   Prepared Statement of Reilly Morse
                              July 8, 2009

                            INTRODUCTION \1\
---------------------------------------------------------------------------
    \1\ I express appreciation for contributions to this testimony from 
the National Low Income Housing Coalition, the National Fair Housing 
Center, PolicyLink, Texas Appleseed, my colleagues at Mississippi 
Center for Justice and the Lawyers' Committee for Civil Rights Under 
Law, and the 2009 University of Maryland Law School Summer interns.
---------------------------------------------------------------------------
    Good morning. I am Reilly Morse, a senior attorney in the Katrina 
Recovery Office of the Mississippi Center for Justice in Biloxi, 
Mississippi. I thank Chairman Thompson, Ranking Member King, and the 
Members of the committee for holding this hearing to examine current 
problems and solutions on FEMA disaster housing. I also thank the U.S. 
Department of Housing and Urban Development (HUD) and the Federal 
Emergency Management Agency (FEMA) for their efforts to house Gulf 
Coast residents following emergencies and natural disasters.
    The Mississippi Center for Justice (``MCJ'') is a non-partisan, 
non-profit, civil rights legal organization that was founded in 2003. 
It was formed to provide a home-grown means to advance racial and 
economic justice in Mississippi. In 2005, MCJ became the Deep South 
affiliate of the Lawyers' Committee for Civil Rights Under Law 
(``Lawyer's Committee''), a national civil rights legal organization 
formed in 1963 to remedy racial discrimination. Shortly after Hurricane 
Katrina, MCJ opened a Katrina Recovery office in Biloxi, where we 
joined forces with the Lawyers' Committee and attorneys and law 
students from across the Nation to provide free legal representation, 
impact litigation, and policy advocacy for storm victims, particularly 
low-income and minority populations.\2\
---------------------------------------------------------------------------
    \2\ MCJ's early experience in partnership with the Lawyers' 
Committee for Civil Rights Under Law, is described in Jonathan P. 
Hooks, Trisha B. Miller, The Continuing Storm: How Disaster Recovery 
Excludes Those Most in Need, 43 California Western Law Review 21 (Fall 
2006).
---------------------------------------------------------------------------
    I am a third-generation Gulfport, Mississippi lawyer. After Katrina 
destroyed my office, and displaced innumerable relatives and friends, I 
joined MCJ to provide legal assistance for others to move towards 
recovery. My family and our home survived Katrina, but the clients I 
represent here today were not so fortunate. On behalf of those clients 
and future disaster victims, I urge you to do the following:
    1. Ensure that post-disaster housing and the necessary public 
        assistance to local governments that supports housing recovery 
        remain FEMA's top priorities.
    2. Require FEMA to maximize the repair and rehabilitation of 
        existing housing resources, prioritize modular housing over 
        travel trailers, and accelerate and increase aid to special 
        needs and lower-income populations.
    3. Require FEMA to provide unified, comprehensive, and intensive 
        case management, especially for vulnerable populations, to 
        reform eligibility and duplication of benefits rules, and to 
        strengthen fair housing training and enforcement for its staff 
        and contractors.

     I. POST-DISASTER HOUSING IS TOP PRIORITY FOR RECOVERY PROCESS

    Housing is central to disaster recovery, to state the obvious. 
``Housing is the connector to how we live our lives and interact with 
the social networks within our communities,'' notes FEMA's 2009 
National Disaster Housing Strategy.\3\ All stages, from shelter to 
interim to permanent housing, determine the pace of recovery. As 
pointed out by the Director of Governor Barbour's Office of Recovery 
and Renewal, ``[t]he repair and reconstruction of housing is the 
foundation of individual, community, and overall economic recovery . . 
. Without the rapid provision of temporary and permanent housing 
solutions, recovery will be slowed or fail to occur in a manner that 
meets the needs of disaster victims, the recovery objectives of local 
leaders, or the intent of the Governor, which is to achieve a coastal 
`renaissance.' ''\4\
---------------------------------------------------------------------------
    \3\ FEMA National Disaster Housing Strategy, January 16, 2009, p. 
52 (hereafter ``the Strategy.'') http://www.fema.gov/news/
newsrelease.fema?id=47305.
    \4\ Testimony of Gavin Smith, January 14, 2006 Field Hearing of 
House Financial Services Subcommittee on Housing and Community 
Opportunity, ``Housing Options in the Aftermath of Hurricanes Katrina 
and Rita,'' (hereafter January, 2006 Housing Options Hearing), pp. 2-3. 
http://www.house.gov/financialservices/media/pdf/011406gs.pdf.
---------------------------------------------------------------------------
    Affordable housing is a prerequisite to the recovery of the job 
market. This is as true years later as it is in the immediate 
aftermath. ``Housing is our biggest priority. Our community cannot 
survive without housing. The jobs will come and have come back but 
people must have a place to live,'' testified a local minister in 
January, 2006.\5\ In 2007, Mississippi proposed to solve the hiring 
problem of many of its major employers through a long-term workforce 
housing program. As of May, 2009, both the population and the civilian 
labor force in the Mississippi coastal region were 7 percent or more 
below pre-Katrina levels.\6\ Housing stock, excluding temporary 
housing, likewise stands at roughly 7 percent below pre-Katrina levels, 
according to recent estimates by Mississippi officials. Until more 
housing becomes available, the affected region's civilian labor force 
cannot return.
---------------------------------------------------------------------------
    \5\ Testimony of Rosemary Williams, Mount Zion United Methodist 
Church, January, 2006 Housing Options Hearing, transcript, p. 48.
    \6\ See Census Report and Labor Market data attached as Exhibit 
``A''.
---------------------------------------------------------------------------
 II. FEMA'S INTERIM HOUSING STRATEGY SHOULD MAXIMIZE AVAILABLE HOUSING 
                               RESOURCES

    Interim housing, according to FEMA, ``covers the gap between 
sheltering and the return of disaster victims to permanent homes.''\7\ 
Providing interim housing is more difficult when the disaster also 
damages the public and commercial infrastructure of the community. As 
households transition from shelter to interim housing, the recovery of 
their neighborhood will determine their access to food, health 
services, work, and school.
---------------------------------------------------------------------------
    \7\ The Strategy, p. 50.
---------------------------------------------------------------------------
    People tend to recover sooner from disasters the closer they are to 
home, and so MCJ endorses FEMA's plans for immediate repair assistance 
to rental properties to enable as many tenants as possible to return to 
their pre-disaster locations.\8\ Congress should amend the Stafford Act 
to permanently enable FEMA to use public funds for repairs of private, 
for-profit rental property following a Federally declared disaster.\9\ 
In Mississippi, 30,017 out of 42,187 single-family rentals had minor 
damage (below $5,200).\10\ The per-unit cost of restoring a lightly-
damaged single family rental to permanent habitability is one-sixth of 
the cost of a FEMA trailer on a private site, and one-thirteenth of the 
cost of a FEMA trailer at a group site.\11\ Rental repair is quicker, 
it stimulates the local economy, it reduces neighborhood blight and 
depopulation, does not incur expenses for mobilization/demobilization, 
and it avoids zoning barriers that may block conversion of other 
housing alternatives from temporary to permanent use. In the case of a 
major disaster or catastrophe, we also encourage consideration of the 
use of rental repair sweep teams using a civilian-led combination of 
civilian/military personnel to make habitability repairs within 90 days 
of a natural disaster.\12\
---------------------------------------------------------------------------
    \8\ The Strategy, pp. 57-58.
    \9\ We support in concept FEMA's Rental Repair Pilot Program; 
however, we cannot comment on the details because we have not yet seen 
the report that was to have been filed on March 30, 2009.
    \10\ Housing Unit Damage Report, February 12, 2006, FEMA (``FEMA 
February 2006 Report''). http://gnocdc.s3.amazonaws.com/reports/
Katrina_Rita_Wilma_Damage_2_12_06_revised.pdf.
    \11\ General Accounting Office, ``Hurricane Katrina: Ineffective 
Oversight of Housing Maintenance Contracts in Mississippi Resulted in 
Millions of Dollars in Waste and Potential Fraud,'' GAO 08-106, Figure 
3, p. 24 ($30,000 per trailer on private site) Table 4, p. 25. ($69,000 
to $229,000 per unit at group sites). http://www.gao.gov/new.items/
d08106.pdf.
    \12\ See Southeast Louisiana Catastrophic Hurricane Plan, prepared 
by IEM, Inc, for FEMA and State agencies, January 5, 2005, pp. 88-90, 
92, 97, Appendices pp. 68-70.
---------------------------------------------------------------------------
    FEMA's public assistance programs are critical to achieving the 
recovery of essential public services and infrastructure on which the 
housing and commercial recovery depends.\13\ For this reason, MCJ urges 
FEMA to streamline and coordinate the public assistance approval 
process with FEMA's interim housing activities in each community. In 
cases of catastrophic loss, we urge FEMA to eliminate cost shares and 
reimbursement-based assistance to local governments. Just as people and 
families need enhanced financial assistance to restore their stability, 
local and county governments need Federal public assistance without 
having to shoulder additional cost shares in the wake of a catastrophic 
loss.
---------------------------------------------------------------------------
    \13\ The Strategy, Annex 2, pp. 54-57.
---------------------------------------------------------------------------
III. FEMA'S INTERIM HOUSING STRATEGY SHOULD PRIORITIZE MODULAR HOUSING 
                          OVER TRAVEL TRAILERS

    FEMA should look to other options instead of travel trailers when a 
disaster destroys much of the available rental housing and requires 
longer stays in interim housing. FEMA's $400 million Alternative 
Housing Pilot Program sought to develop alternatives to travel trailers 
in situations where a disaster has left a significant shortage of 
available rental housing. In Mississippi, nearly 2,800 cottages were 
constructed and deployed under this pilot program funded by FEMA and 
administered by the Mississippi Emergency Management Agency (``MEMA''). 
The cottages were larger, stronger, and more livable than the FEMA 
trailers they replaced. While a few hundred cottages in extremely low-
lying flood zones were surge-damaged by Hurricane Gustav, the majority 
of cottages weathered the winds well. Also, the cottages were designed 
to be converted to permanent use. MCJ endorses the Mississippi cottage 
as an important interim housing option. MCJ opposes use of travel 
trailers as FEMA's default option.
    Despite the MEMA Cottage's superior modular construction, 
vernacular architecture, and higher quality, some communities have 
banned or severely restricted the permanent placement of the MEMA 
cottage because it must be towed in on axles.\14\ MCJ has pursued 
advocacy and litigation against local municipalities to ensure that the 
MEMA cottages are treated the same as any other modular unit, and to 
remove other restrictions such as pre-storm ownership.\15\ The axle 
fixation demonstrates how local perceptions on relatively small details 
can alter the fate of a proposed housing solution. It also demonstrates 
the importance of clear legal and engineering classifications to 
overcome objections to the conversion to permanent use of any FEMA 
interim housing program.
---------------------------------------------------------------------------
    \14\ Examples of excessive restrictions include veto authority to 
any resident within 160 feet of a proposed cottage site and 
requirements of pre-Katrina title and homestead exemption.
    \15\ Gambrell et al v. City of Waveland 2301-09-0045(1) (Hancock 
County Chancery Court) http://mscenterforjustice.org/press-
article.php?article_id=107.
---------------------------------------------------------------------------
    ``Interim housing'' is a FEMA construct which can obscure the core 
mission of housing: To keep occupants safe and healthy. All housing, 
whether classified by FEMA or other Government entities as 
``temporary,'' ``disaster'' or otherwise should at a minimum meet the 
requirements as set forth in the ICC's International Residential Code 
without restriction. These requirements are the standards by which a 
building official would inspect a structure to deem it safe and healthy 
and thus secure the basic human right of people in FEMA's care. In 
cases of catastrophic loss, durability is especially important because 
the residents will likely stay longer in interim housing and face 
successive exposures to disaster. All modular housing, like the 
Mississippi Cottages, meet these codes.

  IV. FEMA'S INTERIM HOUSING STRATEGY SHOULD PRIORITIZE AID TO LOWER-
                  INCOME AND SPECIAL NEEDS POPULATIONS

    Disasters like Hurricane Katrina reduce significantly the 
affordable rental stock in the affected region and reduce the permanent 
housing options for low-income renters. In coastal Mississippi, 
thousands of units of public housing and subsidized private rental 
housing were destroyed or rendered uninhabitable. Rental rates rose on 
average between 30-40 percent, and in some evictions handled by MCJ, 
they doubled within months of the disaster. Restoring the public and 
subsidized rental housing market after a catastrophic disaster can take 
years and call for greater flexibility on financial caps than exists in 
current law. As FEMA notes, ``[c]urrent legislation imposes financial 
restrictions on Federal programs; therefore, populations with 
additional needs and/or low income receive the same amount of financial 
assistance as the general population, even though their needs may 
exceed the limits of the program.''\16\ (emphasis added). In 
catastrophic losses, FEMA should eliminate the financial cap for very 
low income households or implement a sliding scale cap that recognizes 
that lower-income disaster victims need greater financial assistance 
over time than those with greater personal resources, such as higher 
income, credit, and insurance.
---------------------------------------------------------------------------
    \16\ The Strategy, Annex 3, p. 77.
---------------------------------------------------------------------------
    This shortage stems from a persistent trend to under-fund Federal 
housing programs. FEMA's 2009 Strategy catalogues various housing 
programs for special needs and low-income populations, including those 
with disabilities, as well as those for the general population \17\ but 
gloomily notes that ``many if not most . . . have extensive waiting 
lists (frequently in excess of one year) and thus have few vacancies, 
so all alternatives for housing will need to be considered.''\18\ Our 
Nation faces a vast structural shortage of affordable housing that 
requires a fundamental shift in Federal housing policy. As noted by the 
National Low Income Housing Coalition, there is an acute shortage of 
rental homes for the lowest income people in the United States--9 
million extremely low-income renter households (earning 30% of area 
median income or less) but only 6.2 million homes that rent at prices 
they can afford. For Mississippi there are 55 homes for every 100 such 
households.\19\ Given these troubling truths, MCJ questions the 
capability of current housing voucher programs to adequately meet the 
interim housing needs of our most vulnerable populations following a 
disaster.
---------------------------------------------------------------------------
    \17\ Id. p. 80-89 (special needs, low income) pp. 90-98 (general 
population).
    \18\ Id., p. 80.
    \19\ Testimony of Sheila Crowley, ``A New Way Home: Findings from 
the Disaster Recovery Subcommittee Special Report and Working with the 
New Administration on a Way Forward,'' Senate Homeland Security Ad Hoc 
Subcommittee on Disaster Recovery, March 18, 2009, p. 3.
---------------------------------------------------------------------------
    It therefore was surprising to learn in May, 2009, that FEMA's 
Rental Resource Division informed Mississippi Governor Barbour that 
there are over 3,000 rental vacancies on the Mississippi Gulf Coast, 
nearly 2,000 of which will accept a Section 8 voucher.\20\ To test this 
assertion, the Mississippi Center for Justice and Lawyers' Committee 
contacted all landlords accepting Section 8 vouchers on current lists 
from the area's two largest public housing authorities. The provisional 
results showed a maximum possible 773 vacancies, over 60 percent less 
than FEMA claimed, out of 2,631 units.\21\ The provisional results 
overstate the actual vacancy rate, since the survey counted all units 
as Section 8 eligible for several large property managers who were 
unable to separate Section 8 from other units. MCJ will provide final 
supplemental data following the hearing. In addition MCJ verified 
through public records requests that there remain thousands of persons 
currently on PHA Section 8 waiting lists. This field research mirrors 
the shortfalls, backlogs, and inability to serve clients in HUD's 
public and assisted housing programs described in the Special Report of 
the Senate Homeland Security Ad Hoc Subcommittee on Disaster 
Recovery.\22\
---------------------------------------------------------------------------
    \20\ Governor Haley Barbour, ``The Role of the Community 
Development Block Grant Program in Disaster Recovery,'' Senate Homeland 
Security Ad Hoc Subcommittee on Disaster Recovery, May 20, 2009, p. 6.
    \21\ Summary of Results of Coastal Mississippi Section 8 Vacancy 
Rate Survey, Exhibit ``B''.
    \22\ ``Far From Home: Deficiencies in Federal Disaster Assistance 
After Hurricanes Katrina and Rita and Recommendations for 
Improvement,'' Special Report of Ad Hoc Subcommittee on Disaster 
Recovery of Committee on Homeland Security, February 2009, pp. 173-181.
---------------------------------------------------------------------------
    While broader use of HUD programs is a sound step, it will not be 
enough to create a permanent DHAP-like stream of vouchers to address 
interim housing needs. Any such program must include steps to provide 
an adequate supply of housing, a national inventory of available 
housing, an effective case-management regime, and a funding stream to 
finance the cost of providing these capacities.\23\ As FEMA's David 
Garratt acknowledged, ``[H]anding someone a voucher . . . if there are 
no other forms of housing available at or near the fair market rent . . 
. is not worth a lot.''\24\
---------------------------------------------------------------------------
    \23\ Id., at 183-84.
    \24\ Testimony of David Garratt, Senate ``Beyond Trailers'' 
Hearing, April 24, 2007, p. 17.
---------------------------------------------------------------------------
    Disability access in interim housing is both practically necessary 
and required by Federal laws. Over one-third of households in the 
Mississippi Cottage Program have a person with disabilities, according 
to a recent survey.\25\ Yet only one-quarter of Mississippi cottages 
were ADA compliant, according to MEMA.\26\ The problem was 
substantially worse for those in FEMA trailers, only a miniscule 
percentage of which complied with the Uniform Federal Accessibility 
Standards. FEMA's non-compliance with Federal accessibility laws 
prompted a class action on behalf of persons with disabilities and a 
settlement.\27\ To better meet the needs of the class FEMA agreed to 
order 10 percent of temporary housing units that complied with the 
UFAS, to modify common areas to render the group sites accessible to 
persons with disabilities, and to notification and reporting 
requirements for persons with disabilities who seek disability-
accessible interim housing.\28\
---------------------------------------------------------------------------
    \25\ ABT Associates, Mississippi Alternative Housing Pilot Program, 
Quality of Life Evaluation, April 15, 2009. Slide 4.
    \26\ Table of ADA units provided by MEMA to Mississippi Center for 
Justice, Exhibit ``C''.
    \27\ Brou v. FEMA, (No. 06-0838) (E. D. La. 2006) (Duval, J.).
    \28\ Settlement Agreement on file with MCJ Biloxi office (available 
on request), pp. 7-15.
---------------------------------------------------------------------------
    Today, FEMA has the opportunity to do better. In October, 2008, the 
U.S. Access Board Federal Advisory Committee released a report with 
detailed recommendations that should be reviewed and incorporated into 
emergency and interim housing solutions for persons with disabilities 
by architects, engineers, manufacturers, and contractors. These 
recommendations deal with the vital nuts and bolts of accessibility, 
deserve careful scrutiny, but require more space than permitted by this 
committee to adequately discuss.\29\ Accordingly, MCJ recommends that 
the committee ensure that these requirements are factored into its 
future plans and that FEMA make contact with disability advocates with 
recent disaster housing experience to ensure that its future response 
is an improvement over Hurricanes Katrina and Rita.
---------------------------------------------------------------------------
    \29\ ``Recommendations for Accessible Emergency Transportable 
Housing,'' U.S. Access Board Federal Advisory Committee, October, 2008, 
http://www.access-board.gov/eth/report.htm.
---------------------------------------------------------------------------
 V. BETTER CASE MANAGEMENT OF INTERIM HOUSING IS REQUIRED, ESPECIALLY 
                       FOR VULNERABLE POPULATIONS

    MCJ agrees with FEMA's 2009 Strategy that case management is 
important to successfully place and transition special needs and low-
income populations into and out of interim housing.\30\ Several 
advocacy organizations have submitted a set of recommendations to the 
Office of Management and Budget on case management. The letter urges 
the adoption of a comprehensive and client-centered service delivery 
system that transcends program barriers and agency turf. The letter 
recommends unified and intensive case management coupled with unsiloed 
and accessible resources, and provides additional detail and guidance 
on both elements.\31\
---------------------------------------------------------------------------
    \30\ The Strategy, p. 5; Annexes, pp. 58, 80.
    \31\ Letter to Xavier Briggs from National Low Income Housing 
Coalition, PolicyLink and MCJ, July 6, 2009, Exhibit ``D''.
---------------------------------------------------------------------------
    FEMA's track record since Hurricane Katrina indicates that there 
remains major areas for improvement. Following Hurricane Dolly in July 
2008, half of all applications for housing assistance were denied. In 
May 2009, a Federal judge in Brownsville, Texas issued a preliminary 
injunction finding that FEMA's failure to publish clear and 
ascertainable standards, criteria, and procedures for determining 
eligibility for home repair housing assistance violated the Stafford 
Act and ordered the agency to rewrite its rules.\32\ According to Texas 
Appleseed, FEMA denied 85% of applications for housing assistance 
following Hurricane Ike. The most common reason for denial was 
``insufficient damage,'' but applicants were denied for reasons as 
minor as an omitted middle initial.
---------------------------------------------------------------------------
    \32\ Lupe v. FEMA, Civil Action No. B-08-487, S.D. Texas, May 13, 
2009.
---------------------------------------------------------------------------
 VI. REFORM OF FEMA'S ELIGIBILITY AND DUPLICATION OF BENEFITS RULES IS 
          REQUIRED FOR INTERIM HOUSING TO FUNCTION AS INTENDED

    Closely related to case management are reforms to the overall 
administration of FEMA's temporary housing programs. Annex 7 of FEMA's 
2009 Strategy correctly emphasizes that ``differences in interpretation 
of programs under the Stafford Act have led to inconsistencies in 
assistance provided.''\33\ (emphasis in original) However, FEMA must 
take additional steps to clarify its eligibility and appeal 
requirements to ensure success of any FEMA interim housing effort. In 
testimony before the Senate Ad Hoc Subcommittee on Disaster Recovery, 
MCJ and the Lawyers' Committee provided a detailed critique, 
recommendations, and endorsement of solutions proposed in the Senate 
``Far From Home'' report. Please incorporate this discussion and these 
recommendations into your overall strategy.\34\
---------------------------------------------------------------------------
    \33\ The Strategy, Annex 7, p. 126.
    \34\ Testimony of Reilly Morse, ``A New Way Home: Findings form the 
Disaster Subcommittee Special Report and Working with the New 
Administration on a Way Forward,'' March 18, 2009, pp. 4-5.
---------------------------------------------------------------------------
    FEMA's ability to transition residents from interim to permanent 
housing will require reexamination of Federal duplication of benefits 
rules, especially in the setting of catastrophic disasters. MCJ urges 
FEMA to use a more nuanced approach in determining whether an 
individual FEMA benefit actually ``duplicates'' another Federal 
benefit. As FEMA's Strategy notes, the different housing programs, 
shelter, interim, and permanent housing serve fundamentally different 
purposes.\35\ Likewise, other benefits funded via Federal disaster 
community development block programs can frequently serve different 
purposes than an individual FEMA payment under review.\36\ FEMA, 
working with HUD, should put away broad brush approaches to duplication 
of benefits, and instead precisely classify its assistance to enable 
true matching of duplicate benefits without eliminating the full 
spectrum of assistance available and necessary for disaster victims to 
return to permanent housing. As previously noted, this is especially 
important for lower-income renter populations who will need greater 
than normal housing assistance. If necessary, FEMA and HUD should 
jointly seek revisions to the applicable laws to achieve this goal.
---------------------------------------------------------------------------
    \35\ The Strategy, Annex 7, pp. 131-141.
    \36\ For example, a landlord who accepts a tenant's DHAP voucher, 
and who receives a forgivable loan under a State's CDBG-funded small 
rental assistance program is not receiving a duplication of benefits 
because the two payments provide different, necessary layers of rental 
housing subsidy, with different eligibility criteria, and different 
rent-restriction obligations.
---------------------------------------------------------------------------
 VII. FEMA MUST BETTER INTEGRATE FAIR HOUSING TRAINING AND ENFORCEMENT 
                            INTO ITS MISSION

    The Stafford Act requires FEMA to promulgate regulations to ensure 
that all of its functions are carried out in a manner that does not 
discriminate on the basis of race, color, religion, nationality, sex, 
age, disability, English proficiency, or economic status. (42 USC 5151, 
Sec. 308 (a)). FEMA regulations provide that no one involved in 
carrying out FEMA functions (either FEMA employees or contractors) can 
discriminate on any of those bases. (44 CFR 206.11, citing to 44 CFR 
part 7, Nondiscrimination in Federally Assisted Programs). FEMA needs 
to increase its efforts to train staff and contractors on non-
discrimination and place on its Web site the regulations, policies, 
procedures, and manuals that actually spell out the steps that FEMA 
employees or contractors should take to be in compliance.
    After a disaster, FEMA itself needs to provide information to 
individuals about fair housing rights, how to recognize discrimination, 
or what to do if they encountered it. Following Hurricane Katrina, FEMA 
failed to take this very basic step and so it fell to local fair 
housing organizations to do so. The information should be provided in 
English and appropriate alternate languages.
    FEMA's use of resource networks should carry with it a 
responsibility to police and enforce non-discrimination by users. In 
the immediate aftermath of Katrina, a FEMA-endorsed Web site, 
Dhronline.com, intended as a resource to help evacuees find housing, 
posted advertisements for housing vacancies by third parties that were 
blatantly racially discriminatory.\37\
---------------------------------------------------------------------------
    \37\ Testimony of James Perry, Greater New Orleans Fair Housing 
Action Center, House Financial Services Subcommittee, February 28, 
2006, http://financialservices.house.gov/media/pdf/022806jp.pdf.
---------------------------------------------------------------------------
    FEMA's delegation of interim housing to contractors carries the 
risk of discriminatory treatment of displaced storm victims. It is 
essential that FEMA provide the initial investigation and training to 
weed out contractors with histories of discrimination. FEMA and HUD 
also should develop a joint operating agreement to more expeditiously 
address housing discrimination complaints in FEMA interim housing. This 
is necessary to prevent incidents such as the one detailed in a 
recently-filed HUD complaint on a 3-year-old allegation of racial 
discrimination against African-American persons against owners of a 
FEMA trailer park in Mississippi.\38\ It simply is unacceptable that 
FEMA and HUD had no capacity to take address and more quickly resolve 
complaints of racial discrimination in FEMA disaster housing programs. 
If FEMA does not want to develop the staff and expertise in-house, it 
could contract with private fair housing groups to investigate 
complaints, or it could negotiate an agreement with HUD to investigate 
complaints on an expedited basis. In any event, a more accelerated 
solution for solving this sort of problem for disaster victims is 
required.
---------------------------------------------------------------------------
    \38\ HUD v. Hebert, et al, FHEO 04-06-0723-8, April 30, 2009, 
http://www.hud.gov/offices/fheo/enforcement/
09_HUD_v._Christopher_S_Hebert_etc.pdf.
---------------------------------------------------------------------------
    It is not clear whether FEMA's 2009 Strategy mentions or 
acknowledges the Fair Housing issues associated with interim housing. 
The result is that people who have been displaced by storms like 
Katrina, or other disasters, may find themselves barred from 
desperately needed housing because of their race, color, religion, 
national origin, familial status, disability, etc. FEMA, working with 
HUD, and private fair housing groups, clearly can improve this aspect 
of its operations.
    Thank you for the opportunity to testify.
                               EXHIBIT A

                                       POPULATION MISSISSIPPI COAST CITIES
----------------------------------------------------------------------------------------------------------------
                                                              2005       2007       2008      08-'05    Percent
----------------------------------------------------------------------------------------------------------------
Bay St. Louis............................................     11,211      8,123      8,052     -3,159
Biloxi...................................................     46,287     45,760     45,670       -617
D'Iberville..............................................      8,258      7,758      7,928       -330
Gautier..................................................     16,641     16,091     16,306       -335
Gulfport.................................................     73,260     68,981     70,055     -3,205
Long Beach...............................................     17,469     11,481     12,234     -5,235
Moss Point...............................................     14,944     14,210     13,951       -993
Ocean Springs............................................     17,555     17,258     17,149       -406
Pass Christian...........................................      6,938      3,794      3,993     -2,945
Pascagoula...............................................     24,862     23,466     23,609     -1,253
Waveland.................................................      8,346      4,795      5,249     -3,097
                                                          ------------------------------------------------------
Coast Total..............................................    245,771    221,717    224,196    -21,575      -8.78
                                                          ------------------------------------------------------
Lucedale.................................................      2,860      3,018      3,077        217
Picayune.................................................     10,650     11,530     11,787      1,137
Poplarville..............................................      2,578      3,030      3,003        425
Wiggins..................................................      4,395      4,745      4,901        506
                                                          ------------------------------------------------------
                                                              20,483     22,323     22,768      2,285
                                                          ------------------------------------------------------
6 Counties...............................................    266,254    244,040    246,964    -19,290      -7.24
----------------------------------------------------------------------------------------------------------------
Source: ``Census Numbers,'' Biloxi Sun Herald, July 1, 2009. http://www.sunherald.com/658/story/1448035.html.


                         COAST LABOR MARKET DATA
------------------------------------------------------------------------
                                 Biloxi Gpt    Pascagoula
                                    Metro         Metro         Total
------------------------------------------------------------------------
Aug. 1, 2005:.................
    Employed                      115,260        66,070       181,330
    Unemployed                      7,140         4,700        11,840
    Civilian labor force          122,400        70,770       193,170
May 1, 2009:..................
    Employed                      101,810        62,430       164,240
    Unemployed                      8,560         5,750        14,310
    Civilian labor force          110,370        68,180       178,550
Difference:...................
    Employed (Percent)                 11.67          5.51          9.42
    Unemployed (Percent)              -19.89        -22.34        -20.86
    Civilian labor force                9.83          3.66          7.57
     (Percent)
------------------------------------------------------------------------
Source: Mississippi Department of Employment Security Labor Market Data.

                               EXHIBIT B

SUMMARY OF PRELIMINARY RESULTS OF COASTAL MISSISSIPPI SECTION 8 VACANCY 
                              RATE SURVEY

Research and analysis by the Lawyers' Committee for Civil Rights Under 
        Law and the Mississippi Center for Justice \1\
---------------------------------------------------------------------------
    \1\ The Lawyers' Committee and the Mississippi Center for Justice 
would like thank students from the University of Maryland School of Law 
for their assistance in conducting this research.
---------------------------------------------------------------------------
    From Wednesday, June 24, 2009, through Thursday, July 2, 2009, the 
Lawyers' Committee for Civil Rights Under Law (Lawyers' Committee) and 
the Mississippi Center for Justice (MCJ) surveyed landlords in coastal 
Mississippi to gauge the vacancy rate for units that are available to 
tenants with Section 8 vouchers. The research team interviewed 
landlords whose names appeared on lists produced by the Biloxi Housing 
Authority (BHA) and the Mississippi Regional Housing Authority for 
Region VIII (MRHA Region VIII) of landlords in Biloxi and the region, 
respectively, who accept Section 8 vouchers. Interviewers asked 
landlords how many Section 8-eligible units they currently had vacant, 
how many total Section 8-eligible units they had, how many total units 
they currently had vacant, and how many total units they had.
    The research team called a total of 242 out of a list of 267 
Mississippi Gulf Coast landlords and conducted 164 interviews, talking 
with 61.4% of the landlords on the lists provided by the housing 
authorities. In those interviews, landlords indicated that they 
currently had 773 vacant Section 8-eligible units that they were 
willing to rent to tenants with vouchers. The landlords indicated that 
they had a total inventory of 2,631 Section 8-eligible units that they 
were willing to rent to tenants with vouchers. 29.4% of those units are 
vacant.
    MRHA Region VIII's list included 247 unique landlords. The research 
team was able to call 222 of these landlords and conduct interviews 
with 152 of them, 61.5% of the unique landlords on the list. In those 
interviews, landlords on the MRHA Region VIII list indicated that they 
currently had 724 vacant Section 8-eligible units that they were 
willing to rent to tenants with vouchers. The landlords indicated that 
they had a total inventory of 2,373 Section 8-eligible units that they 
were willing to rent to tenants with vouchers. 30.5% of those units are 
vacant.
    BHA's list included 20 unique landlords. The research team was able 
to call of the landlords and interview 12 of them, 60% of the total. In 
those interviews, landlords on the BHA list indicated that they 
currently had 49 vacant Section 8-eligible units that they were willing 
to rent to tenants with vouchers. The landlords indicated that they had 
a total inventory of 258 Section 8-eligible units that they were 
willing to rent to tenants with vouchers. 19.0% of those units are 
vacant.
    MRHA Region VIII and the BHA are the two largest administrators of 
the Section 8 program in the region and the low total numbers of vacant 
Section 8-eligible units held by the landlords on their lists is 
alarming given the anticipated introduction of 5,000 new vouchers to 
the Mississippi Gulf Coast. The research team believes that the results 
of this survey represent an over-count of the number of vacant Section 
8-eligible units as a result of multiple factors, including the 
inability of landlords to provide a breakdown between Section 8 and 
other units in several large complexes. The survey also revealed deep 
problems with the housing authorities' lists of landlords, including 
the listing of landlords who refuse to rent to tenants with vouchers, 
the listing of disconnected phone numbers, and widespread typos.
    The final results of this survey, including the underlying 
spreadsheet will be provided in supplemental submissions to this 
committee.
                               EXHIBIT C

             OCCUPIED MEMA COTTAGES AS OF DECEMBER 15, 2008
       Data provided by MEMA to the Mississippi Center for Justice
------------------------------------------------------------------------
                                          Total                   ADA
             Jurisdiction                 Units    ADA Units  Percentage
------------------------------------------------------------------------
Waveland..............................        163         32        19.6
Hancock Co............................        570        131        23.0
D'Iberville...........................         41         12        29.3
Ocean Springs.........................         14          6        42.9
Gulfport..............................        163         39        23.9
Pass Christian........................        103         23        22.3
Pascagoula............................         72         10        13.9
Pearl River Co........................         35         13        37.1
Picayune..............................         10          5        50.0
Biloxi................................        175         45        25.7
Harrison Co...........................        359        100        27.9
Long Beach............................         27          3        11.1
Jackson Co............................        386        106        27.5
George Co.............................          1          1       100.0
Bay St Louis..........................         64         17        26.6
Moss Point............................         92         16        17.4
Gautier...............................         50         23        46.0
                                       ---------------------------------
      Total...........................      2,325        582        25.0
------------------------------------------------------------------------

                               EXHIBIT D
                                                      July 6, 2009.
Xavier D. Briggs,
Office of Management and Budget, The White House, Washington, DC 20500.
    Dear Mr. Briggs: This letter follows up on our recent discussions 
with you and members of your staff concerning finding permanent housing 
solutions for people displaced by the 2005 hurricanes who are still 
receiving temporary housing assistance.
    The quest to successfully and permanently rehouse the citizens 
whose homes were damaged or destroyed by Hurricanes Katrina and Rita 
has been hampered by a highly fragmented service delivery system that 
has had to accommodate the requirements of the myriad agencies that 
control the resources than it has been to the needs of the people it 
was intended to help. As Federal and State governments attempt to end 
the FEMA temporary housing programs almost 4 years after Katrina 
struck, we urge the establishment of a unified, comprehensive, and 
client-centered service delivery system that transcends program 
barriers and agency turf in the interest of achieving the best possible 
results.
    Services must be available for people still receiving FEMA 
temporary housing assistance (including DHAP) and for those whose 
assistance was prematurely ended in the time period of January 1, 2009 
to today, as well as for those trying to return from out-of-State.
    Such a delivery system would include the following two elements:
    1. Unified and intensive case management.
  <bullet> If any one person or family has more than one case manager, 
        by definition, the case is not being managed. The point of case 
        management is for the person or family in need of assistance to 
        have one person on whom to rely as together they navigate the 
        complex array of programs that they may or may not be eligible 
        for and the rules that may or not apply to them. Once a client 
        has to relate to more than one case manager, the potential for 
        case MISmanagement grows exponentially. At best, multiple case 
        managers become nothing more than clerks who facilitate single 
        transactions. At worst, harm can result when no one is 
        coordinating the various transactions. Think about the role of 
        the primary care provider in health care. And just as is the 
        practice with primary health care providers, a client should 
        have the option to petition to change case managers if he or 
        she does not think that the case manager is doing an adequate 
        job.
  <bullet> Case management should never be provided long distance by 
        phone or email. All case management relationships must be in 
        person with phone and email used only as a secondary means of 
        providing information.
  <bullet> The intensity of case management must match the intensity of 
        the needs of the clients, which first requires that case 
        managers be skilled enough to conduct the kind of assessment 
        that is required to uncover the extent and depth of needs. Many 
        of the remaining clients receiving temporary housing assistance 
        are people with multiple problems and may be considered ``hard-
        to-reach,'' that is, conventional, ``light-touch'' methods of 
        communication will not work. These case managers must ``go 
        where the client is,'' both literally and figuratively. 
        Outreach means visiting clients when and where works best for 
        them, instead of telling them to show up at an office at an 
        appointed time between 9am and 5 pm, Monday to Friday, or only 
        calling them for referrals by phone. Case managers must have 
        both the autonomy and authority to go where needed and conduct 
        the activities needed to provide proper assistance for each and 
        all clients.
  <bullet> These case managers must be skilled in establishing rapport 
        with people with physical, emotional, and developmental 
        limitations and with people who are suspect of representatives 
        of Government agencies. Social workers who have experience in 
        working in non-traditional or client-centered agencies should 
        be recruited for this work.\1\ Many of the smaller grassroots 
        agencies employ people with the training and professional ethic 
        that this kind of case management requires.
---------------------------------------------------------------------------
    \1\ Rapp, C.A. & Poertner, J. (1992). Social administration: A 
client-centered approach. New York: Longman.
---------------------------------------------------------------------------
  <bullet> Case managers should have a reasonable number of clients 
        that makes it possible to provide the quality and intensity of 
        service required. The 1:50 case worker-client ratio used by 
        FEMA is too high for the intensity of services that are 
        required. Case managers should also be able to rely on high 
        quality clinical supervision.
  <bullet> Case managers must be knowledgeable about and be able to 
        access the full range of resources available to assist their 
        clients settle in the best possible permanent housing option 
        for each person or family. For example, a case manager visits a 
        family living in a FEMA travel trailer sited on property that 
        the family owns. The clear objective is to get the family out 
        of the travel trailer. But where they go depends on their 
        unique situation. Are they rebuilding their home, but not able 
        to finish? If so, why? What will it take to get the home 
        finished? How do they access the needed resources? What is the 
        best option in the meantime? Should they be issued a voucher 
        and move to an apartment? Is there an apartment nearby? Or 
        should they buy a FEMA mobile home for a $1 and place it on 
        their property to live in until their house is completed? Are 
        there legal or other barriers to siting the mobile home? What 
        will it take to overcome the barriers? Regardless of the agency 
        that controls the resource (FEMA, HUD, different State 
        agencies), the case manager should be able to tap into all that 
        he or she determines the client is eligible for and that which 
        best matches each client's given situation.
  <bullet> If the case managers are properly trained, have the right 
        size caseload, necessary supervision, and the authority to 
        access and deploy available resources, then they, and the 
        agencies for which they work, can and should be held 
        accountable for successful outcomes; i.e. clients who are 
        permanently housed in a manner that best suits their needs. The 
        number of contacts, number of referrals, or any other process 
        measures should NOT be used to measure case managers' 
        performance or the performance of the agency providing the case 
        management services. Under no circumstances should a case be 
        closed before an appropriate permanent housing outcome to which 
        the client agrees has been achieved.
    2. Un-siloed and accessible resources.
  <bullet> The list of publicly funded resources that can be brought to 
        bear immediately to access successful permanent housing for 
        people still receiving FEMA temporary housing assistance 
        include:
    <bullet> Section 8 vouchers for people transitioning from DHAP.
    <bullet> New Section 8 vouchers provided in June 2009 supplemental 
            bill.
    <bullet> FEMA mobile homes and park models that can be sold to 
            clients.
    <bullet> Katrina cottages in MS and LA.
    <bullet> Unspent CDBG disaster funds allocated to MS and LA.
    <bullet> Unspent non-disaster CDBG and HOME funds allocate to MS, 
            LA, and participating jurisdictions. HOME can be used for 
            tenant-based assistance for people whose income exceeds 50% 
            AM1 and therefore are ineligible for disaster-related 
            Section 8 vouchers.
    <bullet> Rapid Rehousing and Homelessness Program and other ARRA 
            funds allocated to MS, LA, and participating jurisdictions.
    <bullet> State-funded programs.
  <bullet> The agencies that control these funds should voluntarily 
        agree to come together, or be compelled to so, to devise a 
        system by which they can deploy the resources in a unified 
        fashion, so that case managers can access them with a minimum 
        of red tape. A unified and accessible resource pool will not 
        only yield better results for clients, but will be more cost-
        effective by reducing the time that it takes case managers and 
        clients to negotiate with multiple agencies.
  <bullet> In the case of vouchers, HUD should assign voucher 
        distribution to the agency in each State that is carrying out 
        the case management, similar to the design of the VASH vouchers 
        for homeless vets, and not simply allocate them to PHAs in the 
        jurisdiction.
  <bullet> It also follows that the various streams of funding for case 
        management should be unified.
    Thank you for your consideration of our comments. We look forward 
to working with you to design and implement a program to assure 
successful permanent housing for the people who remain displaced by 
Katrina and Rita even today.
            Sincerely,
                                            Sheila Crowley,
                             National Low Income Housing Coalition.
                                              Reilly Morse,
                                    Mississippi Center for Justice.
                                               Kalima Rose,
                                                       Policy Link.

    Chairman Thompson. Thank you very much.
    We now recognize Mr. Kubley for 5 minutes.

        STATEMENT OF DON KUBLEY, PRESIDENT, INTERSHELTER

    Mr. Kubley. Mr. Chairman, distinguished Members of the 
Homeland Security Committee, my name is Captain Don Kubley, and 
I am president of Intershelter, Incorporated, headquartered in 
Juneau, Alaska. I would like to thank you for the privilege of 
addressing you here today.
    May I please ask that my full testimony be included in the 
record?
    Intershelter produces and markets a revolutionary new 
portable prefabricated building called the Intershelter Dome. I 
applaud you, Mr. Chairman, and the committee for the vision and 
leadership to take a hard look at the status quo and potential 
new and innovative options in first responder and emergency 
shelter and housing for victims.
    There are few issues as important as to those most in need 
after a devastating event that has left them injured or 
homeless. In fact, in a detailed report dated December 16, 
2006, by the Department of Homeland Security, looking at how 
they and other first responders could have improved their 
response to the horrific aftermath of Katrina, they identified 
five top priorities that they felt would improve future 
disaster relief efforts.
    No. 3 in those top five were pop-up shelters, improved and 
increased numbers of them. Frankly, that is exactly what our 
domes are: Pop-up shelters.
    In that report, they also concluded that Hurricane Katrina 
transformed thousands of people's lives into a battle for 
survival. For some, finding adequate shelter proved at least as 
difficult as finding something to eat or drink.
    After the recent earthquake in Italy north of Rome, I had 
the opportunity to talk to one of the leaders at the embassy 
here in the District of Columbia about their response to those 
devastated communities and their victims. While discussing his 
Nation's response to the quake, he said something to me that 
was very profound.
    He said: You know, Mr. Kubley, I am embarrassed to tell you 
that the emergency shelters we are responding to this disaster 
with is the very same thing the Romans used after Mount 
Vesuvius destroyed Pompeii--tents.
    We all understand the attributes of tents in a situation 
like this. They are portable, easy to assemble, can be 
warehoused until needed. But just as obvious to all who have 
ever been forced to live in a tent are their many shortcomings: 
They are too hot in the tropics; they are too cold in the 
northern climes; they are damp and unhealthy in wet, inclement 
weather; they are extremely susceptible to fire; they are 
drafty on windy and dusty days and become projectiles in 
anything greater than a gale force wind; they have very short 
life expectancy and once damp are prone to mold and mildew if 
stored for reuse.
    I think you would be hard-pressed to find anyone who has 
had to go from a normal housing situation to a tent that would 
tell you they are either comfortable or impressed and cannot 
wait to get out of them. Perhaps that is one of the strongest 
assets of tents: They have a very easy exit strategy.
    In regards to improving on tents, I would like to share 
with you a letter dated May 16 from the head of the Alaska 
National Guard. ``Mr. Kubley, I would like to offer support and 
encouragement to all federal agencies that might be interested 
in procuring your temporary dome shelters for emergency use. 
These domes provide safe, reliable shelter in all types of 
extreme weather conditions. They are easy to assemble and 
easily transportable. These shelters are optimal for use as 
temporary shelters in times of disaster emergencies, and these 
domes would be exceptional for use in Alaska. They far exceed 
the existing canvas tents.''
    Mr. Chair, I would say that, if these work this well in 
Alaska, the most extreme and remote State in our union, that 
they would work very well Nation-wide.
    A well-known expert on emergency preparedness, Mr. Ellis 
Stanley, former director of L.A. county emergency preparedness, 
is convinced that in an emergency room surge scenario, 
Intershelter domes are the answer for properly responding to 
the multitudes of injured and contaminated victims.
    In a letter to me, Mr. Stanley wrote, ``After reading 
today's MSNBC article, `FEMA Trailers Toxic Tin Cans?', I want 
to renew our discussion regarding the domes that have been 
working so well here in Los Angeles with the homeless 
community. As we discussed earlier, I believe this system has 
some great utilization as we continue to do our pandemic 
planning as related to surge capacity around hospitals, at 
airports, et cetera.''
    ``As a 32-year career emergency manager, we see very few 
opportunities to really make giant leaps in the way we do 
things in disaster preparedness, and I believe Intershelter is 
one of those opportunities when we can really do things 
differently.''
    In the same space it takes to ship one FEMA trailer, Mr. 
Chairman, we can ship enough domes to house 25 families. 
Instead of costing $70,000-plus a unit for a building that 
cannot be disposed of, our buildings could be totally 
sustainable and self-contained for under $20,000 a unit. 
Instead of having to figure out what to do with the now-
unusable trailer, we power-wash our units, disassemble them in 
a matter of minutes, and stow them for the next 10 hurricane 
seasons, or for any other disaster or emergency that might 
happen between hurricane seasons.
    We stand ready to provide the next generation of emergency 
shelter in the numbers needed at a vast savings given to the 
United States.
    Mr. Chairman and Members of the committee, again, I would 
very much like to thank you for the honor of being able to 
address you here today. Godspeed to you, and God bless America.
    [The statement of Mr. Kubley follows:]

                    Prepared Statement of Don Kubley
                              July 8, 2009

    Mr. Chairman and Members of the committee, my name is Captain Don 
Kubley. I am President/CEO of InterShelter Incorporated, headquartered 
in Juneau, Alaska. I would like to thank the committee for the 
privilege of addressing you here today concerning your effort to 
examine our current national disaster response problems and 
capabilities.
    I applaud you, Mr. Chairman, and the committee for your vision and 
leadership in reviewing the shortcomings of our present response 
systems. There are few issues as important as sheltering the victims 
and first responders as they meet the emergency needs of our 
communities, treat the injured, and shelter the homeless. As a matter 
of reference, the Department of Homeland Security (DHS) issued a 
detailed report on December 16, 2006, reviewing how they and other 
first responders could have improved the response to the aftermath of 
Hurricane Katrina. DHS concluded in their report that ``Hurricane 
Katrina transformed thousands of people's lives into a battle for 
survival--and, for some, finding adequate shelter proved at least as 
difficult as finding something to eat or drink.'' To meet this need, 
InterShelter has designed and produced a revolutionary portable, 
prefabricated structure called The InterShelter Dome<SUP>TM</SUP> which 
is pictured above.*
---------------------------------------------------------------------------
    * The image referred to has appeared previously in this document.
---------------------------------------------------------------------------
    Adequate emergency shelter is a global problem. After the recent 
earthquake north of Rome, I had the opportunity to talk with The First 
Counselor at the Italian Embassy, Mr. Marco Mancini, about their 
response to those communities devastated by the quake. While discussing 
his Nation's response he made a very profound observation. He said 
``you know Mr. Kubley, I'm embarrassed to tell you that the emergency 
temporary shelters we are responding to this disaster with are the very 
same thing the Romans used after Mt. Vesuvius destroyed Pompeii . . . 
tents''!! We all understand the attributes of tents in a situation like 
this. They are portable, easy to assemble quickly, and can be 
warehoused until needed. Just as obvious, to all who have ever been 
forced to live in a tent for weeks or months, are their many 
shortcomings. They are too hot in the tropics, too cold in the Northern 
climes, damp and unhealthy in wet inclement weather, are extremely 
susceptible to fire, drafty in blustery weather, dusty in desert areas, 
and become projectiles in anything above ``Gale Force'' winds. One of 
the tent's strongest assets is that they have by far the easiest ``exit 
strategy''. However, they have very short life expectancy and once they 
have gotten wet they are prone to mold and mildew when stored for 
reuse. Anyone who has gone from a normal accommodation to a tent will 
tell you that they were neither comfortable nor safe and couldn't wait 
to get to an adequate form of shelter.
    In this regard, I would like to share some comments from General 
Craig Campbell, Commander of the Alaska National Guard in a letter 
dated May 16, 2009. He stated concerning our domes:

``These domes provide safe, reliable shelter in all types of extreme 
weather conditions. They are easy to assemble and easily transportable.

I would recommend you contact the Federal Emergency Management Agency 
(FEMA) and encourage their purchase of these domes for emergency 
deployment use. Should FEMA purchase your shelters, I would encourage 
them to be deployed to FEMA Region 10, so that they would be accessible 
to Alaska and other states in the Pacific Northwest.

These shelters are optimal for use as temporary shelters in times of 
disaster emergencies and these domes would be exceptional for use in 
Alaska. They far exceed the existing canvas tents.''

    Mr. Chairman, I would suggest that if our domes are a vast 
improvement over tents their attributes can apply Nation-wide. With our 
cutting edge insulation kits and alternative energy systems installed 
they are the most efficient, off-the-grid, portable structures on earth 
and are as effective in keeping you cool in the Mohave Desert as they 
are in keeping you warm and dry on the North Slope of Alaska.
    To provide a more substantial shelter response agencies often have 
turned to trailers or mobile homes. These, of course, provide more 
creature comforts and are used for longer-term temporary housing 
requirements. However, there are many, very large differences between 
our ``domes'' and trailers. Trailers take longer to produce and are 
more expensive to acquire, warehouse, transport, and maintain. The 
entrance and exit strategy for a trailer or similar hard-wall structure 
is much more difficult to plan and execute. Often existing roads are 
blocked with traffic or debris and cannot accommodate the passage of 
large the trucks that transport them. As evidenced in Katrina, too 
often they can only be used once, if at all, and proper disposal is 
extremely difficult and an added expense.
    Obviously, the use of tents and trailers leaves a huge unfilled gap 
in providing adequate, safe, and reusable accommodation. After Katrina, 
we heard from response agencies, first responders, those being housed 
and many NGO's that, ``trailers just don't work, and tents are simply 
not acceptable''. We are confident that we have developed the ``missing 
link'' in the emergency accommodation scheme.
    Our structures go up as fast as a tent and because of their dome 
design once erected they are stronger than a trailer and many stick-
built houses. Utilizing simple tools and unskilled labor, they can be 
erected in a couple of hours and when they are sealed and anchored 
properly, they are hurricane-proof, earthquake-proof, water-proof and 
extremely fire-resistant. They can remain in place for months or years, 
as necessary, or dismantled and stored in a matter of hours. In 
contrast to trailers or other hard-wall structures, our portable 
shelters can be transported using light trucks or medium lift 
helicopters and can be easily placed close to response victim centers 
using parking lots or existing athletic fields. Over the past 12 years 
they have been fully tested and used successfully in the most extreme 
weather and hazardous terrain on earth.
    On the home page of our Web site at www.intershelter.com you will 
see one of our domes sitting next to the helicopter that brought it 
there, on a mountain top above Valdez, Alaska. This is one of the 
snowiest places on earth with an average of 300 inches. On top of that 
mountain overlooking Prince William Sound our 14-ft. Survival Sphere is 
hit by winds in excess of 175 MPH during the fall and winter storm 
seasons. In winter it is then buried under 40 feet of snow until melt-
off in late summer. This shelter has housed sensitive 
telecommunications and computer equipment used to communicate with the 
oil tankers plying the waters below. It has withstood 6 winters with 
absolutely no maintenance or structural damage fully protecting the 
expensive, important satellite communications gear inside. The 
versatility, durability, storability, mobility, and economy of our 
buildings cannot be matched by any of the tent or trailer variants on 
the market today.
    We feel that our buildings would be a great asset for the 
sustainment of the victims of disaster. Using our domes it may not be 
necessary to totally remove those left homeless from their local 
communities. Once the area is cleared, it may be possible to 
accommodate families on or close to familiar surroundings. In a best-
case scenario, families could stay on or close to their own property, 
near their neighbors and friends, protecting what little property and 
belongings they have left to begin the daunting task rebuilding their 
lives and homes. In time, when families can be adequately housed, 
whether in weeks or months, the ``exit plan'' for our shelters couldn't 
be simpler. The domes can be washed, disassembled in under an hour, and 
stored until they are needed with no requirement for the recurring 
maintenance required for tentage or trailers.
    Because of the ``Pringles''-like stackability of our dome 
components, in the same space it takes to ship one FEMA trailer we can 
ship enough domes to house 300 people. Instead of spending $45,000 to 
$70,000+ for a trailer that cannot be easily disposed of or 
reconditioned for reuse. Our domes, which do not have these 
limitations, can be produced for under $20,000 which is less than many 
of the proposed tentage systems for this purpose.
    Our domes can be used as command posts for ``first responders'', 
emergency communications centers, and MASH-style hospitals, and triage 
facilities, long-term accommodations for offices or shelter for the 
homeless. They can be interconnected in any configuration needed. 
Because the domes are of fiber-glass resin construction many types of 
computer, communications, and satellite equipment can be used and 
protected from the elements with absolutely no signal interference from 
the building materials. To meet the needs of FEMA and other global 
response organizations.
    InterShelter has proposed to team with the AAR Corporation to build 
``total response'' packages using our modular dome designs which can be 
seen in the Annex to this presentation. Our objective is to produce 
fully air-deployable self-contained and supported camps that can be 
installed with little or no site preparation for 300 people within 24 
hours and for up to 2,000 people within 72 hours. This effort, using 
U.S.-manufactured products, is well underway and will incorporate 
totally interoperable communications and IT systems for police, fire, 
and military response teams, ID card production facilities, over-
pressure systems for chemical and biological response teams to include 
decontamination facilities and medical modules with complete field 
surgical capabilities and accommodation packages for first responders, 
office and lodging, and family accommodation modules. AAR's mobility 
systems and Contingency Response Communication Systems, integrating 
first responder communications nets, are presently in use in the U.S. 
Army and Army National Guard Units. All modular dome configurations 
will be supported by fully integrated alternative energy sources, solar 
and wind, as well as, potable water production facilities and waterless 
human and hazardous waste disposal systems.
    If given the opportunity, we stand ready to provide ``The Next 
Generation of Emergency Shelter'', in the numbers needed at a 
substantial savings to our Government.
    Again, Mr. Chairman and Members of the committee, I would like 
thank you for the honor and privilege of addressing you here today.

    Chairman Thompson. Thank you very much.
    We now recognize Mr. Rininger for 5 minutes.

      STATEMENT OF BRADDON B. RININGER, PRESIDENT, BRAJO, 
                          INCORPORATED

    Mr. Rininger. Thank you, Chairman Thompson and 
distinguished Members of the committee for the invitation and 
opportunity to testify before you today on behalf of behalf of 
Brajo, Incorporated, and as American people.
    In considering products for use in conjunction with the 
emergency preparedness program, we made three points our 
priority: Affordable, safe, and substantial.
    Affordable units will save the American taxpayers money by 
reduced initial costs and reusability. Safe. We have a Class A 
fire rating. Green, and we are formaldehyde-free. Substantial, 
with sound construction of steel and structural insulated 
panels and 160 mile-per-hour wind load exceeding seismic 
ratings of 8 on the Richter scale.
    Features and benefits of the Brajo Hurricane House: 
Flexibility. Non-wheeled units promote dignity and pride of 
ownership.
    What are the options? Recover the unit, reuse it, or store 
it in a future deployment--for future department. They can be 
used as adjacent structures, further increasing the tax base.
    But to realize the cost-effectiveness of our design, we 
must address emergency preparedness. The Brajo preparedness 
alternative consists of understanding the foundation issue, 
which is continuity of community.
    The Brajo Hurricane House addresses the need to maintain 
and preserve the continuity of the community in a disaster 
situation because of its ease of transition of the dwelling 
from quick response to intermediate and then finally to 
permanent housing, where possible, which preserves the tax 
base.
    Ease of construction, using local unskilled labor 
encourages team effort, people helping people.
    Quick response is imperative to maintaining the community. 
Quick response means hope, and hope sustains faith in our 
country's system. Quick response requires emergency 
preparedness. The Brajo preparedness alternative will assist 
FEMA in meeting the crisis head on by demonstrating the ability 
to fill the void of the initial impact of the disaster by 
having product on-site within a 24-hour period of notification, 
creating the time element necessary to gear up, meet the need, 
while cementing goodwill with the American people.
    Emergency preparedness requires a proactive decision in 
inventorying product. Inventory warehousing alternative will 
accommodate 60,000 people short-term for approximately $150 
million.
    Now, with my submittal and testimony, I have the details on 
that.
    Container-based product. By comparison, utilizes 
approximately 20 percent of the comparable size wheel units, 80 
percent savings. Please note: container-based products allow 
ease of security, preventing damage due to vandalism and 
exposure to the elements. Container-based product reduces 
freight costs, because you can ship a Brajo--eight Brajo 
Hurricane Houses for every one wheeled unit. The point to 
container-based product is the ability to manage the product, 
whether in inventory, during transition, or on-site.
    In closing, history shows us that change is imperative. I 
am here to assist in improving the way we address disaster 
relief through product design. We believe that, by using 
correct product initially, we enable local and State 
governments to build on what FEMA has provided.
    This product is in 36 countries throughout the world. A 
pilot project for permanent housing is currently underway in 
Lafayette, Louisiana, under the Lafayette, Louisiana, housing 
authority.
    Ladies and gentlemen, I offer my personal pledge to provide 
our fullest support to achieve the ultimate goal of this 
program: The rapid and dignified restoration and recovery of 
American communities devastated by acts of nature or man.
    Honorable Chairman Thompson and distinguished Members of 
the committee, thank you, and may God bless America.
    [The statement of Mr. Rininger follows:]

               Prepared Statement of Braddon B. Rininger
                              July 8, 2009

    Thank you, Chairman Thompson and Members of the committee, for the 
invitation and opportunity to testify before you today on behalf of 
Brajo, Incorporated and the American people.
    Ladies and gentlemen, in considering products for use in 
conjunction with the Emergency Preparedness Program, i.e. Disaster 
Relief Housing, we made three points our priority:

                     1. AFFORDABLE/SAFE/SUBSTANTIAL

    In addition to these 3 points, we also recognize the utmost 
importance of maintaining the continuity of the community. These 3 
points played a key role in our decision as to what to bring to the 
table.
Affordable--Units will Save the American Taxpayers Money
  <bullet> Initial Cost--compared to the cost of units currently in 
        use--a substantial savings can be realized.
  <bullet> Reusability--Unit can be dissembled, refurbished, and 
        returned to inventory status.
  <bullet> The unit can be incorporated as permanent real estate 
        enhancing the tax base.
Safe--It Is Built With Environmentally Responsible Materials
  <bullet> Green.
  <bullet> Formaldehyde-Free.
  <bullet> Class A Fire Rating.
Substantial
  <bullet> Sound construction of Steel and Structural Insulated Panels 
        (SIPs) meeting 160-mph wind load.
  <bullet> Exceeding seismic ratings of 8 on the Richter Scale.
    To recognize the cost-effectiveness of our design, we address 
emergency preparedness.

         2. FEATURES AND BENEFITS OF THE BRAJO HURRICANE HOUSE

  <bullet> Non-wheeled Units.--Our units promote dignity and pride of 
        ownership.
  <bullet> Recovery/Reuse/Storage Capability for future deployment or 
        conversion to alternate use as an adjacent structure, further 
        increasing tax base.
(Reference CRS Report for Congress Order Code RL34087 Updated August 8, 
2008 at page CRS-27 and therein referenced bibliography.)
    Options.--Throw it away/back to the warehouse for refurbishing and 
re-use in the future once again saving money/can be left on site as an 
auxiliary bldg to the homeowner/can be upgraded to permanent housing 
where primary structure has been deemed to be irreparable. Up-fitting 
to standard building codes with minimal costs will convert unit into a 
permanent home, securing acceptance of dwellings at the local 
government level by qualifying as real property tax base.
    The Brajo Hurricane House is designed to be situated when possible 
on the primary property. This is due to a self-supporting floor frame 
design which requires minimal terrain preparation in conjunction with 
simple utility connections when available. Auxiliary utilities must be 
utilized in the interim.

                       3. BRAJO PREPAREDNESS PLAN

    Consists of understanding the foundation issue, which is:
Continuity of Community
  <bullet> The Brajo Hurricane House addresses the need to Maintain and 
        Preserve the continuity of the community in a disaster 
        situation because of: Maintaining continuity of the community; 
        Quick Response is imperative to maintaining the continuity of 
        the community.
Quick Response
  <bullet> Method of implementing Quick Response: Purposes offers (a) 
        Ease of transition of the dwelling from Quick Response to 
        intermediate and finally to permanent housing which preserves 
        the tax base when possible; (b) Ease of construction using 
        local unskilled labor encourages team effort--people helping 
        people.
Cost of Haste
(As quoted from CRS Report for Congress Order Code RL34087 Updated 
August 8, 2008 at page CRS-5 Paragraph 3 and therein referenced 
bibliography.)
            The Katrina Experience.
    ``During their use the ships housed over 8,000 people and served 
over 2 million meals to Katrina victims and workers helping in the 
recovery. While meeting emergency needs, critics questioned the cost of 
housing victims on the ships. Some doubted the efficacy of the plan, 
the location of some ships, the cost and length of the contract, and 
the process used to arrive at the agreement. As one story noted: `The 
6-month contract--staunchly defended by Carnival but castigated by 
politicians from both parties--has come to exemplify the cost of haste 
that followed Katrina's strike and FEMA's lack of preparation.' ''

    Distinguished Members of this committee: We all like the words 
``Emergency Preparedness,'' however we seem to ignore the requirements. 
Why do we tend to ignore the requirements? Because with requirements 
come commitment and commitment costs money. Can we not further our 
considerations in this effort to the point where we have the issues on 
the table? In private industry we must identify the points clearly to 
do a fair comparison. And that is what I am asking you to consider. 
Rather than saying ``No'' to spending money upfront, consider the costs 
of reaction vs. pro-action. We are asking for a proactive decision. 
Recent history shows us that for every dollar not spent up-front, 
resulted in astronomical costs on the backend. We all know and are 
experiencing the cost of recent disasters and I think we can agree that 
the decision to not spend money on the front-end, i.e. little or no 
preparation in terms of inventory of product, a warehousing program, 
advance party, etc. results in exorbitant over-runs, financially 
penalizing the American taxpayer.
  <bullet> The Brajo Preparedness Plan is designed to assist FEMA in 
        meeting the crisis head-on by demonstrating the ability to fill 
        the void of the initial impact of the disaster by having 
        product on-site within a 24-hr. period of requirement, creating 
        the time element necessary to gear up to meet the need while 
        cementing good-will with the American People.
    Therefore, we propose the Brajo Preparedness Program, which 
consists of:

                    4. INVENTORY/WAREHOUSING PROGRAM

    Inventory to accommodate 60,000 people short-term and with the 
capability of transitioning that our U3 Design offers enables going 
from Quick Response Shelter status to Intermediate Temporary Housing 
and most important up-fitting to permanent housing. This capability 
will have a major effect on the entire effort across the board. It 
addresses the following questions:
  <bullet> Must victims leave the area? No, there is a reason to stay.
  <bullet> Can local volunteers support effort immediately? Yes, quick 
        response.
  <bullet> Are the initial shelter units useless after crisis is over 
        rendering all monies invested a loss? No money lost.
  <bullet> Can shelter be up graded to intermediate and then permanent 
        status? Yes.
  <bullet> Will unit become real estate therefore improving tax base? 
        Yes.
  <bullet> Will the unit be acceptable by local governments and qualify 
        for local funding? Permanent status meets HUD code.
  <bullet> Is unit aesthetically acceptable and people-friendly? Yes.
    NOTE: The U3 design may be used at the existing site or on the 
alternate site of the host community. Once again, units will qualify as 
permanent housing and real property, thus maintaining tax base.
Warehousing Costs
  <bullet> 10 Locations=1 inventory site in each of the 10 FEMA 
        Regions.
  <bullet> Total number of Flat Pack Modulars=5,000 Accommodating 
        20,000 people.
  <bullet> Total number of Brajo Hurricane Houses (U3)=5,000 
        Accommodating 40,000 people.
  <bullet> Total Estimated $150,000,000 up-front costs of shelters.
  <bullet> Warehousing and Administrative costs to include:
    <bullet> Warehousing Leases 10 Locations.
    <bullet> Security and Insurance.
    <bullet> Annual Inspections All Containers.
    <bullet> Pest Control Annually.
    <bullet> Training Seminars for National Guard Advance Party 
            Annually Each Site.
    <bullet> Total Lump Sum Annually $5,000,000.
  <bullet> A low-cost outdoor storage facility location in each of 10 
        FEMA regions tailored to historic disaster demographics. 
        Example: Conventional storage of a comparable sized wheeled 
        units requires appx. 5,000 cu. ft. The Brajo Hurricane House, 
        while container-based and stackable, requires appx. 1,000 cu. 
        ft. This is a major reduction in inventory cost. Please Note: 
        Container-based products allow:
    <bullet> Ease of security.
    <bullet> Preventing damage due to vandalism and exposure to the 
            element.
    <bullet> In addition, container-based product reduces freight cost 
            because you can ship 8 Brajo Hurricane Houses for every 1 
            wheeled unit.
    <bullet> The point to container-based product is the ability to 
            manage the product, whether in inventory, during transition 
            via highway transport and/or on-site.
  <bullet> Training of National Guardsmen in each of the 10 inventory 
        locations, which is the responsibility of the contract holder, 
        not the Government.
  <bullet> A master inventory site is strongly suggested for a central 
        location adjacent to the ``hot zone'' for the purpose of 
        rehabilitating our reusable units prior to returning inventory 
        to assigned region.
  <bullet> A national emergency preparedness program that will assist 
        FEMA in providing an emergency quick response throughout the 
        United States enabling FEMA to react anywhere in the 
        continental United States within 24 hrs. of notification. This 
        is predicated on transportation infrastructure being intact.
  <bullet> This plan calls for employment of trained National Guard 
        team leaders (2 Guardsmen on first shipment) to deploy with the 
        units to act as advance party at the disaster site as incident 
        command centers are set up.
  <bullet> Training and orientation of advance party for each of the 10 
        locations will be the responsibility of the contract holder.
  <bullet> Contract management team of the contract holder is on call 
        to receive the request by FEMA to alert the appropriate 
        warehouse operation and the National Guardsmen assigned to that 
        operation simultaneously.
  <bullet> This program is designed to facilitate the quick response 
        necessary to maintain continuity in the community.
    Note.--It has been our experience and I am sure you all agree that 
once the continuity of the community is lost, the result is 
astronomical over-expenditures due to the inherent chaos and confusion 
that ensues. History tells us that the faster we react the more 
successful the relief effort becomes. Consequently, we are saving our 
people, and we are saving the taxpayers' money due to averting 
outrageous costs overruns.
  <bullet> Part of the equation that is ever most important is 
        efficiency. While in the onset it may appear that by not making 
        a financial commitment to be emergency prepared, that we are 
        saving money, however, history tells us once again that because 
        of the inability to react in a quick response sense, outrageous 
        and extreme cost overruns are inevitable.
    And last but certainly not least . . . 

            5. A MORTGAGE RECOVERY PLAN FOR DISASTER VICTIMS

Reference: Congressional Oversight Panel Foreclosure Crisis: Working 
Toward a Solution--March Oversight Report dated March 9, 2009 Submitted 
under Section 125(b)(1) of Title 1 of the Emergency Economic 
Stabilization Act of 2008, Pub. L. No. 110-343.

    In an effort to support President Obama's announced homeowner 
affordability and stability plan intended to prevent unnecessary 
foreclosures and strengthen affected communities, specifically where 
disasters are involved, we offer this mortgage recovery plan. This is 
an attempt to show that by having quick response capability with the 
correct product foreclosures can be averted.
Purpose
  <bullet> Avoid Foreclosure
  <bullet> Encourage Residents to Remain at Homesite
  <bullet> Mitigate Loss by Hazard Insurance Companies
  <bullet> Mitigate Loss by Mortgage Insurance Companies
  <bullet> Aid Community in Rebuilding Process--People present
  <bullet> Help Prevent Looting and Crime--People present
  <bullet> Speed Recovery Process--Keep People local
  <bullet> Promotes Local Labor Force
  <bullet> Restores Pride of Home Ownership--hands on by victims
  <bullet> Encourages Psychological Healing from Loss
  <bullet> Personal Property Can be Recovered & Secured
  <bullet> Community Integrity Through Self-Help/Promoting Solidarity & 
        Team-Spirit
  <bullet> Refurbishing Efforts Will be Expedited, Returning Community 
        to Normalcy
Proposed Plan of Action
  <bullet> Deliver Brajo Hurricane House to Damaged Property Site
  <bullet> Clear Site for Erection in Appropriate Proximity to Damaged 
        House
  <bullet> Pre-Trained Team Leader Arrives with the Brajo Hurricane 
        House
  <bullet> Team Leader Initiates Erection of Brajo Hurricane House
  <bullet> Team Leader Enlists Property Occupant and Local Labor to 
        Begin Erection Process
  <bullet> Approximately 5 Persons Can Erect the Brajo Hurricane House 
        in 1 day
  <bullet> Connect Brajo Hurricane House to On-Site Infrastructure 
        (Water/Sewer/Utilities Quick Connect)
  <bullet> Progress Toward Rebuilding the Damaged Home and Community 
        Begins
    In closing, this product is currently in 23 countries throughout 
the world and in addition, a pilot project for permanent housing is 
underway for the Lafayette, Louisiana Housing Authority.
    Units are on display at the International Aid and Trade show 
convention in the District of Columbia July 9-10 at the Ronald Reagan 
Building, 1300 Penn. Ave., Washington, DC.
    I offer my personal pledge to provide our fullest support to 
achieve the ultimate goal of this program--the rapid and dignified 
restoration and recovery of American communities devastated by acts of 
nature or man.
    Honorable Chairman Thompson and Members of the committee, thank 
you.

                               EXHIBIT A 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               EXHIBIT B 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Thompson. Thank you very much.
    We will now hear from Mr. Boasso for 5 minutes.

 STATEMENT OF WALTER J. BOASSO, CHIEF EXECUTIVE OFFICER, HELP, 
                              LLC

    Mr. Boasso. Good afternoon, Mr. Chairman and distinguished 
Members. Thank you for the opportunity to be here today.
    I come from a 30-year history in the intermodal industry, 
doing business basically all over the United States and, of 
course, foreign countries. I was elected to the Louisiana 
Senate in 2004. One year and 8 months after my introduction 
into politics, we had Hurricane Katrina.
    The 122,000 people that I represented all lost everything 
or were affected by Hurricane Katrina. I was part of the first 
contingent that made it into the city of New Orleans, 100 
wildlife agents with 60 boats, where we began the rescue 
operations in the Lower Ninth Ward, making our way to St. 
Bernard Parish.
    I have had first-hand witness the loss of life, the lack of 
food, medicine, water, ice, no communication system, no 
logistical coordination, no coordination from a State or 
Federal response for almost 8 days.
    Through my personal experiences of having 13 feet of water 
in my house during Katrina and, 3 weeks later, 5 feet of water 
in my house for Rita, my company, Boasso America, went 
underwater and my almost 200 employees of Boasso America in St. 
Bernard Parish lost everything, as well.
    So I have the experience of seeing more grief, upset, and 
death after the storm. If we track the lives of the people that 
died after the storm instead of during the storm, the numbers 
would be staggering, because these people lost everything they 
worked for and had nowhere to turn. People couldn't get back 
into their communities because of the housing and the logistics 
or the lack of logistics that occurred.
    So basically, what does this mean? I am someone here today 
as a civic leader, a businessman, a family man, a veteran of 
two national disasters, and a former occupant of a FEMA 
trailer. I have to say what a challenge that was.
    So as I looked as FEMA progressed in their housing options, 
I felt that we are missing a very key opportunity. What I am 
here today to present to you is a solution, a solution to 
interim housing.
    This is where I began the establishment of HELP, Housing 
Emergency Logistics Program, because it is not just a matter of 
providing the housing unit. It is getting the unit there. It is 
taking care of the unit during the process of why it is there 
and then removing the unit and restoring and reusing for 
another disaster.
    The last 30 years, I have been modifying containers for--
industry, as well as--and using containers for different use.
    What I propose to you today is looking at the module of the 
HELP unit. With the HELP unit, if you look at the national 
disaster housing strategy, is a range of use, deliverability, 
the timeliness, and the cost.
    Well, what is great about this range of use is that we are 
able to use the current intermodal system that exists today. I 
will just give you the example where we talk about having the 
units in harm's way. I had thousands of containers, both in 
Jacksonville, Charleston, South Carolina, Houston, Texas, and 
in St. Bernard Parish during all those hurricanes. They were 
all there, and they all stayed there.
    So we have a durable unit that can be reused again. In our 
industry, these units are amortized over 15 years, so therefore 
we have the longevity. The initial cost is much cheaper than 
the options that are put out there today.
    But in putting that unit together, we are also going to 
incorporate all the failings of the activities that people 
need. An example: Once you got that trailer, you need an 
electrical pole. You needed a plumbing system. You needed a 
water hookup. All of this will be contained in that module 
itself.
    So when we deliver that module, all you have to do is 
connect it, and it is taken care of. We don't have to worry 
about losing it during a subsequent storm. Furthermore, we 
could take it and reuse it many times, where we will see the 
advantage of saving American dollars during that process.
    So as far as footprint, the indoor air quality, the 
production lead, we fit all of those requirements. But I think 
the most important thing is when it comes down to storage, the 
longevity of being able to reuse that unit again.
    So for, once again, my plan is put into testimony here 
today, and I thank you for the opportunity to be here.
    [The statement of Mr. Boasso follows:]

                 Prepared Statement of Walter J. Boasso
                              July 8, 2009

    Mr. Chairman, Ranking Member King and Members of the committee: My 
name is Walter J. Boasso and I am the president (CEO?) [sic] of HELP, 
Inc. and, more importantly, I am a former resident of a FEMA trailer. 
HELP stands for Housing Emergency Logistics Plan and is a direct 
outcome of what I experienced as one of the first officials on-site in 
New Orleans dealing with the aftermath of Hurricane Katrina and what me 
and my family experienced as displaced residents of New Orleans living 
in a trailer provided by FEMA after this disaster.
    Until recently when I sold my company, I was the CEO/President of 
Boasso America Corporation. Boasso America is the largest tank 
container operation in the world, with over 500 employees. Through this 
role, I have over 30 years of experience and expertise with shipping 
containers and all of the alternative uses for these items. Our 
operations covered all of the major ports in the United States 
including Chicago, Detroit, Charleston, South Carolina, Jacksonville, 
Florida, Houston, and New Orleans.
    In addition to my role as CEO and President of Boasso America, I 
was involved in government through my election to the Louisiana State 
Senate, serving from 2004 to 2008. My district covered a large section 
of the east coast of Louisiana and I represented 122,000 people--every 
one of which was affected in some way by Hurricanes Katrina and Rita.
    Through my position as a State senator, I was part of the first 
contingent of officials coming in to New Orleans after Katrina's 
devastation. Mr. Chairman, I could spend hours with this committee 
recalling that event and the governmental response to that event. I 
could describe in detail and through plain and simple facts the loss of 
life I dealt with, the lack of food, the absence of medicine and safe 
water, no communications system, no logistical coordination of any 
kind. I could describe in detail the personal impact of this event on 
me and my family. My home had 13 feet of water during Hurricane Katrina 
and 5 feet of water during Hurricane Rita. My business's home office 
was underwater as well and all of my employees--all of the people who 
made up Boasso America--lost everything.
    We lost everything because of a natural disaster that occurred and 
the simple fact that, after it occurred, there was no plan or effort 
from a governmental level to help people return to their homes or to 
their work or to have the basic necessities to survive. Quite simply, 
there was no coordinated State or Federal response of any kind for 
almost 8 days. Mr. Chairman, that's the tragedy of New Orleans and 
Hurricane Katrina. When the people of New Orleans and St. Bernard 
Parish and the other impacted areas of the Gulf needed it the most, the 
Government's emergency and disaster systems and services failed them. 
The death and destruction I saw and the responses to these disasters, 
or in reality the lack of response, led me to begin work on providing 
an alternative interim housing program or plan and thus was born HELP.
    HELP stands for Housing Emergency Logistics Plan and our plan and 
company provides interim emergency and disaster housing solutions that 
are more effective, comfortable, environmentally acceptable, and cost-
efficient than the interim housing solutions the Government has relied 
upon for too long. It also incorporates into the overall disaster 
housing response system a coordination with the Nation's intermodal 
logistics systems in order to get housing units where they're needed as 
quickly as possible and in the least costly manner possible.
    Our model is very efficient and understandable. They are built upon 
the models of shipping containers--they are made of a heavy steel outer 
shell in accordance with international shipping container standards and 
re-styled to suit community housing types and needs. The interiors are 
built from sustainable materials with no hazardous chemicals involved, 
thus creating a green environment for the residents. They're 
handicapped accessible and, most importantly, the internal layouts, 
furniture and fittings see to provide comfort to those who have 
suffered the loss of their home in a more ``normal'' or ``home'' 
environment. Also, these units are designed to be hurricane and storm 
resistant, unlike FEMA trailers.
    Because of the shipping container model they're based upon, the 
HELP interim housing units are designed and built for immediate 
dispatch for placement at the home site of families who have suffered a 
loss of their home. The units are not dependent upon one (and only one) 
form of transportation to get them where they're needed. The units can 
be moved on any conventional container truck chassis readily available 
throughout the country. They can also be deployed by rail or barge and 
are placed on-site using standard fork lift trucks.
    As shown in the following diagrams, the units are very attractive 
and, yet, very flexible and versatile in their configurations. The 
following three diagrams present the outside of the unit and typical 20 
and 40 feet in length units.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The most important aspect of the HELP model and its disaster 
housing unit is the storage and reuse factors. Because of the container 
model it's based upon, the HELP units are stackable and easily 
maintained while being stored. As with all shipping containers, the 20-
foot and 40-foot HELP units can be stacked up to nine units high. 
There, over 2,000 HELP 20-foot units can be stored on 1 acre of land as 
opposed to the same acre only able to store 170 FEMA-style 22-foot 
trailers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The flexibility of the units is another important aspect. Only two 
types of HELP units are needed to accommodate between 2 and 6 persons 
per unit. Therefore, most families can be accommodated but, if larger 
units are needed, two or more units can be sited closer together, thus 
providing unlimited flexibility.
    From an environmental perspective, HELP's units stand alone. The 
units are constructed from sustainable materials that have no hazardous 
chemicals. The insulation factor in the HELP unit is double that of a 
FEMA trailer, providing significant energy savings during its use. Air 
conditioning and ventilation systems are provided with the unit and are 
easily maintained during both use and storage. Each unit stores its own 
waste and this waste is either regularly pumped out to a handling 
vehicle or into the existing community sewage lines. And, as with all 
shipping containers, the units are recyclable.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As outlined in the chart above, the HELP unit model from a 
logistical standpoint and an implementation standpoint is very simple. 
The units are manufactured and fitted out. They are stored in pre-
positioned or strategic locations. They are transported via any number 
of modes of transportation to where they are needed in the event of a 
disaster. They are ready to go when they are delivered and families can 
start utilizing them immediately. When a family can go back to their 
home, the units are removed, cleaned up and stored for the next time 
they're needed. Again, a very simple chain of events logistically.
    In particular, as you can see from this chart, the HELP disaster 
housing unit provides very important elements that other disaster 
housing units utilized in the past do not and cannot meet. I want to 
expand on two very significant elements which I hope the Members of the 
committee view in the same light as I do. First is the element of 
storage and the second element is longevity. These two items provide, 
in my opinion, the criteria that have been missing from the disaster 
housing options provided by FEMA in the past.
    As noted earlier, the HELP units are designed off of shipping 
containers. Having been in the shipping business for over 30 years, I 
understand the need for utilizing small spaces for storage as 
efficiently as possible. Because of the design and because of how 
they're manufactured, the HELP units can be stored in almost any 
location and a large number of them can be stored in a small space.
    Because of their stackability, we can pre-position or store until 
needed almost 2,000 units in the same space that only holds around 180 
traditional FEMA travel trailers. This storage efficiency frees up 
valuable space in order to pre-position or store other much-needed 
disaster response supplies and equipment.
    Secondly, with simple maintenance during storage (items such as 
checking the heating and cooling systems, water and wastewater systems, 
etc.), the longevity of the unit is significantly higher than 
traditional FEMA disaster housing options. This single element of 
longevity ensures that disaster housing assistance is available 
whenever and wherever it's needed. With enough units on hand at any 
given location, in a pre-positioned storage facility, the units are 
ready to be delivered wherever necessary and set up, year after year. 
There's nothing to rot, nothing to fall apart, no axles to break.
    All of the components of the HELP unit add up to one very important 
point--the HELP unit provides a cost-effective, efficient, long-lasting 
type of disaster housing that the Government and FEMA desperately need. 
In preparation for my presentation today, I reviewed FEMA's plans 
contained in the National Disaster Housing Strategy. This strategy laid 
out several criteria for disaster housing options. These criteria 
include:
    1. Range of Use.--How adaptable it would be under various 
        environmental, geographic, and cultural or conditions required 
        by local governments;
    2. Livability.--How well the units can accommodate or help provide 
        for a household's daily living essentials as well as their 
        physical and emotional need;
    3. Timeliness.--How fast units could be made ready for occupancy;
    4. Cost.--How cost-effective the unit would be in absolute terms 
        and in terms of its value relative to additional requirements 
        established as critical in meeting FEMA immediate housing needs 
        and priorities that include:
    a. Footprint.--Units should be small, capable of HUD certification 
            and suitable for FEMA community sites or privately owned 
            sites;
    b. UFAS.--A sufficient number of units must be available for 
            occupants who are disabled and the units must comply with 
            Uniform Federal Accessibility Standards;
    c. Indoor Air Quality.--Utilizing a holistic approach to indoor air 
            quality control measures by eliminating or limiting use of 
            products that contain pollutants, enclosing potentially 
            harmful air pollutant sources in impermeable barriers, 
            using filtration/ventilation to dilute or decrease airborne 
            pollutants, requiring rigorous quality control measures 
            during the manufacturing process, specifying control 
            methods through contracting and procurement processes and 
            other methods of control; and
    d. Production Lead-Time.--Providers must be able to deliver a 
            certain number immediately or within a short time frame to 
            meet FEMA's operations and performance requirements.
    Let me state again, Mr. Chairman and Members of the committee, that 
I reviewed these items only recently and I was surprised at the 
compatibility of the HELP units with these criteria. Our units meet 
every one of these criteria and I would hope, because of that fact, 
that FEMA would see the benefits in having the HELP unit as one of its 
disaster housing response options.
    Mr. Chairman, Ranking Member King and Members of the committee, I 
want to thank you for this opportunity to come before you today and 
provide information and background on what I believe is truly a 
significant new tool for FEMA to use in providing disaster housing 
options for families that have lost their homes and need safe, clean, 
and efficient temporary housing and which can be provided to them 
almost immediately after a disaster strikes. I lived through Katrina 
and I've applied the lessons I learned, and lived through, in 
developing this concept. I want other families that go through a 
disaster of any kind to not have to go through what I went through and 
I believe HELP and its product can provide the type of housing that 
disaster victims need and deserve.
    Again, I appreciate this opportunity to provide this information 
and I will be happy to answer any questions you might have at this 
time.

    Chairman Thompson. I thank you for your testimony.
    Without objection, a statement provided to the committee by 
Mr. Cross of SG Blocks will be inserted into the hearing 
record.
    [The information follows:]

 Statement of SG Blocks Submitted for the Record by Chairman Bennie G. 
                                Thompson

    Public Policy Issue Response.--The need for quick, reactive, 
durable, economical housing relief in disaster situations is a national 
priority. The country's ability to respond to virtually any size 
disaster that involves the need for emergency shelter has been tested 
on numerous occasions, only to be met with inconsistent results. A 
comprehensive approach has been elusive until now. SG Blocks offers an 
affordable, immediate, sustainable answer with the SG Blocks Disaster 
Relief Unit.
    Multi-faceted Solution.--SG Blocks provides an integrated and 
multi-faceted solution for housing needs brought on by population 
displacement from disasters both at home and abroad. Published on 
January 16, 2009, FEMA's National Disaster Housing Strategy highlights 
an essential need for disaster housing to ``leverage emerging 
technologies and new approaches in building design to provide an array 
of housing options.'' There is a stated emphasis on understanding and 
meeting individual household needs, while providing a full range of 
flexible and adaptable housing options. The SG Blocks approach provides 
both; employing a sophisticated, logistically driven management and 
deployment system with numerous benefits:
  <bullet> Ability to flexibly build up inventory as required by FEMA.
  <bullet> A service life of 25-75 years, depending on the application.
  <bullet> Flexible, durable, and affordable storage capability for 
        multiuse purposes.
  <bullet> Stackable to maximize storage in a way traditional modular 
        housing cannot.
  <bullet> Design integration for expandable transitional shelter that 
        can be converted to permanent housing.
  <bullet> A safe, sustainable, energy-saving green product with an 
        exceptionally low-carbon footprint.
  <bullet> Highly transportable and demountable for rapid deployment, 
        reconfiguration, or reuse.
  <bullet> Built to meet or exceed HUD and other building codes.
  <bullet> Fitted for persons with special needs, including the elderly 
        and the disabled; this group is disproportionately impacted 
        during disaster emergencies.
    SG Blocks Disaster Relief Units offer inherently protected interior 
space. Selected units can be pre-configured and simultaneously 
deployed. They provide a safe and secure environment for transporting 
emergency water, food, blankets, and medical supplies, power-
generating, and water treatment equipment. Once on-site and unloaded, 
the pre-configured units convert into shelter as standard SG Blocks 
Disaster Relief Units.
    The system is proven through its use by the military. CHU's 
(Containerized Housing units) have previously been deployed through 
multiple applications. A large complex was built by SG Blocks for the 
249th Engineering Battalion Command at Fort Bragg.
    The SG Blocks system conforms to U.S. Government mandated COTS 
(``Commercial off the Shelf'') initiatives for products and service. It 
meets or exceeds all COTS specifications including: Storage, 
deployment, re-deployment, inspection, maintenance, and repair 
capabilities. The interior of an SG Blocks Disaster Relief Unit uses 
commercially available off-the-shelf components throughout: Doors, 
windows, flooring, interior sheetrock, electrical, and plumbing 
approved for use and routinely installed in modular and factory built 
housing. Zero formaldehyde standards are applied to all interior 
components. At the heart of the system is the Value-Cycled<SUP>TM</SUP> 
SG Block; a cargo container that is efficiently modified and re-
purposed from an international instrument of trade carriage to an 
international instrument of housing. SG Blocks Disaster Relief Units 
can be easily converted to permanent installation, as the fundamental 
building block (container) is designed to be grouped for easy 
expandability and connectivity after deployment. When the SG Block is 
used in multiple configurations, the company's proprietary engineering 
and linking methods create honeycomb design strength.
    Addressing available housing options (pg 31 NDHS), FEMA states: 
``The range of available housing options sets the parameters for the 
type of assistance that can be provided and challenges planners to be 
creative in seeking innovative solutions. Disaster housing must include 
a sufficient range of options that are compatible with the community 
characteristics, including population density, climate, geography, and 
land availability. They must be safe, durable, physically accessible, 
and cost-effective. Viability may also hinge on timely availability and 
sufficient capacity to meet the size and diversity of a household, as 
well as cost effectiveness.''
    The SGB Disaster Relief Units address every one of those needs. The 
Units will contain all the basics required for sufficient housing. 
Kitchen, baths, living and sleeping space will be included along with 
standard appliances and home features. The building facade may be 
aesthetically adjusted to fit into any landscape, and as necessary, can 
be regionalized to suit any climate. Should the SGB Disaster Relief 
Unit ultimately become permanent, exterior modifications can easily be 
made; enabling the permanent home to seamlessly integrate into any 
environment. With extraordinary structural integrity, SGB Disaster 
Relief Units are more durable and weather-resistant than other 
shelters, conveying a sense of personal safety, strength, security, and 
well-being. This inherent stability aids in the recovery from 
psychological trauma during and after a disaster and the displacement 
that follows.
    The Logistical Advantage.--There is a significant logistical 
advantage when using the SG Blocks system. The supply source is part of 
a global logistical shipping network. The existing manpower, equipment, 
and organization mobilize immediately for quick and efficient 
deployment. EDI data management software is already in place; and 
uniquely flexible equipment handling and transport options provide 
unmatched deployment capabilities. A rapid dispatch rate is estimated 
at 45 units per hour. SG Blocks Disaster Relief Units may be 
transported on intermodal chassis trailers, flatbeds, tilt-beds, step-
decks, railroad, ocean barge, inland barge, or on container vessels. 
The mission changes but the execution mirrors the daily logistical 
operations that the depots routinely handle with containers. Industry-
accepted inspectors are based at the deployment site and are available 
around the clock to receive, inspect, and certify SG Blocks Disaster 
Relief Units.
    A significant space-saving advantage is inherent in the ability to 
stack the SG Blocks Disaster Relief Units. 90 units per acre are 
typical of non-stackable modular or trailer housing currently being 
deployed. In stark contrast, SG Blocks Disaster Relief Units may be 
stacked vertically 8 high, creating a vastly enlarged site storage 
capacity of 1,040+ SGB Disaster Relief Units per acre. This translates 
into high-density site storage and maximized use of available space.

                      SINGLE UNIT SCALABLE SYSTEM

    The Structure.--The SGB Disaster Relief Unit is a highly 
transportable, low-maintenance, long-lasting structure built from 
Value-Cycled ``green'' engineered containers, utilizing oxidation 
resistant COR-TEN heavy gauge steel. Designed to carry up to 60,000 
lbs. on ships, the containers are converted for shelter by SG Blocks 
and re-engineered to meet and exceed FEMA specifications.
    SG Blocks proposes to deploy the Disaster Relief Units and provide 
full logistical support and maintenance management.
    Key Features:
  <bullet> Options for 1, 2, and 3+ bedroom units with the ability to 
        incorporate into transitional and more permanent housing.
  <bullet> Rapidly transportable and highly deployable units; multiple 
        modes of transportation to choose from to assure quick and 
        dependable delivery to a designated site.
  <bullet> Continual, abundant supply at multiple and strategically 
        located U.S.- and internationally-based depots.
  <bullet> Rapidly deployable, both domestically and internationally.
  <bullet> Designed to meet all Federal fair housing requirements along 
        with Federal and local accessibility requirements for disabled 
        occupants; this includes ramping, grab bars, appropriate 
        turning radii, corridor width, appropriate hardware, accessible 
        showers and/or tubs. Depending upon end-users' needs, a 
        specific number of compliant units may be provided, or all 
        units can be designed to be in conformance.
  <bullet> Constructed of heavy-gauge, oxidation-resistant COR-TEN 
        steel, the SG Block Disaster Relief Unit meets and exceeds 
        published requirements of the U.S. Government for emergency 
        housing. The system includes the disaster unit, full logistical 
        control of deployment, re-stocking support, inventory control, 
        and the capability of conversion into on-site permanent 
        housing. The interiors incorporate robust paperless drywall 
        proven suitable for transport as demonstrated in the modular 
        housing industry. SG Blocks has selected steel cabinetry and 
        furniture in addition to other sustainable interior components. 
        Compliance with all interior air quality standards is assured. 
        These units contain no formaldehyde glues or any building 
        materials that have the potential to give off formaldehyde gas.
    Flexible, Demountable, and Adaptable.--SGB has designed a livable 
and versatile unit with the needs of the occupants in mind. As families 
expand or contract, our system may be expanded or reduced to 
efficiently meet these changing needs.
    Designed for scalability and exceeding Government requirements for 
1, 2, & 3 bedroom units, SG Blocks Disaster Relief Units have 
additional applications as well. The units may be easily deployed as 
office space, relief worker live/work space, or as clinics, with 
geographic flexibility for all topography and weather variables. As a 
stand-alone or multi-unit structure, the uniformity and integration 
options of the SGB Disaster Units will result in substantial cost 
savings to the Government.
    Chapter 3 of NDHS focuses on Interim Housing. Point 11 addresses 
its temporary nature. ``Whenever possible, disaster victims should be 
moved directly to permanent housing. In creating interim housing plans, 
officials must balance the intensive effort to supply temporary housing 
with the need to immediately start developing plans for restoring 
permanent housing . . . During this period, the State should also be 
ready to resume responsibilities once Federal assistance ends. These 
fundamental expectations must be established at the beginning of the 
interim housing process and guide decisions throughout.'' The 
professional and experienced staff of SG Blocks has worked seamlessly 
at the municipal planning levels for permits and approvals and can 
easily be integrated in the transition phase of temporary to permanent 
housing.
    The use of SG Blocks Disaster Relief Units provides significant 
advantages over modular and travel trailer housing currently being 
deployed. While these incumbent structures are deployable, they do not 
share the logistical benefits and support provided by the SG Blocks 
system. Modular and travel trailer housing has proven to have a 
comparatively short service life; they are not built for long-term 
durability. The SG Blocks Disaster Relief Units are durable, rugged 
steel-framed buildings that last for 25-75 years; they are less 
susceptible to moisture damage and provide full compliance with wind 
and seismic design codes. Further, scalability and storage capacity of 
the SG Blocks unit is over 10x the level of the modular and travel 
trailer housing currently being deployed.
    SG Blocks Disaster Relief Units far surpass available alternatives 
in meeting the disaster housing parameters set forth by FEMA. Inherent 
logistical control and geographic proximity both support rapid and 
efficient deployment. Multiple modes of transportation enhance rapid 
deployment options. SG Blocks Disaster Relief Units are stronger, 
safer, and greener. They are more durable, stackable, expandable, and 
affordable and can be converted to permanent housing. The SG Blocks 
approach is comprehensive; what makes the SG Blocks system so 
compelling resides in the sum of its parts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         ABOUT SG BLOCKS . . . 

    SG Blocks LLC is the premier provider of code-engineered cargo 
shipping containers specifically Value-Cycled<SUP>TM</SUP> to meet the 
growing demand of safe and green construction. SG Blocks capitalizes on 
the structural principles associated with the hostile dynamic life a 
shipping container is exposed to aboard ship, modifying them into 
significant building components that usually exceed building code 
requirements. The company has been the leader in establishing container 
technology for building code permitted sustainable building. SG Blocks, 
LLC management team has disciplines in structural & civil engineering, 
building codification, real estate development, management, 
architecture and intermodal logistics.

    Chairman Thompson. I will remind each Member that he or she 
will have 5 minutes to question the panel. I now recognize 
myself.
    Let me also indicate that Mr. Fugate is still here. I would 
like to acknowledge his presence.
    Ms. Gees, from the AIA standpoint, have you looked at this 
issue of temporary housing from a sustainability standpoint? 
Have you made recommendations as to what that type housing 
should consist of?
    Ms. Gees. Well, from a sustainability standpoint, the most 
important thing is to have the maximum usage be a flexibility 
of usage, being able to use a temporary housing shelter in 
multiple situations, either as temporary or potential long-
term. That is the most important thing, that you can get 
multiple use, that you do not have housing sitting there, 
waiting for that eventual emergency, but that you have use as 
much as possible.
    We have committees that are studying this, are looking at 
this, so we can get back to you in more detail specifically 
about that.
    But the other aspect, in response to your question, is that 
location of these units, looking at the work that we do with 
our communities, SDATs, the SDAT program--we have submitted 
some written testimony about that--but we have expert teams 
going into communities and looking at their overall 
infrastructure, their planning and mitigation. Also with our 
disaster assistance coordinators, we are doing the same thing.
    What we are looking at ahead of time is where you would 
place units, where you have safe areas, how you can take 
existing areas of communities that are at risk and already 
design them so they are in other locations, that they are 
elsewhere. It is really that planning ahead of time that is 
very, very important and how then those shelters fit in to that 
view, to that vision.
    Also, looking at public structures--and I will finish up 
this comment--looking at public structures that you are 
building, it used to be in the 1960s, in the past, we provided 
bomb shelters during the Cold War. I am sure everybody 
remembers that. Our public buildings had that dual usage.
    That is something to consider potentially in the future as 
we look at public buildings, that they again have that full-
time use in the event of emergency.
    Chairman Thompson. Thank you. One of the comments that the 
first panel talked about was the ability to either mass 
produce, ramp up should an emergency occur. It was based on 
what I interpreted, that the existing trailer industry, either 
travel or mobile home industry, was a better fit.
    I would just like for the record to get the three companies 
represented to see whether or not the ability to ramp up or 
mass produce would be an impediment to providing an alternative 
solution should a disaster occur for FEMA or any other entity.
    Mr. Kubley, we will start with you.
    Mr. Kubley. Thank you, Mr. Chairman.
    That is really an excellent question, and I think it goes 
to the heart of what I am hearing at this table today. You 
know, when you go into the battlefield--and I have never been 
in the service, so I am speaking as a layman--when you get out 
into the battlefield and you call in for helicopter support or 
more ammunition, you have got to know that that helicopter was 
built a long time ago and that the ammunition is right behind 
the line that you are on.
    If you wait for them to built before they bring it to you 
to help you, you are in serious trouble. That is exactly what 
these people are talking about here today, is preparing and 
planning and staging shelters before the problem happens.
    Absolutely, we can ramp up to mass production capability 
that is needed. That really is our mission and goal here today, 
Mr. Chairman, is to offer that ability and that new product, 
that new innovative product out there that has never been 
available to FEMA or any other emergency service organization 
before.
    We would suggest that the way to do it as we have proposed 
to FEMA, with my partners, AAR Global, which is a team that a 
lot of which just came from DynCorp that have hundreds of years 
of tactical military experience in responding to emergencies 
and setting up communities.
    The way to do it, sir, is to have regional warehouses in 
strategic places like, for example, on the east side of the San 
Andreas Fault, so when the big one hits Los Angeles--not if, 
but when, because that is what all the experts are predicting--
that when that San Andreas Fault gives way, you have the 
ability to move these in, in a very short order.
    With Intershelter domes, you can fly them. You can truck 
them or whatever mode of transportation is available. The other 
way to do it, sir, is to store them in containers around the 
country in all 50 States so, in a matter of 24 hours, whether 
it is a tornado, a hurricane, or an earthquake, you can have a 
facility set up within 24 hours. With our buildings, you can do 
that.
    Chairman Thompson. Thank you.
    Mr. Rininger.
    Mr. Rininger. Yes, thank you, Mr. Chairman.
    I might agree with that totally. Inventory warehousing 
alternative is the name of the game. Emergency prepared means 
you must have inventory in stock, something to draw from.
    So, if you don't mind, I will just read this paragraph that 
I skipped earlier. The transition capability that our U3 design 
offers enables going from quick response shelter status to 
intermediate temporary housing and permanent housing when 
possible. This capability will have a major effect on the 
entire effort across the board.
    Okay, note the U3 design may be used in existing sites and 
alternate sites of the host community. Once again, units will 
qualify as a permanent housing and real property, thus 
maintaining a tax base.
    Now, warehousing is--we have set up a model for you with 10 
locations, one warehouse in each one of the FEMA regions, 
totaling 5,000 what we term a Flat Pack Modular, and 5,000 
units in a Brajo Hurricane House called the U3.
    The sheltering capacity of that is 60,000 people. The 
administrative costs of that is about $5 million per year.
    Chairman Thompson. I appreciate it. But I am really trying 
just to see if you have the capacity to do it, as well as the 
suggestion you offered is excellent. I think--I even heard it 
from the last panel.
    Mr. Boasso.
    Mr. Boasso. Yes. I think Director Fugate said it very well 
earlier this morning, is that you never can be prepared 100 
percent to have every single unit available for a Katrina/Rita/
Ike event.
    But what we are proposing to you, Mr. Chairman, is a 
national fleet. You do have to have units in waiting. Using the 
intermodal industry, we could be anywhere in the United 
States--in the whole United States--in 24 hours. So if there 
was a disaster that happened of the coast of California, you 
could position those units and put them by rail and by truck 
and have them delivered.
    The same thing goes with any other State as far as one 
disaster or multiple disasters.
    I think the other part that really rings home is that we 
heard today that they spent over $100 million storing FEMA 
trailers. I can port 2,000 containers in the same footprint as 
180 FEMA trailers. So, therefore, the costs of storage, it is 
going to probably be about less than one-third of what FEMA 
currently pays today.
    But what it does, it gives you a rapid deployment fleet 
that you can bring in and move in, but also in a design that we 
have is by using the skin of a shipping container, is we have a 
modular design that could be manufactured at the current 
trailer manufacturers today and where you insert this module 
into the outer shell and secure it to the outer shell itself.
    So instead of building a trailer that is only going to last 
a year or 2 is that we could use those same people to assist us 
in ramping up production by just having them build the interior 
and inserting the module.
    Chairman Thompson. Thank you for your comments.
    One of the concerns you heard from the committee is the 
cost. We are real concerned as a committee that the present 
cost to respond is very high and the cost to maintain is very 
high.
    I think the testimony also went to the fact that even some 
of the mobile homes that we bought that we never put in use, 
because they have been sitting there over a period of time, 
there is a question as to whether or not they will really be 
able to be pressed into service. But what I have heard from you 
is that you have a product that can be reused, stored.
    Part of what I hope FEMA is doing, Mr. Fugate, is looking 
at the whole picture of what we are faced with and not focusing 
on just one particular approach. I think that is key to me.
    The other is cost is a problem, as I said, but we also have 
to have a plan. If that plan takes in the product, but also how 
we deploy, whether it can be reused, where we will put it, 
hopefully we won't put it in harm's way, but it will be as 
close as we can or there is a method to get it there. All that, 
I think, is part of that plan that I hope we will see.
    The other issue that is important to a lot of us on the 
committee is how FEMA approaches putting vulnerable populations 
who obviously are at risk. Ms. Richardson talked about a plan 
for the unemployed, but just vulnerable populations in general.
    Mr. Morse, can you tell me what concerns you might have 
around that, as well as the whole fair housing issue, in 
situations like Katrina, what you experienced?
    Mr. Morse. Yes, Mr. Chairman.
    I want to thank Mr. Fugate for staying to hear the 
remainder of the panel. That is very encouraging.
    I am a native of Gulfport. I have been through Camille and 
Katrina. I have worked after Katrina on precisely the question 
you asked. How do you solve the housing problems of vulnerable 
people?
    The experience that we saw was that, early on, the 
experience that we saw early on was that people just doubled up 
and tripled up and tried to make do. That just goes to show how 
strong people's impulse is when possible to stay where they 
already are.
    So my single strongest recommendation is to encourage 
Congress and FEMA to put into place some mechanism to repair to 
the maximum extent possible maximizing the existing housing 
that is in place, even if it is a little bit damaged. If that 
requires legislative change to enable FEMA to be able to do 
rental repair teams, I strongly encourage that to occur. As I 
mentioned in my previous testimony, there was a big missed 
opportunity there.
    I think the other problem that comes up--and it comes up 
particularly in this interim housing situation both for 
trailers or for cottages, and it would certainly come up with 
these other alternatives that the gentlemen here are talking 
about--is, there inevitably becomes an impulse to try to 
convert the interim housing to a permanent housing solution.
    When that particular model or style of housing stands out 
very strongly, it becomes a sharp target for local governments 
to resist under various pretexts. The FEMA cottage, for 
instance, Mr. Chairman, was brought in on axels. But once those 
were removed, they were indistinguishable from any stick-built 
house that you could see.
    Now, I can imagine the howls of dismay that would arise if 
someone were to try to take any of these other very interesting 
alternatives and to make them to be permanent. They are 
probably not completely intended to be permanent. Some of them 
could be modified to be doing it.
    But what it does is it makes--it paints a target on the 
back of low-income, which are predominantly minority 
populations in this Nation, and makes it very easy indirectly 
for local governments to increase the burdens of return for 
more vulnerable populations.
    So I would encourage FEMA in every step of its training of 
its case managers and in every action that it takes to increase 
its own awareness of the fair housing law requirements, 
increase the right-to-know literature given to people the 
outset so that they can spot the problems, and for FEMA and HUD 
to come up with a coordinated solution and a memorandum of 
agreement, some kind of teamwork approach that will enable 
people to solve problems like that family in Gulfport who faced 
blatant racial discrimination in a FEMA trailer, and it took 
more than 3 years for a complaint, a citizen complaint to work 
its way through the workings of the fair housing department of 
HUD.
    There has got to be a better, more expeditious answer for 
that, and I can't imagine anything more discouraging for 
somebody than to be discriminated against when they are 
starving.
    Chairman Thompson. Absolutely.
    Mr. Morse. Where is the humanity in that?
    Chairman Thompson. Well, and I think--I talked with 
Chairman Frank about that particular situation, and he is 
trying to get the agencies who were involved to come up with a 
streamlined approach.
    I think the key takeaway here is flexibility. Every issue 
and proposal I have heard ought to be an option. What might 
work in one region of the country from a temporary housing 
standpoint may or may not work.
    But what I have seen is this over-reliance on one model as 
the temporary model. I think what we have to do is broaden the 
view on what the temporary model is so that, if one of these 
tight units is acceptable in one area, it might be the way to 
go.
    But I think right now, based on what information we have 
received at the committee, it is just one model, and that is 
it. I think we need to give the director of FEMA the 
flexibility to look at community standards and other standards 
to see what is acceptable and try to ameliorate any resistance 
that may or may not happen.
    This notion of one-size-fit-all is probably not the best 
approach to take. That being said, one of the things that we 
are also concerned about--and some Members of the committee 
raised it--is whether or not these temporary units can be 
reused. If you can reuse a unit a second or third time, then 
there is a notion that costs will be reduced over time.
    Now, the question from me I guess for Ms. Gees and then to 
the industry representatives: Is that something that could be 
factored into the overall approach to looking at this as to 
reusability?
    Yes.
    Ms. Gees. Thank you, Mr. Chairman. Actually, we were just 
talking about that earlier, and there--I think there are a lot 
of ways to look at this. We almost have to turn this problem 
upside-down, but I give one example, just one of many.
    We have a real need for caring for our elderly, ailing 
parents, and the elderly. There are a lot of we have seen doing 
work in our communities. A lot of communities are adapting 
accessory unit zoning bylaws to allow accessory units to be 
added to a single-family house to care for an ailing family 
member.
    So imagine, for example, you have a community that is safe, 
that is out of harm's way of disaster, but you have a 
possibility of adding a mobile accessory unit that could be 
used for an ailing senior as they transition to more extended 
care or could be used for a family after a disaster that needs 
to be relocated on a temporary basis. That is one example of 
flexibility that is possible and that I think is really 
important to look at. There are many others.
    Chairman Thompson. Thank you.
    What about just the notion from the industry people of 
reusability, either for another disaster or some other form 
that the Government might have?
    Mr. Kubley.
    Mr. Kubley. Thank you very much.
    First of all, I would like to express my appreciation for 
Ms. Gees' comments today. I think she has hit a lot of the 
really important things right on the head. As far as 
practicality, comfort, durability, versatility, and we agree. 
That is absolutely essential in whatever shelters they use.
    The Intershelter Force 5 domes can be used for first 
responders, for communication centers, for MASCAL triage 
centers. One of the things that we heard over and over again 
today, Mr. Chairman, was the desire to have something that 
allows people to remain as a family unit near their neighbors, 
in their communities, and near their clergy, and the folks they 
know. They have already been through enough trauma.
    With our units, they could drive down the street, kick down 
enough dome space for each family to use, and the family 
themselves can put up their own houses. They can remain as a 
family unit. They can stay with their friends and neighbors. 
They can supervise the rebuilding or repairing at their homes. 
They can protect what few belongings they have left on Earth, 
instead of being taken away and stuck in a Superdome or in some 
tent city in an army camp somewhere.
    Being able to stay together as a family unit is crucial in 
the healing process. Once the disaster is over, once their 
houses are repaired, our units can break down in less than an 
hour. You power-wash them off. You disassemble them. You put 
them back in their creates, and you can warehouse them until 
the next hurricane for the next 10 hurricanes.
    These can be reused over and over and over again, which, of 
course, dramatically cuts the cost of the unit. I think that is 
an important factor.
    Chairman Thompson. Mr. Rininger.
    Mr. Rininger. Thank you, Mr. Chairman. I agree totally. Our 
units can be used over--oh, excuse me.
    Thank you, Mr. Chairman. Our units can be used over and 
over again, as well. They can also be changed in their initial 
configuration. While they start out as a quick response shelter 
and at that pricing level--and I think it is about $19,000 
grand, actually--they can also be expanded into intermediate 
and permanent housing, which helps your tax base or maintains 
your tax base as a local government.
    They can also be changed in configuration. We have what we 
call H houses, T houses, L-shaped houses, where you take one, 
two or three units and add them together to make a larger 
square footage to meet the need. Larger families need larger 
square footages and so forth.
    So, yes, reusability in any number of ways, certainly. We 
can do that. It is a must to have that flexibility that you 
mention.
    Thank you.
    Chairman Thompson. Mr. Boasso.
    Mr. Boasso. Mr. Chairman, in the container industry, the 
average expected life of a container is 15 years old. So, 
therefore, we should have no problems for 15 years.
    Now, the cost of our unit is going to be much cheaper. We 
figure around a $30,000 range for a family of six. For a 
couple, our 20-foot module will probably be around a $20,000 
range.
    But one thing please consider with our units is that FEMA 
will not have to ever buy electrical poles again or do the 
stair construction that is needed because we will be able to 
take care of it all in the unit itself. It will have the air 
conditioning, the heat, the ventilation system, the telephones, 
the washer-dryer, the sewer connectivity.
    So all of those pieces are so important for these people 
trying to re-establish their life. The part that we missed 
during Katrina, Rita and Ike will now be available in this unit 
itself.
    One thing I kind of want to make clear is that there are 
several types. For the rental people, they have to have a 
different situation. But you have people that would just love 
to go back in front of their home, that they can get--start 
working on cleaning their home out and rebuilding it.
    That is what we were up against because we couldn't get the 
FEMA trailers quick enough. So, therefore, you lost those 
family units. Then, in those FEMA trailers that we had to deal 
with, I had one family that had three of them because they 
couldn't fit their whole family in one unit.
    So, therefore, the cost, the durability, and this is 
factual knowledge, as far as how long it lasts in the industry 
itself, and the way the financial markets look at it, so 15 
years should be no problem.
    Chairman Thompson. Thank you very much.
    One of the reasons for having this hearing is the wide 
range of costs associated with this. We want to help our new 
FEMA director with coming up with that housing plan. If we can 
get a plan that includes flexibility and some of the other 
things we have heard, I am convinced that we will be in a 
better position to respond to whatever the emergency might be.
    But I do want to make sure that we have given as much 
foresight to ingenuity and flexibility. We had a number of 
staff members go up to Emmitsburg, and they were a little 
concerned that it was still headed in one direction, and that 
flexibility that we are talking about is not there. So we will 
be talking with our FEMA director about that flexibility, 
because we think it is really needed in this instance.
    Ms. Clarke, I see you have joined us. We will give you the 
benefit of as much time as you need.
    Ms. Clarke. Thank you very much, Mr. Chairman. I won't take 
up a whole lot of time, and my questions will be submitted to 
the record.
    But this is a very important issue. Our ability to have 
resilience in recovery after a natural or manmade disaster will 
speak to a whole lot of what our civil society has evolved 
into. Right now, from where I sit, we are not quite there yet.
    So I wanted to just follow up on a question that the 
Chairman just asked, and I am going to ask this of Mr. Morse. 
Mr. Morse, private groups had to sue FEMA to make its housing 
accessible to people with disabilities and had to return to 
court numerous times after FEMA failed to comply.
    The Brou v. FEMA lawsuit filed on behalf of Katrina 
evacuees who needed emergency housing that was accessible to 
people in wheelchairs or other mobility limitation illustrates 
FEMA's complete failure, in my assessment, to address the 
particular housing needs of people with disabilities.
    Attorneys involved in the case have reported that, even 
after the settlement, it was necessary to go back to court 
repeatedly to get FEMA to fulfill the terms of the settlement 
agreement. It is not clear at all that the measures put in 
place as a result of the suit have resulted in institutional 
changes at FEMA that will prevent or at least minimize such 
problems in future disasters.
    Let me ask: Do you know of any steps that FEMA has taken to 
make permanent changes to access to housing for people with 
disabilities in response to Brou v. FEMA lawsuit brought by 
private groups following Hurricane Katrina?
    Mr. Morse. Thank you. I was local counsel in the Brou case, 
and I was, you know, pretty closely involved in the initial 
part of that litigation and then also in the follow-up, once 
the settlement was achieved and FEMA agreed to order 10 percent 
of its temporary housing units to comply with the uniform 
Federal accessibility standards and put into place some other 
mechanisms to ensure people with disabilities had the necessary 
access.
    We discovered that, at that final compliance stage, we were 
coming upon situations where access--and this is in 2007, I 
would think it would be--where steps that were part of a 2006 
settlement were only at the very last minute getting done in 
2007.
    So, you know, it is just one other facet of what was a, you 
know, massively dysfunctional FEMA response under that 
leadership. I do believe and hope that we will see a lot 
greater responsibility out of the current director of FEMA.
    I read the 2009 plan looking for very specific information 
about disability access, because it is so important, and I may 
have overlooked it, but I didn't see a specific, discrete set 
of recommendations that seem to step from Brou, so I would hope 
that either I have overlooked it or else, if I haven't, that 
that gets incorporated into further refinements of that 2009 
plan.
    It was also not just a problem with FEMA. The alternative 
housing pilot program that Mississippi carried out--and it was 
the first to roll its own out--had a small percentage of its 
units that were ADA-compliant. What we discovered was that over 
a third of the households in those cottage programs had people 
with disabilities.
    So it is going to be an important characteristic of the 
population to be served in these settings.
    There is one other thing. As I understand it, there is, in 
2008, October 2008, the U.S. Access Board, Federal Advisory 
Committee released a report with some detailed recommendations 
on how to do better. So this may be one of these opportunities 
where some really good technical work is readily available for 
FEMA to plug into other plans that it is carrying out, and the 
details about that are on page 7 of my written testimony.
    Thank you.
    Ms. Clarke. Thank you very much, Mr. Morse.
    I would like to recommend, Mr. Chairman, that we look at 
the--whether, in fact, the plan does specifically indicate the 
steps that must be taken to address the persons with 
disabilities and enabling them to access temporary housing and 
shelter.
    Just to say to the innovators at the panel that, as you, 
you know, roll out your new units, that, again, this is 
something that you may want to be cognizant of, that, you know, 
our population is very diverse. When disaster hits, it hits 
everyone equally. We need not look at our citizenry as 
monolithic. We will have to look at the nuances in order to 
make sure that we are meeting the needs of all Americans.
    So I want to thank you for the work that you are doing, but 
I would encourage you to be as innovative as possible in the 
work that you do and recognize those nuances as we look to be 
prepared in the event of future disaster in our Nation.
    Mr. Chairman, I want to thank you for holding this hearing, 
and I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    I guess the question for the companies: Is there any 
problem with your units being handicap-accessible or complying 
with the Americans with Disability requirements?
    Mr. Kubley. Mr. Chairman, absolutely not. We are planning 
on responding and being able to be totally handicap-accessible.
    Chairman Thompson. Mr. Rininger.
    Mr. Rininger. Mr. Chairman, once again, absolutely not. We 
are handicap-accessible, absolutely.
    Mr. Boasso. Not a problem whatsoever. As being a veteran of 
those storms, we know the problems that need to be fixed.
    Chairman Thompson. Thank you very much.
    I want to thank our witnesses for their valuable testimony 
and the Members for their questions. Before concluding, I would 
like to remind our second panel of witnesses that the Members 
of the committee may have additional questions for you, and we 
will ask you to respond expeditiously in writing to those 
questions.
    There being no further business, the committee stands 
adjourned.
    [Whereupon, at 1:41 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairman Bennie G. Thompson of Mississippi for W. Craig 
Fugate, Administrator, Federal Emergency Management Agency, Department 
                          of Homeland Security

    Question 1. The National Disaster Housing Strategy states that FEMA 
will consider the use of permanent housing solutions in the wake of 
future catastrophes. However, FEMA's recent contracting activities 
suggest that FEMA is continuing its use of manufactured homes and 
travel trailers. In the aftermath of a catastrophic event in which a 
large amount of the housing stock is destroyed or severely damaged, 
what extended and long-term housing options are a part of the FEMA 
housing strategy?
    Answer. FEMA will continue to use manufactured homes and other 
traditional forms of temporary housing units because they are readily 
available, livable, and enable FEMA to house disaster survivors within 
close proximity to their homes and communities. The majority of 
temporary housing units FEMA provides are placed on private sites, such 
as the disaster survivor's property. Many private sites require a unit 
with a smaller footprint, such as a park model or, when a State agrees 
and the need for temporary housing is expected to last for 6 months or 
less, a travel trailer. Manufactured homes, as discussed in the 
Strategy, can be used for prolonged interim housing needs and can be 
relatively easily converted to a permanent housing solution when 
appropriate.
    FEMA will continue to work with its Federal partners to assist 
disaster survivors most in need of assistance to transition to a 
sustainable housing situation independent of Federal disaster 
assistance. FEMA may, in response to a catastrophic event, consider 
authorizing semi-permanent or permanent construction in coordination 
with HUD and the affected State, when all other forms of interim 
housing are unavailable, infeasible, or not cost-effective.
    Question 2. According to GAO and DHS OIG studies, FEMA spends about 
$30,000 per 280-square-foot travel trailer. According to their 
manufacturers, these travel trailers are intended for short-term use. 
Has FEMA explored sustainable housing options that may be available at 
a comparable price?
    Answer. FEMA only utilizes temporary housing units if existing 
housing alternatives, such as rental resources, are unavailable. When 
temporary housing units are appropriate, FEMA will first employ 
manufactured housing units (often called ``mobile homes'') or park 
models. FEMA recognizes the limited usage of travel trailers beyond the 
short-term. Accordingly, FEMA will only authorize the use of travel 
trailers at the request of the State when the need for temporary 
housing is for 6 months or less. Disaster survivors who are likely to 
require temporary housing assistance beyond 6 months are referred to a 
more appropriate form of housing assistance.
    FEMA continuously conducts market research in efforts to identify 
the most cost-effective forms of temporary housing. This on-going 
market research includes, but is not limited to, FEMA's Joint Housing 
Solutions Group initiative. FEMA is currently testing prototype units 
that have been installed at our National Emergency Training Center, to 
monitor and evaluate unit quality and durability as students occupy 
these units throughout the year. The JHSG will use the information 
gathered in this evaluation period to assess the suitability of each of 
unit for use in future disaster housing operations.
    Question 3. FEMA is currently awarding manufactured housing 
contracts with terms that guarantee a minimum purchase of 100 units. 
While pre-positioning these contracts may be helpful in a catastrophic 
event, has FEMA considered similar pre-positioned contracts with 
alternative housing manufacturers?
    Why has FEMA emphasized the role of traditional manufactured units?
    To what extent has FEMA examined the potential benefits of existing 
non-traditional housing units?
    Answer. FEMA's contracts for alternative housing are pre-positioned 
similar to the manufactured housing contracts. FEMA's minimum purchase 
for the alternative housing unit contracts is one unit per vendor, with 
the capacity to order an additional 999 units per vendor.
    Traditional temporary housing units are generally able to be 
procured relatively quickly due to the existing production 
infrastructure supporting the private market. These forms of temporary 
housing units have been utilized successfully for temporary housing for 
many years. Alternative forms of temporary housing units, by 
comparison, have varying degrees of production capabilities, and have 
not been previously used for extended periods of occupancy in any 
substantial quantities. Some forms of alternative housing units pose 
unique delivery and installation challenges, whereas there is an 
existing private market for delivery and installation of traditional 
forms of temporary housing units.
    FEMA is currently evaluating these aspects of alternative housing 
units, and other concerns, in our pilot assessment at NETC. FEMA is 
also in the process of soliciting a second round of alternative housing 
unit contracts, and intends to conduct a similar pilot for vendors who 
are awarded the second round contracts.
    Question 4. It is my understanding that FEMA has exercised the 
option to purchase over two dozen units from a manufacturer of an 
alternative housing model currently being tested at the National 
Emergency Training Center (NETC) at Emmitsburg, MD. If so, please 
provide a written rationale for the decision to purchase prior to the 
conclusion of the pilot testing process. Additionally, please provide 
the final score and assessment for each unit included in the NETC pilot 
program. If the units chosen were not the highest scoring units, please 
provide the results of all units examined for inclusion in the pilot.
    Answer. FEMA purchased 30 housing units from one of our alternative 
housing unit vendors, D&D, for use following Hurricane Ike. FEMA 
considered greater use of alternative housing unit supply contracts due 
to supply concerns but was able to meet the needs of the operation with 
traditional housing units. However, FEMA took the opportunity to test 
these units on a limited basis. The Task Order for the delivery and 
installation of the 30 temporary housing units was competed among each 
of the vendors awarded with alternative housing unit contracts. The 
evaluation criteria utilized for this competitive award was determined 
by the operational picture for the event. D&D's proposal was determined 
to best meet FEMA's requirements. FEMA's assessment of alternative 
housing units at NETC is still underway, and has not been completed. 
The assessment does not utilize a quantitative, numeric scoring system. 
Units are evaluated through a qualitative rating system based on speed 
of delivery and installation, safety, quality, and cost-effectiveness.
    Question 5. In November 2007, GAO outlined numerous deficiencies 
involving FEMA's 2005 housing contract awards and oversight processes. 
This prompted FEMA to articulate a new contracting process that is 
designed to ``engage local small, minority, and small disadvantaged 
businesses.'' What specific steps has FEMA taken to maximize the role 
of local, minority, and small disadvantaged businesses in the housing 
process?
    Answer. Since November 2007 FEMA leadership and acquisition have 
made significant improvements in the manner in which they procure 
housing for their customers. Currently our national Individual 
Assistance--Technical Assistance Contracts (IA-TAC), are used for the 
initial set-up for temporary housing units unless there is sufficient 
time to do a local business set-aside as we did in Arkansas. We then 
conduct local area set-aside competitions, consistent with the Federal 
Acquisition Regulation (FAR), for the on-going maintenance and 
deactivation of all temporary housing units. These competitions are 
done at each Joint Field Office (JFO) or at the responsible FEMA 
Region.
    FEMA recently issued a solicitation valued at nearly $500,000,000 
to purchase up to 67,000 park model and manufactured homes from small 
business set-aside procurement. This solicitation will close on August 
7, 2009. FEMA intends to award up to three contracts for Park Models 
(PM) and up to three contracts for Manufactured Homes (MH), although 
the number of awards could change depending on the proposals received.
    FEMA has awarded seven contracts for the purchase of alternative 
housing, of which six went to small businesses. This procurement was 
solicited as a Full and Open Competition, but the majority of the 
awardees are small businesses under the current North American Industry 
Classification System (NAICS) Code. One of the six small businesses was 
determined to be in a Hub-zone small business.
    FEMA continues to negotiate subcontract opportunities in all its 
large contracts to ensure that the small business and local small 
business subcontracting goals are an integral part of the contract, and 
that the goals are aggressive. FEMA has strengthened its subcontracting 
goals by incorporating the results of the subcontract plans with small 
businesses as a review and evaluation factors in the exercise of future 
option periods. FEMA and its managers at all levels are utilizing the 
Stafford Act to use local small businesses to the maximum extent 
possible. We understand the need and urgency of revitalizing the local 
economy as quickly as possible and will continue to seek innovative 
ways to comply with the Stafford Act, DHS goals, and the Federal 
Acquisition Regulation.
    Question 6. To date, during the contract process it seems that the 
central economic consideration for FEMA has been the cost per housing 
unit. However, Katrina and Rita exhibited nontrivial expenses 
attributable to refurbishment, storage, and disposal of used FEMA 
housing units. In light of this, it seems that the cost-benefit 
calculus of FEMA's contract process should include these expenses.
    To what extent does FEMA consider refurbishment, storage, and 
disposal expenses during the contract process?
    What other factors weigh into FEMA's consideration of costs?
    Do sustainability, flexibility, and the potential to re-use units 
impact FEMA's decision-making process?
    Answer. FEMA considers the total lifecycle costs in the management 
of its disaster housing operations. FEMA has addressed these concerns 
by partnering with HUD and private industry groups to develop 
``ruggedized'' specifications which exceed commercial market standards 
for durability during storage and multiple deliveries and 
installations.
    FEMA requires vendors who are awarded supply contracts to provide 
storage instructions in order to minimize costs associated with unit 
damage or deterioration while in storage. FEMA has also investigated 
including vendor-managed storage of the temporary housing units in 
supply contracts, but did not receive sufficient interest from industry 
to incorporate that capability into the contracts.
    FEMA utilizes a ``best value'' approach to temporary housing unit 
procurements, which means that cost is only one factor taken in to 
consideration. FEMA also considers the offeror's ability to meet or 
exceed FEMA's specifications, conform to FEMA's indoor air quality 
testing protocol, and their ability to produce and deliver housing 
units. The production and delivery capabilities are evaluated on volume 
as well as ramp-up time. FEMA also considers the offeror's ability to 
correct deficiencies and provide timely warranty services.
    Sustainability, flexibility, and the potential to re-use units do 
impact FEMA's decisionmaking process. These factors are addressed 
during the requirements phase of the procurement for manufactured 
homes, park models, and travel trailers. Reusability, sustainability, 
and adaptability also are criteria that FEMA's Joint Housing Solutions 
Group utilizes in the assessment of potential alternative forms of 
temporary housing units and are incorporated in FEMA's requirements 
documents for alternative housing units.
    Question 7. In February 2009, the Senate Homeland Security and 
Governmental Affairs Disaster Recovery Subcommittee provided details of 
a 9-month investigation on the Katrina housing response with analysis 
of what went wrong and a blueprint for reform moving forward. The 
report noted that in February 2009 FEMA had over 100,000 manufactured 
housing units ``not ready for dispatch'' in inventory at a cost of 
approximately $100 million a year.
    What does ``not ready for dispatch'' mean and how did these units 
get in that condition?
    What has been done to reduce this inventory?
    What changes in procurement have been put into place that reduce 
FEMA's storage and maintenance costs for this inventory?
    Answer. ``Not ready for dispatch'' means the unit is not mission-
capable for shipment to support a disaster mission. Units are 
determined Ready for Dispatch (RFD) based on routine maintenance 
requirements (i.e., replacing tires and axles, fixing water intrusion 
and roof leaks) while in storage, or immediately following road 
transport.
    FEMA has developed a fiscally responsible inventory reduction plan 
to dispose of unsuitable temporary housing units that are located at 
FEMA staging sites throughout the United States. As of this date, FEMA 
has disposed of 7,355 temporary housing units since Hurricanes Katrina 
and Rita through sales and donations. The majority of units are being 
disposed of through the process outlined in the Federal Management 
Regulation (FMR), 41 CFR 102 (Personal Property) in a coordinated 
effort with the General Services Administration (GSA), FEMA's agent for 
disposal actions. The GSA ensures that the units offered through their 
Utilization and Donation program are reused for the public good--such 
as public health, education, and parks. In addition, 1,364 surplus 
unused housing units were also transferred to Tribal governments, as 
directed by the Post Katrina Emergency Management Reform Act.
    FEMA plans to manage its procurement of units to keep the RFD 
inventory at a baseline level of 4,000 units; to be housed at three THU 
readiness sites. FEMA has an inventory management plan in place that 
allows the housing units to be fully utilized before their life-cycle 
is over, and allows FEMA to maintain a smaller inventory of temporary 
housing units in storage for disaster response. As units are 
deactivated, the first priority is to sell them to the current occupant 
as permanent housing. If the unit isn't sold at deactivation a 
determination is made whether it can be recovered to a THU site for 
refurbishment and returned to RFD status. If the unit cannot be 
returned to RFD status it is sold via the GSA sale process. If the unit 
can be recovered and made suitable again, it is refurbished and placed 
back in the RFD inventory for reissue. As the Katrina/Rita excess 
inventory is disposed of, the THU RFD inventory will consist only of 
the 4,000 units stored at the three readiness sites.
    Question 8. What involvement, if any, has HUD had in the evaluation 
and implementation of alternative housing solutions other than 
manufactured housing?
    Answer. HUD is a charter member of FEMA's Joint Housing Solutions 
Group and has been involved throughout FEMA's efforts to identify, 
evaluate, and implement alternative forms of temporary housing. HUD 
personnel accompany FEMA employees and contractors to conduct field 
assessments of alternative housing units, and have assisted FEMA with 
the procurement of alternative housing unit contracts by participating 
on the source selection board.
    Question 9. The National Disaster Housing Strategy addresses the 
development of performance specifications and a procurement and pilot 
program for new alternative housing units. What performance 
specifications have been introduced that promote the use of alternative 
housing options?
    Answer. FEMA's Joint Housing Solutions Group developed performance 
specifications establishing baseline requirements and functional 
criteria for the purpose of assisting FEMA with the procurement of 
alternative forms of temporary housing. These performance 
specifications were used in FEMA's alternative housing procurement and 
have been revisited for the upcoming second round of alternative 
housing units. FEMA's specifications and procurement process are 
intended to allow offerors as much room as possible to develop 
innovative solutions to FEMA's baseline requirements, rather than 
having to adhere to rigid and detailed specifications. However, 
alternative housing units must meet or exceed the same safety and air 
quality standards as FEMA's traditional forms of temporary housing 
units.
    Question 10. The mass devastation caused by Katrina profiled the 
need for a comprehensive and collaborated disaster response, extending 
beyond the capability or capacity of FEMA. As the primary authority on 
disaster response, how does FEMA plan to engage local, State, Federal 
and private-sector entities to efficiently prepare for post-disaster 
housing needs?
    Answer. The National Disaster Housing Strategy underscores that all 
organizations involved in disaster housing must conduct joint planning 
to address housing needs, engage appropriate stakeholders, identify a 
range of options, describe how those options would be implemented, and 
identify the necessary resources. As stated in the Strategy, the 
primary vehicles for engaging local, State, Federal, and private-sector 
entities in the delivery of post-disaster housing needs is through the 
National Disaster Housing Task Force, as well as individual State-led 
Disaster Housing Task Forces and FEMA's National Advisory Council.
    State-led Disaster Housing Task Force.--States are encouraged to 
form a standing task force of disaster housing experts, whose objective 
is to monitor the status of the housing market in advance of a disaster 
and be prepared to make informed recommendations in the event of a 
disaster requiring a housing mission. The task force is intended to 
bring together State, Tribal, local, Federal, non-governmental, and 
private sector expertise to evaluate housing requirements, consider 
potential solutions, and propose recommendations, some of which may 
require national level concurrence or engagement. States are also 
encouraged to include disability organizations and advocacy groups on 
the Task Force to provide advice regarding housing requirements for 
those with special needs or limited English proficiency.
    FEMA is working through its Regional Offices to assist States in 
establishing State-led task forces.
    National Disaster Housing Task Force.--The National Disaster 
Housing Task Force will, during the response to a major incident that 
requires a significant housing effort, provide technical expertise and 
advice to the Joint Field Office and the State-led Disaster Housing 
Task Force. This assistance may include deploying liaisons or teams to 
affected States to help develop and tailor Federal disaster housing 
plans to meet the needs of the particular event. In this role, Federal 
representatives on the National Task Force will work with and support 
established FEMA field operations and structures, as well as directly 
with State-led Disaster Housing Task Forces.
    A draft implementation plan for the National Disaster Housing Task 
Force is currently posted for partner comment. Once finalized, this 
implementation plan will outline task force goals and milestones which 
will include the development of expanded resources for State partners 
to assist in the identification and delivery of appropriate housing 
resources.
    Question 11. Has there been any collaboration with HUD on how to 
best transition from interim housing to permanent affordable 
structures? If so, please provide a narrative explaining the nature of 
the collaboration and provide copies of any documents that may have 
resulted from the collaborative effort.
    Answer. The coordination of FEMA and HUD disaster recovery housing 
assistance is outlined in the National Disaster Housing Strategy. 
FEMA's and HUD's roles in the delivery of disaster housing will vary, 
depending on support requirements identified by the impacted State, as 
well as the scope of damage to local housing stock and rental 
resources. Under the Strategy, FEMA and HUD will partner to provide 
Federal interim housing assistance, each bringing its expertise and 
experience to bear. When Federal permanent housing assistance is 
needed, HUD will have the lead responsibility under this Strategy, and 
will coordinate with its partners to provide housing and community 
development resources.
    The disaster housing operational roles of FEMA and HUD are further 
articulated in FEMA's 2009 Disaster Housing Plan. The Disaster Housing 
Plan was released on April 21, 2009, and outlines new concepts in 
disaster housing, enhanced roles for Federal, State, and local 
partners, as well as expanded choices in disaster housing, and improved 
health and safety requirements. Specific roles for HUD include 
supporting the implementation of financial assistance for rent and 
their role in the construction of permanent and semi-permanent housing.
    In addition, FEMA and HUD have partnered to implement the Disaster 
Housing Assistance Program (DHAP) in response to Hurricanes Katrina, 
Rita, Gustav, and Ike. FEMA and HUD are currently reviewing DHAP 
lessons learned to develop a standing Interagency Agreement that could 
be used to administer and implement DHAP on future disasters as 
disaster housing needs dictate. This standing authority would allow 
both FEMA and HUD to have plans in place to effectively coordinate DHAP 
implementation.
    Question 12. In addition, have FEMA and HUD determined what Federal 
entity is responsible for recovery costs associated with the repair HUD 
housing units in the wake of a major disaster declaration?
    Answer. FEMA could not previously provide permanent repair 
assistance to HUD Public Housing Authorities (PHAs) because of section 
9(k) of the Housing and Economy Recovery Act of 1937 and a set-aside 
appropriation in the Public Housing Capital Fund for PHA repairs 
necessitated by a disaster. Section 9(k) of the Housing Act, was 
repealed, effective July 30, 2008, by the Housing and Economic Recovery 
Act of 2008. Congress also eliminated the set-aside in the fiscal year 
2009 HUD appropriations legislation, which was passed as part of the 
Omnibus Appropriations Act on March 11, 2009, retroactive to October 1, 
2008. PHAs are now eligible for permanent repair funding from FEMA 
under the Public Assistance Program. FEMA is currently updating the 
Public Assistance policy on assistance to PHAs to reflect the change in 
the law.

  Questions From Honorable Yvette D. Clarke of New York for W. Craig 
Fugate, Administrator, Federal Emergency Management Agency, Department 
                          of Homeland Security

    Question 1a. Mr. Fugate, after Hurricane Katrina, FEMA did not 
provide any information to people who had been displaced, including 
people to whom it was providing housing assistance, about their fair 
housing rights, how to recognize discrimination, or what to do if they 
encountered it. Instead, private fair housing groups had to step in, 
without assistance from FEMA, to address this issue. In addition, in 
the immediate aftermath of Katrina, FEMA sponsored a Web site 
containing discriminatory ads that were illegal under the Fair Housing 
Act. It also has no system to address fair housing complaints. 
Currently, the National Disaster Housing Strategy does not mention any 
of these housing issues.
    What has FEMA done to carry out its fair housing responsibilities?
    How does FEMA ensure that its staff and contractors do not 
discriminate?
    What does FEMA do if discrimination is reported?
    How does FEMA intend to address issues of housing discrimination in 
the event of another disaster?
    Answer. Section 308 of the Stafford Act protects individuals from 
discrimination on the basis of their race, color, religion, 
nationality, sex, age, or economic status in all disaster assistance 
programs. Section 309 of the Stafford Act applies these non-
discrimination provisions to all private relief organizations 
participating in the response and recovery effort.
    FEMA has addressed its responsibilities through:
  <bullet> Incorporating language in all Memorandums of Understanding, 
        Interagency Agreements, and contracts with other Federal 
        agencies, States, organizations, and contractors who are 
        assisting FEMA with housing disaster survivors.
  <bullet> Informing disaster survivors of their rights both in oral 
        and written communications.
  <bullet> Mandatory annual Title VI and Title VII anti-discrimination 
        training. Deployed Equal Rights Officers conduct this training 
        at the JFO for DAEs; and FEMA has on-line training for 
        employees and supervisors.
  <bullet> While this training is not specific to housing, it does 
        raise the awareness of the staff to the issues of 
        discrimination and FEMA's commitment to non-discrimination. 
        Consideration will be given to:
    <bullet> including some housing discrimination information in the 
            mandatory training;
    <bullet> including written anti-discrimination information from HUD 
            in the JFO and DRC locations; and
    <bullet> providing a link to HUD's housing discrimination office on 
            FEMA Web site.
  <bullet> Deployed Equal Rights Officers participate on the JFO 
        disaster housing group during disasters to provide input about 
        non-discrimination in FEMA housing efforts.
  <bullet> Housing Inspection Contractors provide sensitivity and 
        conduct training for inspectors. Additionally, FEMA's 
        Inspection Services works closely with Equal Rights Officers in 
        the Joint Field Offices and HQ on any related discriminatory 
        complaint filed against an inspector.
    FEMA also informs disaster survivors of their rights both in oral 
and written communications. Page 2 of ``Help After a Disaster'' (FEMA 
publication 545) includes a section on ``Your Civil Rights and Disaster 
Assistance,'' where FEMA informs applicants of their rights:

``The Robert T. Stafford Disaster Relief and Emergency Assistance Act 
(Stafford Act) is the law that authorizes Federal assistance when the 
President declares a State to be a disaster area. Section 308 of the 
Stafford Act protects individuals from discrimination on the basis of 
their race, color, religion, nationality, sex, age, or economic status 
in all disaster assistance programs. Section 309 of the Stafford Act 
applies these non-discrimination provisions to all private relief 
organizations participating in the response and recovery effort.

In addition, Title VI of the Civil Rights Act of 1964 also protects 
individuals from discrimination on the basis of their race, color, or 
national origin in programs that receive Federal financial assistance. 
Section 504 of the Rehabilitation Act of 1973 is a Federal law that 
protects individuals with disabilities from discrimination in all 
programs receiving funds from the Federal Government or operated by the 
Federal Government. Section 508 of that law prohibits discrimination 
against persons with disabilities in regard to federally operated 
technology systems.''

    Question 1b. How does FEMA ensure that its staff and contractors do 
not discriminate?
    Answer. Inspection Services takes each complaint seriously and 
tracks an inspectors' complaint history. FEMA works closely with the 
contractors to address every complaint, discriminatory or not, and 
based on the outcome of the investigation FEMA works with the 
contractor to determine continual inspector employment.
    Question 1c. What does FEMA do if discrimination is reported?
    Answer. When Title VI or Title VII discrimination is reported to 
the Office of Equal Rights or to the deployed Equal Rights Officers 
those cases are processed through established FEMA complaint processes. 
Since, by law, HUD has the responsibility for processing cases of 
housing discrimination; survivors alleging housing discrimination are 
referred to HUD.
    NPSC employees and call center contractors receive training on the 
procedures for reporting Civil Rights complaints that are reported to 
them by applicants. Guidance on reporting Civil Rights complaints is 
also posted on the Individual Assistance intranet sites. http://
ia.fema.net/contents/bpas/benefits/documentation/
civilrightshelplineguidance.pdf.
    The procedure for NPSC employees and contractors is to report all 
alleged Civil Rights violations, regardless of the agency or business 
involved, directly to FEMA's Office of Equal Rights. NPSC employees are 
also provided with a phone number to give applicants who insist on 
speaking with an Equal Rights Officer directly.
    Question 1d. How does FEMA intend to address issues of housing 
discrimination in the event of another disaster?
    Answer. In addition to staff training, FEMA's Office of Equal 
Rights will seek to work collaboratively with HUD's Office of Fair 
Housing and Equal Opportunity to ensure that information regarding 
housing discrimination is made available to disaster survivors and 
develop a protocol for coordinating the processing of housing 
discrimination complaints. Also, language regarding non-discrimination 
in housing will be considered for inclusion in appropriate documents, 
contracts and agreements related to housing.
    Question 2. Mr. Fugate, in 2007, GAO outlined numerous deficiencies 
involving FEMA's 2005 housing contract awards and oversight processes. 
This prompted FEMA to articulate a new contracting process that is 
designed to ``engage local small, minority and small disadvantaged 
businesses.'' What specific steps has FEMA taken to maximize the role 
of local, minority, and small disadvantaged businesses?
    Answer. Since November 2007 FEMA leadership and acquisition have 
made significant improvements in the manner in which they procure 
housing for their customers. Currently our national Individual 
Assistance--Technical Assistance Contracts (IA-TAC), are used to do 
initial set up for temporary housing units unless there is sufficient 
time to do a local business set-aside as we did in Arkansas. We then 
conduct local area set-aside competitions, consistent with the Federal 
Acquisition Regulation (FAR), for the on-going maintenance and 
deactivation of all temporary housing units. These competitions are 
done at each Joint Field Office (JFO) or at the responsible FEMA 
Region.
    FEMA recently issued a solicitation valued at nearly $500,000,000 
to purchase up to 67,000 park model and manufactured homes from small 
business set-aside procurement. This solicitation will close on August 
7, 2009. FEMA intends to award up to three contracts for Park Models 
(PM) and up to three contracts for Manufactured Homes (MH), although 
the number of awards could change depending on the proposals received.
    FEMA has awarded seven contracts for the purchase of alternative 
housing, of which six went to small businesses. This procurement was 
solicited as a Full and Open Competition, but the majority of the 
awardees are small businesses under the current North American Industry 
Classification System (NAICS) Code. One of the six small businesses was 
determined to be in a Hub-zone small business.
    FEMA continues to negotiate subcontract opportunities in all its 
large contracts to ensure that the small business and local small 
business subcontracting goals are an integral part of the contract, and 
that the goals are aggressive. FEMA has strengthened its subcontracting 
goals by incorporating the results of the subcontract plans with small 
businesses as a review and evaluation factor in the exercise of future 
option periods. FEMA and its managers at all levels are utilizing the 
Stafford Act to use local small businesses to the maximum extend 
possible. We understand the need and urgency of revitalizing the local 
economy as quickly as possible and will continue to seek innovative 
ways to comply with the Stafford Act, DHS goals, and the Federal 
Acquisition Regulation.
    Question 3. Mr. Fugate, private groups had to sue FEMA to make its 
housing accessible to people with disabilities--and had to return to 
court numerous times after FEMA failed to comply. The Brou v. FEMA 
lawsuit, filed on behalf of Katrina evacuees who needed emergency 
housing that was accessible to people in wheelchairs or with other 
mobility limitations, illustrates FEMA's complete failure to address 
the particular housing needs of people with disabilities. Attorneys 
involved in the case have reported that, even after the settlement, it 
was necessary to go back to court repeatedly to get FEMA to fulfill the 
terms of the settlement agreement. It is not clear at all that the 
measures put in place as the result of that suit have resulted in 
institutional changes at FEMA that will prevent, or at least minimize, 
such problems in a future disaster. What steps has FEMA taken to make 
permanent changes to access to housing for people with disabilities in 
response to the Brou v. FEMA lawsuit brought by private groups 
following Hurricane Katrina?
    Answer. FEMA has made institutional changes to ensure temporary 
housing assistance is available for disaster survivors with mobility 
and sensory limitations, as well as other accessibility needs. Specific 
actions include the following:
  <bullet> FEMA has established a strong partnership with the U.S. 
        Access Board on a number of accessibility issues related to 
        disaster housing, and has developed manufactured home and park 
        model specifications which comply with the Uniform Federal 
        Accessibility Standards (UFAS). Some of FEMA's travel trailer 
        and alternative housing vendors have also developed UFAS-
        compliant designs for their units.
  <bullet> Established a policy to provide the necessary guidance for 
        identifying eligible disaster survivors with accessibility 
        needs, the accommodations required to meet their needs, and the 
        steps necessary to ensure FEMA retains the resources necessary 
        to meet those needs.
  <bullet> Incorporating new policies and procedures, and information 
        on the UFAS standards have also been incorporated into FEMA's 
        training program for disaster housing managers in the field.

   Question From Honorable Dina Titus of Nevada for W. Craig Fugate, 
   Administrator, Federal Emergency Management Agency, Department of 
                           Homeland Security

    Question. As you continue these efforts, I am interested in 
learning more regarding your efforts to prepare for disasters in places 
like Las Vegas. Unlike many cities in the Gulf Coast Region, Las Vegas 
is not located near many other population centers. In the event of a 
serious emergency, the relatively remote location of the city could 
provide substantial logistical challenges. These challenges would be 
magnified in attempts to provide satisfactory temporary housing. These 
challenges are not unique to Las Vegas, but would be faced by any 
population center that is of great distance from other population 
centers. How is FEMA preparing for this type of situation?
    Answer. FEMA would use the same prioritized approach set forth in 
the 2009 Disaster Housing Plan for a disaster in a remote population 
center, such as Las Vegas, as we would use in other areas of the 
country. FEMA always strives to house as many people as possible within 
close proximity of the affected area, beginning with the use of 
existing housing stock in the area. FEMA, its contractors, and Federal 
partners have a robust logistics capability between them to support 
first responders and relief personnel in order to prioritize disaster 
survivors for the existing accommodations. After exhausting available 
resources, FEMA would consider the use of manufactured and alternative 
interim housing, followed by employing innovative forms of interim 
housing, and utilizing permanent construction as an option of last 
resort.

 Questions From Chairman Bennie G. Thompson of Mississippi for Richard 
     L. Skinner, Inspector General, Department of Homeland Security
                              July 8, 2009

    Question 1. When cost-effective, should FEMA consider the use of 
permanent housing for disaster victims when the recovery period is 
going to be much longer than the standard 18-month period envisioned by 
the Stafford Act?
    Answer. FEMA provides disaster victims with temporary forms of 
housing including hotel/motel rooms, rental assistance, and travel 
trailers/mobile homes. Under the provisions of the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, as amended (Pub. L. 93-
288) (Stafford Act), this assistance is limited to a period of 18 
months after the disaster declaration, unless extended by the 
President.
    In most cases, the provisions of the Stafford Act allow for 
adequate assistance to disaster victims. Displaced residents often only 
require short-term assistance until repairs to their own houses can be 
made or alternate rental units can be identified. Following a 
catastrophic disaster, however, longer-term assistance may be required. 
In these cases, Federal officials need the ability to weigh the costs 
of long-term temporary housing against the provision of permanent 
housing.
    FEMA has traditionally interpreted the Stafford Act as prohibiting 
permanent or semi-permanent forms of housing assistance to disaster 
victims, except in insular areas outside the continental United States. 
The Stafford Act provides an exception to this prohibition that has not 
generally been utilized by FEMA. Specifically, the Stafford Act allows 
the provision of permanent or semi-permanent housing assistance when: 
(A) No alternative housing resources are available; and (B) the types 
of temporary housing assistance [described in the provision] are 
unavailable, infeasible, or not cost-effective.
    Arguably, after a catastrophic incident, it might be more cost-
effective to provide permanent rather than temporary forms of housing. 
Further, if providing assistance for permanent housing allows more 
residents to resettle in their communities and resume their lives 
quicker, the entire economy and well-being of the community or region 
may recover faster.
    While FEMA should maintain the authority and responsibility for 
sheltering disaster victims, consideration should be given to 
transferring responsibility for longer-term housing assistance to the 
U.S. Department of Housing and Urban Development (HUD), or another 
appropriate Federal agency, whether the assistance is in the form of 
temporary or permanent housing.
    Question 2a. Your testimony points out that rent has gone up 46% in 
New Orleans after Katrina. This obviously has a negative impact on 
residents' ability to return to the city.
    Should FEMA's plans, currently being developed under the Housing 
Strategy, include details as to how FEMA will support the restoration 
of pre-existing housing stock?
    Answer. Hurricane Katrina destroyed a tremendous amount of rental 
housing stock in the New Orleans area. While some of the housing stock 
has been rebuilt, the amount of rental housing available today cannot 
meet the demand of residents who would like to move back to the city. 
This demand drives up rental prices. One way to combat this type of 
rent increase is to help landlords repair their damaged rental stock, 
thereby increasing the number of rental properties available.
    Section 689i of the Post-Katrina Emergency Management Reform Act of 
2006 (Pub. L. 109-295, Title VI--National Emergency Management, of the 
Department of Homeland Security Appropriations Act of 2007) directed 
the FEMA Administrator to establish and conduct a pilot program to make 
better use of existing rental housing, in order to provide timely and 
cost-effective temporary housing assistance. FEMA did establish the 
Rental Repair Pilot Program and implemented the program in response to 
disasters in Iowa and Texas in 2008. Authority for this pilot program 
expired in December 2008.
    As FEMA continues to develop plans under the National Housing 
Strategy, it should work with its Federal, State, and local partners to 
plan for the quick restoration of housing stocks, including rental 
units, after a disaster.
    Question 2b. Could direct housing assistance, such as providing 
housing units directly to families for permanent use, facilitate return 
to an area following a disaster?
    Answer. Providing direct housing assistance, including housing 
units for permanent use, could facilitate residents' return to an area 
following a disaster. I would caution, however, that this type of 
assistance should only be considered in the case of a catastrophic 
disaster. For a less serious disaster, the provision of temporary 
housing assistance is adequate. A decision to provide permanent forms 
of housing should only be made when it is in the best interests of 
taxpayers to do so, such as when the costs of temporary forms of 
housing assistance outweigh the costs of permanent forms of housing. 
Further, a decision to provide permanent forms of housing should be 
made by FEMA and HUD, in cooperation with Federal, State, and local 
partners.

Questions From Chairman Bennie G. Thompson of Mississippi for Gerald H. 
         Jones, Member, National Institute of Building Sciences

    Question 1a. GAO reported in August 2007 that FEMA's implementation 
of the Alternative Housing Pilot Program failed to state the importance 
of rating criteria that the agency would use in evaluating grant 
applications. The absence of these factors may have impacted FEMA's 
ability to solicit and fund more innovative and creative disaster 
housing solutions.
    Has FEMA engaged NIBS in the development of rating criteria?
    Answer. Response was not provided at the time of publication.
    Question 1b. How were these criteria used to determine which 
housing units would be selected?
    Answer. Response was not provided at the time of publication.
    Question 1c. Has NIBS been continuously engaged with FEMA during 
this process? Is NIBS currently working with FEMA?
    Answer. Response was not provided at the time of publication.
    Question 1d. Has NIBS worked with FEMA to conduct an assessment of 
various community social factors and local sensitivities that should be 
considered in the wake of catastrophes? If so, please provide a copy of 
the assessment. If not, why has this assessment not been conducted? Can 
you please explain the importance of conducting such an assessment?
    Answer. Response was not provided at the time of publication.

                                 <all>

</pre></body></html>
